<html>
<title> - KEEPING THE COLUMBIA/SNAKE A WORKING RIVER SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
           KEEPING THE COLUMBIA/SNAKE A WORKING RIVER SYSTEM

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

             Monday, June 6, 2005, in Clarkston, Washington

                               __________

                           Serial No. 109-17

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                 U.S. GOVERNMENT PRINTING OFFICE

21-758                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Devin Nunes, California              Mark Udall, Colorado
Henry Brown, Jr., South Carolina     Dennis Cardoza, California
Thelma Drake, Virginia               Stephanie Herseth, South Dakota
Luis G. Fortuno, Puerto Rico
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Devin Nunes, California              Vacancy
Cathy McMorris, Washington           Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Monday, June 6, 2005.............................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     5
    McDermott, Hon. Jim, a Representative in Congress from the 
      State of Washington, Statement submitted for the record....    81
    McMorris, Hon. Cathy, a Representative in Congress from the 
      State of Washington........................................     4
    Otter, Hon. C.L. ``Butch,'' a Representative in Congress from 
      the State of Idaho, Statement submitted for the record.....     6
        Prepared statement of....................................     8
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     2
        Prepared statement of....................................     3

Statement of Witnesses:
    Alldredge, Dale R., President, Port of Lewiston Commission, 
      Idaho......................................................    14
        Prepared statement of....................................    16
    Appel, Steve, Vice President, American Farm Bureau 
      Federation, and President, Washington Farm Bureau, 
      Endicott, Washington.......................................    10
        Prepared statement of....................................    12
    Benson, Mark J., Director, Public Affairs, Potlatch 
      Corporation, Lewiston, Idaho...............................    32
        Prepared statement of....................................    34
    Hamilton, Liz, Executive Director, Northwest Sportfishing 
      Industry Association, Oregon City, Oregon..................    35
        Prepared statement of....................................    37
    Koegen, Curt, Business Manager, International Union of 
      Operating Engineers Local 370, Spokane, Washington.........    18
        Prepared statement of....................................    19
    Lewis, Virgil, Vice-Chairman, Yakama Nation, Toppenish, 
      Washington.................................................    24
        Prepared statement of....................................    26
    Miles, Rebecca A., Chairman, Nez Perce Tribal Executive 
      Committee, Lapwai, Idaho...................................    20
        Prepared statement of....................................    23
    Ott, Hon. Merrill, Chairman, Stevens County Board of County 
      Commissioners, Colville, Washington........................    30
        Prepared statement of....................................    31
    Ryckman, Jean, Manager, Public Utility District No. 1 of 
      Franklin County, and Chairperson, Coalition for Smart 
      Salmon Recovery, Pasco, Washington.........................    41
        Prepared statement of....................................    43
    Semanko, Norm, Executive Director and General Counsel, Idaho 
      Water Users Association, Boise, Idaho......................    51
        Prepared statement of....................................    53

Additional materials supplied:
    Columbia Basin Development League, Statement submitted for 
      the record.................................................    71
    Davis, Rick, Manager, Port of Clarkston, Pictures and video 
      submitted for the record (NOTE: Video has been retained in 
      the Committee's official files)............................    72
    Ducharme, Dick, Board Member, Snake River Salmon Recovery 
      Board, Statement submitted for the record..................    73
    Givens, James W., Lawyer, Lewiston, Idaho, Letter submitted 
      for the record.............................................    75
    Hemsley, Robert, Association of Western Pulp and Paper 
      Workers, Statement submitted for the record................    76
    Johns, Ronald, Spokane, Washington, Letter submitted for the 
      record.....................................................    78
    Priestley, Frank, President, Idaho Farm Bureau, Boise, Idaho, 
      Letter submitted for the record............................    83
    List of documents submitted for the record that have been 
      retained in the Committee's official files.................    84


OVERSIGHT FIELD HEARING ON ``KEEPING THE COLUMBIA/SNAKE A WORKING RIVER 
                                SYSTEM''

                              ----------                              


                          Monday, June 6, 2005

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                         Clarkston, Washington

                              ----------                              

    The Subcommittee met, pursuant to call, at 9:30 a.m., at 
the Quality Inn and Suites Conference Center, 700 Port Drive, 
Clarkston, Washington, Hon. George Radanovich [Chairman of the 
Subcommittee] presiding.
    Present: Representatives Radanovich, McMorris, Hastings, 
and Otter.
    Mr. Radanovich. Good morning and welcome to the 
Subcommittee on Water and Power hearing in Clarkston, 
Washington, regarding the Snake River. My name is George 
Radanovich. I represent a part of Central California near 
Yosemite, Fresno and Modesto in the 19th Congressional 
District. And I've got to tell you that it's a pleasure to be 
in your community. Thanks for causing the rain to stop and 
allowing me to enjoy a beautiful sunrise this morning. You have 
a beautiful neck of the woods, and I'm just thrilled to be 
here.
    Before we get into the hearing, I would like to yield to my 
able Subcommittee colleague who represents this area, 
Congresswoman Cathy McMorris, and also to the hardworking 
Congressman who represents nearby in Lewiston, Butch Otter, for 
some important announcements before we begin the hearing.
    Cathy.
    Ms. McMorris. Thank you, Mr. Chairman. We have a number of 
citizens that are going to be providing some important duties 
this morning. And we'd like to start by recognizing Gary Joiner 
who's staffed with the Washington State Farm Bureau who's going 
to lead us in the invocation. Gary.
    [Invocation given.]
    Ms. McMorris. If you would remain standing, I'd like to 
recognize the Junior ROTC from Clarkston High School to Present 
the Colors.
    [Colors presented.]
    Ms. McMorris. And now I'd like to recognize Boy Scout Troop 
262 to lead us in the Pledge of Allegiance.
    [Pledge of Allegiance recited.]
    Ms. McMorris. Thank you.
    Now I'm going to yield to my good neighbor to the east, 
Butch Otter from Idaho.
    Mr. Otter. Thank you, Cathy. Thank you, Mr. Chairman. Thank 
you for calling this meeting.
    Prior to introducing my guest who will sing a patriotic 
song on behalf of this nation, I want to remind us all that 
this is the 61st Anniversary of the invasion of Europe to end 
Word War II. And part of the liberties which we enjoy which 
allow us to come together peacefully and meet here today is 
because of those efforts.
    And in honor of that, I'd like to introduce to you from 
Grangeville, Idaho, Melissa Casteel who will sing God Bless 
America.
    [God Bless America sung.]

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Thank you very much. Just a beautiful 
voice. Thank you for that beautiful song.
    Right now I'm going to give a brief opening statement. And 
I just want to say--again, I came in last night and had the 
opportunity to wake up and see the sunrise on the beautiful 
Snake River and do a little exercise and get ready. And little 
did I know that America was at work with the demonstrations out 
front. And I hear that they were very active. And I think 
that's fantastic because everybody--we live in a land of free 
speech, and it was very good.
    However, the rules are always a little bit different in a 
hearing like this. And I do want to just take a minute to kind 
of describe what this is and what it's not.
    We have taken, I think, very good care to make sure that 
every view in this room is represented by the people in this 
panel. And I think we're having one or two panels? One.
    One panel. So everybody here represents this. This is an 
official Congressional hearing. And the purpose of the hearing 
is to take input on an issue. And the input comes from the 
folks up here. This isn't a public rally here. We need to be 
real careful that there's order maintained. And I wish 
everybody would respect that.
    But what I want to make sure that you know is that your 
views are represented on this panel. And we will hold the 
hearing record open for at least 30 days so that if you feel 
like something has not been said, you'll have the opportunity 
to create some written remarks and send them in.
    So if you would respect that, I would really appreciate it. 
And I do believe that the more order there is here, the better 
everything is heard and the more of an opportunity that we can 
get a decision on this issue that's fair and balanced.
    So with that I am going to do my opening statement and then 
invite other members on the dais to do the same. And then we'll 
get into the testimony of the witnesses.
    Again, thank you for being here, this beautiful part of the 
state. We gather here today along the Snake River to discuss 
ways to protect both endangered fish and the economy and the 
rural way of life in northern Washington. The central part of 
our discussion will be the Endangered Species Act, a well-
intended law but one that has serious consequences on rural 
communities.
    As I indicated earlier, I'm from the Central Valley of 
California. And my region has felt the firsthand impacts of the 
Endangered Species Act as well. In the 1990s, California levees 
could not be maintained because it was the habitat of the 
endangered elderberry bark beetle. The water agencies were not 
allowed to maintain levees. And when the floods of 1997 hit, 
the levees were wiped out and two or three people lost their 
lives. Most recently, environmental extremists have used fund-
raising and endless litigation in an attempt to undo decades of 
family farming in the San Joaquin Valley rivershed.
    Zealous environmental legislation has been used to rewrite 
history at the expense of the Pacific Northwest. Despite 
increased salmon runs, billions of Bonneville ratepayer dollars 
and unprecedented Federal attention to solving the salmon 
dilemma, the environmental community continues to focus on dam 
removal at any cost.
    I don't think Franklin Roosevelt or Warren Magnuson 
envisioned removing the very dams that they championed for 
multiple-use rivers in the Northwest. When the Endangered 
Species Act was created in 1973, I also don't think that anyone 
had in mind that our government would be spending $4 million 
per salmon like the Bonneville Power Administration was forced 
to do last summer because of litigation.
    Lawsuit abuse continues to exploit the Endangered Species 
Act to the point where many rural families are beginning to 
feel that the only thing endangered is their community and 
their way of life. It's time to make the Endangered Species Act 
work for species and all people who are affected firsthand; not 
the movie star activists, the environmental attorneys and 
judges who don't live with the everyday impacts of their 
decisions.
    Today's hearing is an important step in bringing common 
sense to the Endangered Species Act. And I want to commend my 
colleagues, Cathy McMorris, Butch Otter and, of course, Doc 
Hastings, for their leadership in asking for this hearing. And 
Mike Simpson as well.
    I also want to thank everybody for taking the time to 
attend this hearing. I know it's important, and you took time 
out of your Monday to be here. And it's very much appreciated. 
I encourage you to submit your comments for the record. And we 
look forward to hearing from my colleagues and from these 
witnesses.
    So I now recognize Ms. McMorris for her opening statement. 
Cathy.
    [The prepared statement of Mr. Radanovich follows:]

   Statement of The Honorable George Radanovich, a Representative in 
                 Congress from the State of California

    Today, we gather here along the Snake River to discuss ways to 
protect both endangered fish and the rural way of life. The central 
part of our discussion will be the Endangered Species Act, a well-
intended law but one that has serious consequences on rural 
communities.
    As I indicated earlier, I'm from the Central Valley of California. 
My region has felt the firsthand impacts of the Endangered Species Act. 
In the 1990's, California levees couldn't be maintained because of an 
endangered beetle. When massive floods came, the levees were wiped out 
and people perished. Most recently, environmental extremists have used 
fundraising and endless litigation in an attempt to undo decades of 
family farming in the San Joaquin rivershed. Just like in this area, we 
in the Central Valley have an activist Federal judge who wants to be a 
river-master.
    Zealous environmental litigation has been used to re-write history 
at the expense of the Pacific Northwest. Despite increased salmon runs, 
billions of Bonneville ratepayer dollars and unprecedented federal 
attention to solving the salmon puzzle, the environmental community 
continues to focus on dam removal whatever the expense. I don't think 
Franklin Delano Roosevelt, Harry Truman, Lyndon Baines Johnson and 
Warren Magnuson had dam removal in mind when they envisioned multiple-
use dams in the Northwest. When the ESA was created in 1973, I also 
don't think anyone had in mind that our government would spend $4 
million per salmon like the Bonneville Power Administration was forced 
to do last summer because of litigation.
    Lawsuit abuse continues to the turn the Endangered Species Act 
upside down to the point where many rural families are beginning to 
feel that the only thing ``endangered'' is their community. It's simply 
time to make the Endangered Species Act work for the species and the 
people, and not the movie stars, environmental attorneys and judges who 
don't have to live with the impacts of their irresponsible agenda.
    Today's hearing is an important step in bringing ``common sense'' 
to the ESA. I want to commend my colleagues, Cathy McMorris, Butch 
Otter, Doc Hastings and Mike Simpson for their leadership in asking for 
this hearing. I also want to thank everyone for taking the time to 
attend this hearing and encourage you to submit your comments for the 
record. I look forward to hearing from my colleagues and the witnesses.
                                 ______
                                 

   STATEMENT OF THE HON. CATHY McMORRIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Ms. McMorris. Thank you, Mr. Chairman. We're really pleased 
to have you in Clarkston this morning and welcome Congressman 
Hastings and Congressman Otter to the 5th Congressional 
District. We're pleased to see everyone here and thank you 
everyone for coming.
    As everyone in this region recognizes, the river is very 
important to our economy. I think the manager of the Port of 
Clarkston, Rick Davis, said it well when he compared the 
Columbia/Snake River System to Interstate 5. No one would 
consider shutting down Interstate 5. Yet we live in fear of 
shutting down many of the uses of the Columbia/Snake River 
System. That would destroy our way of life that is dependent 
upon the river.
    I grew up in northeastern Washington state in Kettle Falls. 
We had an orchard and a fruit stand that overlooked the 
Columbia River. The river was both a landmark and a part of our 
livelihood. Our family was not different from many of the 11 
million people who are living and working in the Pacific 
Northwest. The Columbia and Snake Rivers affect our daily lives 
in very different ways.
    We all share a desire and recognize the importance of 
protecting our salmon populations. This region has invested 
billions of dollars, much of it coming from the pocket of 
ratepayers. It's interesting to note that over 20 percent of 
BPA's electric rates go for fish costs. And we've recently seen 
an increase in salmon populations throughout the rivers, and we 
need to maintain that momentum.
    While we use the river system in different ways, we share a 
common goal to solve our decade's old problem of protecting 
endangered species while maintaining the value of the river 
system. Whether it is agriculture lands that have been 
developed because of irrigation or our region's economy which 
was largely built on inexpensive hydropower--where in the 
Pacific Northwest, 70 percent of our electricity is generated 
from hydroelectricity--or the importance of the river as a 
transportation system and providing recreational opportunities, 
the Columbia River System ties our region together.
    The existence of barge transportation on the lower Snake 
River not only benefits the residents and farmers of eastern 
Washington, eastern Oregon, Idaho and Montana, but also creates 
over 40,000 jobs in Portland that generates millions of dollars 
in economic activity and tax revenue.
    I think it's interesting to note, the Columbia/Snake River 
barge shipper saves $38 million annually over the cost of 
transporting their cargos either by rail or truck. For example, 
one ton of cargo can be transported 514 miles by barge on just 
one gallon of fuel. While one ton of cargo can be moved only 59 
miles on one gallon of fuel by truck. 43 percent of U.S. Wheat 
exports and 23 percent of all U.S.
    Grain exports go through the Columbia/Snake River Systems. 
Over 60 percent of Washington wheat travels by barge through 
the Columbia/Snake River Systems.
    Water from the Columbia and Snake Rivers provide important 
irrigation for the hundreds of crops grown throughout this 
region. It helps with flood and erosion control.
    This morning we're going to hear a lot about the need to 
protect our endangered salmon while not closing the river.
    Any solution must take into account salmon protection and 
recovery, but we must not sacrifice the other important uses of 
the river. The river systems throughout the Northwest are a 
critical part of our region's economy and should be used for 
transportation, irrigation and recreation.
    The purpose of today's hearing is to get outside of 
Washington, D.C., and to the real Washington to hear from those 
most affected by the issue. I'm so pleased that everyone is 
here this morning. And I look forward to finding solutions that 
will protect our salmon, our endangered species, and our way of 
life.
    Thank you very much.
    Mr. Radanovich. Thank you, Cathy.
    I want to recognize now my friend and colleague from 
Washington with whom I was elected, at the same time, more than 
ten years ago. Doc.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. George, thank you very much. And I want to 
welcome you up here to the great Northwest. And, actually, it's 
been 11 years. It doesn't seem like it's been that long.
    Mr. Chairman and members, I want to thank you for holding 
this important hearing today. And I want to join my fellow 
Washingtonians once again in welcoming you to the Pacific 
Northwest. I'm sure we will find great benefit in hearing 
firsthand from the local residents here today as we discuss the 
importance of our multiple-purpose dams on the Columbia and 
Snake River Systems.
    These individuals are on the front lines of helping to 
maintain one of the most productive agricultural regions in the 
world, as Cathy enumerated moment ago. An important 
transportation link to the Pacific Rim in clean renewable 
source of energy, not only for the Pacific Northwest but 
several other western states as well.
    I'd like to also note that two of the panelists who have 
come here to testify are from my district; Jean Ryckman from 
Pasco is the General Manager of the Franklin PUD, and Virgil 
Lewis is the Vice Chairman of the Yakama Nation. And I want to 
welcome both of them here, and I look forward to hearing your 
perspective.
    Today's hearing, Mr. Chairman, is especially timely given 
the recent Court ruling that essentially invalidates the 2004 
biological opinion for the operation of the Federal Columbia 
River System. Unfortunately, this same Court may be on the 
brink of ordering drastic changes to the operation of this 
system being requested by certain special interest groups and 
others. Much of what the plaintiffs have asked involves 
flushing more water out of the Columbia, regardless of the 
impact such actions would have on power generation, navigation, 
recreation, irrigation and even other fish and wildlife.
    So let's be real clear about this. The real goal of these 
groups is dam removal. Starting with the four lower Snake River 
dams. And I can assure you that as long as I am in Congress, I 
will work as hard as I can to see that these dams are not 
breached.
    Last week I joined several of my colleagues from the 
Northwest to ask the Administration to appeal this recent 
Federal court ruling that I mentioned that would invalidate the 
2004 Biological Opinion. In the meantime, I know the 
Administration is working to reach an agreement with the 
Northwest Governors on alternative actions that might spare the 
region the economic disruptions that would be caused by changes 
to the operation of the hydrosystem this summer.
    I hope these efforts are successful. Particularly since 
over the years a bipartisan group of Northwest Governors has 
already agreed on more than one occasion that we can save 
salmon without tearing down the dams. Ultimately we need to 
return decisionmaking to the agencies with expertise, make the 
salmon recovery more efficient and focused, and no longer allow 
litigants to drive the process.
    Farmers, barge owners and Northwest electricity users alone 
are not responsible for the plight of salmon. In fact, they've 
contributed greatly over the years--is it still on? And so it's 
simply not fair or scientifically credible to put 100 percent 
of the burden of salmon recovery on these people.
    So, Mr. Chairman, I thank you very much once again for 
having this hearing. I look forward to hearing from our 
witnesses, because what they have to say is very important as 
the decision process goes.
    Thank you very much.
    Mr. Radanovich. Thank you, Doc.
    I now recognize the Gentleman from Idaho, Mr. Otter. Butch.

STATEMENT OF THE HON. C.L. ``BUTCH'' OTTER, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mr. Otter. Thank you, Mr. Chairman. And before I begin my 
opening statement today, I want to remind everybody of the 
great rally that we had earlier. And I think a lot of good 
speeches, a lot of good points were made. I want to thank all 
the farmers and ranchers and laborers and everybody that labors 
within this economy for coming up. And beginning today with a 
rally like that reminding us of the importance of these kinds 
of open meetings and the importance of our economy. And in 
particular I want to thank Jerry Clinton from Lewiston, Idaho, 
and many others for helping put that together.
    I also want to congratulate the many independent truckers 
who brought their rigs here today to show their support for the 
dams. And Arthur Lyons (phonetic) with the Lewis Clark Terminal 
Association and Ken Blakeman with the Primeland Cooperatives 
helped with that effort and that organization.
    As I said, Mr. Chairman, many important things I think were 
said out there this morning. And so I would ask unanimous 
consent that to the extent that we have a record of those 
speeches that were made out there this morning that those be 
entered as part of the official record of this hearing.
    Mr. Radanovich. Without objection they will be admitted.
    Mr. Otter. I would also, Mr. Chairman, and members of the 
Committee, ask unanimous consent that because we are limited in 
our time, there's a lot of people that are going to want to 
submit at least some perhaps rebuttal to what is heard here 
today but at least have the opportunity to voice their opinion 
in this public hearing. And so I would ask that this record be 
kept open for 30 days allowing anyone who's here or anyone who 
could not make it an opportunity to submit written testimony 
for their particular position on this committee. I'd ask that 
unanimous consent.
    Mr. Radanovich. Without objection so ordered.
    Mr. Otter. Mr. Chairman, let me, along with my colleagues 
from the State of Washington, thank you. It always seems like 
two people from Washington have to show up in order to account 
for one person from Idaho. And I think that that's----
    [Laughter.]
    Mr. Otter. But I was actually thinking of the other 
Washington.
    [Laughter.]
    Mr. Otter. I was thinking of the other Washington. I think 
when you throw in two people from Washington and a member from 
California, that's----
    Actually, Mr. Chairman, I appreciate your willingness to 
come out and have a public hearing. This has been a very 
important issue for the 14 years that I was the lieutenant 
Governor for the State of Idaho and the five years--four-and-a-
half years that I have been a Member of Congress. This has 
always been an important issue for the State of Idaho and for 
water management, for river management, for transportation and 
for the economy.
    Salmon are an important part of the heritage and the 
economy, and maintaining the Salmon and the Snake River is a 
very high priority. However, Federal salmon restorations 
decisions cannot occur in a vacuum. We must do a better job of 
taking into account how the management decisions impact people, 
jobs, and the economy of the Pacific Northwest.
    This hearing took on an additional importance, Mr. 
Chairman, when Judge Redden ruled on the biological opinion for 
the operation of the Federal Columbia and Snake River 
hydropower system last week. I am concerned that the ruling 
sets the stage for the river to be run by court order rather 
than by sound science.
    Even though the region has been blessed with a very wet 
spring, we're still facing a low water year. And management of 
this scarce resource will be key for the survival of the salmon 
and the Northwest economy. The recent Federal court's decision 
focusing on river operations to the exclusion of all other 
factors influencing salmon runs, from harvest to predation, to 
conditions that they face in the ocean. That kind of narrow 
view reinforces the pressing need for Congress to once again 
revisit and then overhaul the Endangered Species Act. And it 
threatens this administration's consistent commitment to 
balance the salmon recovery with economic vitality of our 
region.
    I also am concerned with the seeming impossibility of 
dredging the lower Snake River. Five years ago, 
interventionists managed to manipulate existing law and tied 
the hands of the U.S. Army Corps of Engineers with a lawsuit 
that blocked them from dredging the important navigational 
channels of the Snake River. Their success has had devastating 
consequences on the economy of Idaho.
    The Snake River feeds the lower Columbia River 
International Gateway, and at one point moves about 6 million 
tons of grain, paper products, petroleum products, and general 
container cargos produced by Idahoans every year amounting to 
about a billion 600 million dollars.
    Barging products not only is the cheapest way to get the 
goods from Idaho to the world marketplace, but it also keeps 
the trucks off our already overloaded highways, improving 
transportation safety and air quality in the Pacific Northwest. 
However, without the ability to dredge the lower Snake River 
for the past three years, the navigational channel is becoming 
more and more restricted each year. And the conditions will 
continue to deteriorate. We will hear from the witnesses on the 
real impact on their businesses due to the delay in this 
dredging.
    Mr. Chairman, in closing, this hearing is a welcome 
opportunity for the folks who live--whose lives and livelihoods 
are most influenced by this great river system we have in the 
Pacific Northwest. And to have their voices heard is an 
important part of this hearing.
    I am grateful to you for coming to the region and for 
recognition that the Columbia and Snake Rivers truly are 
working rivers, and they require reasonable balanced 
management. I am hopeful that this hearing will put Judge 
Redden's ruling, as well as such critical issues as meeting the 
needs of power generation, population growth, irrigation and 
transportation, in the context for the people of our region.
    I look forward to hearing the testimony of our witnesses. 
And I thank you, Mr. Chairman.
    [The prepared statement of Mr. Otter follows:]

 Statement of The Honorable C.L. ``Butch'' Otter, a Representative in 
                    Congress from the State of Idaho

    Thank you Mr. Chairman for coming to the Pacific Northwest and 
holding this hearing today to look at how federal management decisions 
impact the Columbia and Snake river system.
    Salmon are an important part of our heritage and economy, and 
maintaining the salmon in the Snake River is a very high priority. 
However, federal salmon restoration decisions cannot occur in a vacuum. 
We must do a better job of taking into account how the management 
decisions impact people, jobs, and the economy of the Pacific 
Northwest.
    This hearing took on additional importance when Judge Redden ruled 
on the biological opinion for operation of the federal Columbia and 
Snake river hydropower system. I am concerned that the ruling sets the 
stage for the river to be run by court order rather than sound science. 
Even though the region has been blessed with a very wet spring, we 
still are facing a low water year and management of this scarce 
resource will be key for the survival of salmon and the Northwest's 
economy. The recent federal court's decision focuses on river 
operations to the exclusion of all the other factors influencing salmon 
runs, from harvest to predation to conditions they face in the ocean. 
That kind of narrow view reinforces the pressing need for Congress to 
overhaul the Endangered Species Act, and it threatens this 
administration's consistent commitment to balancing salmon recovery 
with the economic vitality of our region.
    I also remain concerned with the seeming impossibility of dredging 
the lower Snake River. Five years ago environmentalists managed to 
manipulate existing law and tie the hands of the U.S. Army Corps of 
Engineers with a lawsuit that blocked them from dredging the important 
navigational channels of the Snake River. Their success had devastating 
consequences for the economy of Idaho. Then Snake River feeds the lower 
Columbia River international gateway, and at one point moved about six 
million tons of grain, paper products, petroleum products, and general 
container cargo produced by Idahoans a year--amounting to almost $1.6 
billion. Barging products not only is the cheapest way to get goods 
from Idaho to the world marketplace, but it also keeps trucks off our 
already overloaded highways, improving transportation safety and air 
quality in the Pacific Northwest.
    However, without the ability to dredge the lower Snake River for 
the past three years, the navigational channel is becoming more and 
more restricted each year, and the conditions will continue to 
deteriorate. We will hear from the witnesses on the real impact to 
their business due to the delay in dredging.
    Mr. Chairman, this hearing is a welcome opportunity for the folks 
whose lives and livelihoods are most influenced by the river systems to 
have their voices heard. I am grateful to you for coming to the region, 
and for recognizing that the Columbia and Snake truly are working 
rivers that require reasonable, balanced management. I am hopeful that 
this hearing will put Judge Redden's ruling--as well as such critical 
issues as meeting the needs of power generation, population growth, 
irrigation and transportation--in context for the people of our region. 
I look forward to hearing the testimony.
    Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Butch.
    Now we will get down to the point where I will introduce 
our ladies and gentlemen who are giving testimony. And each one 
will be given five minutes to deliver testimony. And then after 
that we'll open it up for questions from the dais up here to 
the members of the panel and we'll proceed.
    We have a great list of witnesses here today. It's Mr. Curt 
Koegen, Business Manager of the International Union of 
Operating Engineers from Spokane, Washington. Mr. Steve Appel, 
President of Washington State Farm Bureau, in Endicott, 
Washington. Mr. Virgil Lewis, Vice Chairman of the Yakama 
Tribal Council, in Toppenish, Washington. Ms. Rebecca Miles, 
the Chairperson of the Nez Perce Tribal Executive Committee, in 
Lapwai, Idaho.
    It's kind of like La Jolla. Nobody gets that one. The 
Honorable Merrill Ott, Commissioner of Stevens County, 
Colville, Washington. Mr. Dale Alldredge, President of the 
Commission of Port of Lewiston, Idaho. Liz Hamilton is the 
Executive Director of the Northwest Sportfishing Industry 
Association, Oregon City, Oregon. Mr. Mark Benson, Potlatch 
Corporation, Lewiston, Idaho. Ms. Jean Ryckman, General Manager 
of the Franklin County PUD in Pasco, Washington. Norm Semanko, 
Executive Director and General Counsel of the Idaho Water Users 
Association in Boise, Idaho.
    And before we begin the testimony, I want to yield just a 
second to my friend from Idaho. Butch.
    Mr. Otter. Thank you very much.
    Ladies and gentlemen, I'd like you to join with me. I want 
to make a presentation to Melissa Casteel for that beautiful 
song that she played. It is an American flag that has been 
flown over the Nation's Capitol. And thank you very much for 
opening our----
    [Applause.]
    Ms. McMorris. Thank you, Mr. Chairman. We have flags for 
the Boy Scouts and for the ROTC from Clarkston High School. If 
anyone is here representing those groups any longer, we'll 
present you with a flag too. Thank you.
    Mr. Radanovich. Thank you very much.
    Now we'll begin the testimony. I'm going to work from my 
left to the right. You'll notice we have little boxes here. 
Those are timekeepers. We like to limit the testimony to five 
minutes. Again, every person giving testimony here has already 
submitted their complete testimony for the record. It's in the 
written part of the testimony.
    Feel free to be extemporaneous on your remarks, if you 
would like to. We'd like to hold the witnesses to five minutes 
because we do have a lot of people and not a lot of time. I do 
want to say, too, that I have been away from home about six 
days now. And I want to catch a plane to go back home. And I 
may be leaving at about 11:30 or quarter to 12:00. But we will 
keep the hearing open as long as needed in order to get all of 
the testimony into the record.
    The lights work like a traffic light. Green means go; 
yellow means speed up; and red means stop. So use those as you 
go through.
    Mr. Appel from the Washington State Farm Bureau.
    Welcome to the hearing. You may begin.

STATEMENT OF STEVE APPEL, VICE PRESIDENT, AMERICAN FARM BUREAU 
         FEDERATION, PRESIDENT, WASHINGTON FARM BUREAU

    Mr. Appel. Mr. Chairman and members of the Subcommittee, I 
want to thank you for the opportunity to testify on an issue 
that is very personal to me. I'm here today as President of the 
American Farm Bureau--or Vice President of the Farm Bureau 
Federation and as President of the Washington State Farm 
Bureau.
    Perhaps even more importantly than that, I'm here as a 
farmer who grows wheat just 50 miles away from here. The wheat 
I grow is loaded onto barges at Almota in Central Ferry and 
it's towed to Portland where it's put on ocean-bound ships.
    I know how important the Snake/Columbia River corridor is 
to agriculture. And I know how important a working river is for 
my neighbors, my community that I grew up in, and the 
communities throughout the Northwest. We need the river system. 
We depend on the water from the rivers for irrigation, to 
transport the barges with our crops to market. And we depend on 
those same barges to bring our fuel and fertilizer up river to 
us. We also depend on clean, renewable, low-cost hydroelectric 
power to keep our farming affordable.
    The Snake/Columbia River system is the third largest grain 
corridor in the world. It's the largest transportation corridor 
for wheat in the United States. Nearly 10 million tons of wheat 
is shipped down the river annually. Almost 5 million tons of 
that is put into the barges on the Snake River portion of the 
system.
    Eliminating the Snake River dams would devastate the 
agriculture in eastern Washington and hurt farmers as far away 
as North Dakota. And it would force many farmers off their land 
and turn agricultural communities into ghost towns.
    Those people who say that we can easily replace barges with 
trucks and rail cars simply haven't looked at the facts. A 
single barge carries as much as 35 railroad cars or as much as 
134 semi-trucks. And we would need to have the equivalent of 
120,000 rail cars annually or 700,000 semi-trucks to replace 
the barges on the waterway. That's thousands of trucks crowding 
the interstate on the way down to Portland.
    Higher costs, more pollution. Doesn't make sense to me.
    And even if enough rail cars or trucks existed, the Corps 
of Engineers has determined that if you drop the river levels, 
those lines would probably collapse into the river gorge in 
more than 60 different places.
    We believe, supported by sound science and years of study 
by the National Marine Fisheries Service, that we can protect 
the salmon without destroying the infrastructure that is the 
centerpiece of eastern Washington's economy.
    As you know, between salmon and the spotted owl, the 
Northwest has been in the crosshairs of the ESA for more than a 
decade. And the most important thing that we've learned during 
this time is the ESA is not about saving species. Instead, the 
ESA is about litigation, continual and costly litigation. Well-
funded special interest groups that sue again and again until 
they get the answer they want from the courts.
    It's been well publicized that the ESA has not been 
particularly effective at recovering threatened or endangered 
species. Only 15 of the 1300 species listed have ever been, 
quote, recovered. In fact, more species, 16, have been delisted 
because of original errors in the listing data. However, the 
ESA has been very effective at disrupting the lives of ordinary 
Americans.
    For example, for the past two years, farmers in Washington, 
Oregon and parts of California have been unable to use 
perfectly legal, extensively tested, and EPA-approved 
agricultural chemicals within a football field of the river. 
Not because there's evidence that those chemicals are hurting 
salmon but because a Federal judge in Seattle found fault with 
the way that EPA consulted with U.S. Fish and Wildlife.
    The farmers have done nothing wrong. Nobody has accused 
them of doing anything wrong, but they're the ones who are 
being punished. And when Farm Bureau filed an appeal, the same 
judge ruled that the economic hardship his order would have on 
farmers was, and I quote, Not relevant.
    Not relevant. Well, if it's not relevant then something is 
badly out of whack with the law. There has to be a better 
balance between saving species and protecting the livelihoods 
of innocent people.
    Two weeks ago, for the third time in 12 years, a Federal 
judge in Oregon ruled against the government over what's known 
as a biological opinion for the operation of the Columbia/Snake 
River dams. The administrative record in this case already 
fills more than 56 boxes, if you look over here, with more than 
a ton of paperwork. And we still don't know what to expect or 
what is expected of us. And now that one judge is set up to 
micromanage the entire river system.
    The judge in this case will decide next week how much water 
will be spilled over the dams this summer to flush juvenile 
fish down river. And ultimately, this case will affect the 
management of more than 70 million acres of Columbia River 
basin, private and public. It will affect more than 219,000 
square miles in seven western states.
    And at this point, it looks like it will be decided by a 
judicial system that places the ESA ahead of people and the 
rights of fish ahead of the rights of farmers and ranchers, 
whatever the cost. That's just wrong.
    Let me just wrap up by saying that farmers and ranchers 
care about the environment. We care about the land and how we 
make our living and where we raise our families. But the ESA 
punishes the innocent.
    The most effective conservation programs are ones that 
reward people for doing a little bit extra. The ESA, on the 
other hand, is a sledge hammer that too often leaves innocent 
property owners battered and bloodied. That's not the way the 
laws in this country are supposed to work. And after 32 years 
of little or no success, it's time to fix what's wrong with the 
ESA.
    Again, I want to thank the Committee for the opportunity to 
talk with you here today and will be happy to answer any 
questions that you want to ask.
    [The prepared statement of Mr. Appel follows:]

    Statement of Steve Appel, Vice President, American Farm Bureau 
           Federation, and President, Washington Farm Bureau

    Mr. Chairman and members of the subcommittee:
    I want to thank you for the opportunity to testify on an issue that 
is very personal to me.
    I am here today as vice president of the American Farm Bureau 
Federation, the largest general agricultural organization in the world, 
and as president of the Washington Farm Bureau, the largest general 
agricultural organization in Washington state, representing more than 
35,000 member families.
    Perhaps even more importantly, I am here as a farmer who grows 
wheat not more than 50 miles from where we are today.
    The wheat I grow is loaded onto barges at Almota or Central Ferry--
downriver from here--and towed to Portland, where it is loaded on 
ocean-bound ships for export.
    I personally know how important the Snake/Columbia River corridor 
is for agriculture. And I know how important a working river is to my 
friends, my neighbors...to the community I grew up in, and to 
communities throughout Eastern Washington, Oregon and Idaho.
    Let me put this as bluntly as I can.
    We need the Snake/Columbia River system. We depend on water from 
the rivers for irrigation. We depend on barges to get our crops to 
market economically. We depend on barges to get the oil and fertilizer 
we need up river. And we depend on clean, renewable low-cost 
hydroelectric power to help keep farming affordable.
    The Snake/Columbia River system is the third-largest grain corridor 
in the world, and the largest transportation corridor for wheat in the 
United States.
    Nearly 10 million tons of wheat are shipped down the river to 
Portland every year...with almost 5 million tons loaded onto barges 
from facilities along the Snake River. Those barges also haul tons of 
potatoes, peas, beans, sweet corn, lentils, onions and other 
agricultural crops.
    Eliminating the Snake River dams--physically or operationally--
would devastate the agricultural economy of Eastern Washington and hurt 
farmers as far away as North Dakota. It would force many farmers off 
the land and turn agricultural communities into ghost towns.
    And those people who say we could easily replace the barges with 
trucks or rail cars haven't looked at the facts.
    A single barge carries as much as 35 railway hopper cars, or as 
much as 134 semi-trucks. We would need the equivalent of 120,000 rail 
cars annually, or 700,000 semi-trucks, to replace barges on the Snake/
Columbia waterway.
    That's thousands of trucks crowding onto the interstate through the 
Columbia Gorge all the way into Portland, more air pollution, higher 
costs for farmers--doesn't make sense to me.
    And even if enough rail cars and trucks existed--and they don't--
the Corps of Engineers determined that the roads and railways along the 
river would probably collapse and tumble into the river gorge in more 
than 60 places if the dams were breached and the reservoirs drawn down.
    Let's get real here. We continue to believe--supported by sound 
science and years of study by the National Marine Fisheries Service--
that we can protect salmon without destroying the infrastructure that 
is the centerpiece of Eastern Washington's economy.
    Now, with the time I have remaining, I'd like to comment on 
enforcement of the Endangered Species Act in general.
    As you know, between salmon and the spotted owl, the Northwest has 
been in the crosshairs of the ESA for more than a decade. And the most 
important thing we have learned during this time is that the ESA is NOT 
about saving species.
    Instead, the ESA is about litigation...continual and costly 
litigation...by well-funded special interest groups that sue again and 
again until they get the answer they want from the courts. And it's 
about control of our land and water
    It's been well publicized that the ESA has not been particularly 
effective in recovering threatened or endangered species.
    Only 15 of the 1,300 species listed as threatened or endangered 
have ever been (quote) recovered. In fact, more species--16--have been 
delisted because of original errors in the listing data than because of 
any efforts at recovery.
    However, the ESA has been very effective at disrupting the lives of 
ordinary Americans.
    For example, for the past two years, farmers in Washington, Oregon 
and parts of California have been unable to use perfectly legal, 
extensively tested and EPA-approved agricultural chemicals within a 
football field of any river or creek NOT because there is evidence 
those chemicals are hurting salmon, but because a federal judge in 
Seattle found fault with the way the EPA consulted with U.S. Fish and 
Wildlife.
    These farmers have done nothing wrong. Nobody has accused them of 
doing anything wrong.
    But they are the ones who are being punished--in the name of the 
ESA.
    And when Farm Bureau filed an appeal, the same judge ruled that the 
economic hardship his order would have on farmers was, and I quote, 
``not relevant.''
    Not relevant? The law is punishing hard-working Americans who have 
done nothing wrong and that's not relevant?
    If that's ``not relevant,'' then something is badly out of whack 
with the law.
    There has to be better balance between saving species and 
protecting the livelihoods of innocent people.
    I know I'm almost out of time, but I want to make just one more 
point.
    Two weeks ago, for the third time in 12 years, a federal judge in 
Oregon ruled against the government over what is known as a biological 
opinion for the operation of Columbia/Snake River dams.
    The administrative record in this case already fills more than 56 
boxes--more than a ton of paperwork.
    And we still don't know what to expect...or what is expected of us. 
And now, one judge is set up to micromanage the entire Snake/Columbia 
River hydroelectric system.
    Already, the judge in this case will decide next week how much 
water will be spilled over the dams this summer to flush juvenile fish 
down the river--reducing water for irrigation, lowering river levels 
for barging, and further driving up electrical costs for the Northwest.
    And ultimately, this case will affect the management of more than 
70 million acres of land in the Columbia/Snake River Basin--private and 
public.
    It will affect more than 219,000 square miles in seven Western 
states.
    And at this point, it looks like it will be decided by a judicial 
system that places the ESA ahead of people...and the rights of fish 
ahead of the rights of farmers and ranchers...whatever the cost.
    That's just wrong.
    Let me just wrap up by saying that farmers and ranchers care about 
the environment. We care about the land--it's how we make our living 
and where we raise our families--and we care about the wildlife.
    But the ESA punishes the innocent. It punishes the very people who 
have taken care of the land. It punishes the people who provide the 
habitat for the species it is supposed to protect.
    The most effective conservation programs are the ones that reward 
people for doing that little extra. The ESA, on the other hand, is a 
sledgehammer that too often leaves innocent property owners battered 
and bloodied.
    That's not the way the laws in this country are supposed to work, 
and after 32 years of little or no success...after 32 years of 
trampling on individual rights...it's time to fix what's wrong with the 
ESA.
    Again, I want to thank the committee for this opportunity, and I 
would be happy to answer any questions I can.
    NOTE: An attachment to Mr. Appel's statement has been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Appel. I 
appreciate your testimony.
    Next is Mr. Dale Alldredge with the Port of Lewiston. 
Welcome.

            STATEMENT OF DALE ALLDREDGE, PRESIDENT, 
              COMMISSION, PORT OF LEWISTON, IDAHO

    Mr. Alldredge. Thank you, Mr. Chairman. It's a pleasure to 
be here today. And I don't know if I'm more nervous today than 
I was ten years ago when I got married in this very room. So if 
I stammer a little bit, now you know why.
    Mr. Radanovich. You were stammering ten years ago?
    Mr. Alldredge. Yes, I was. Thank you again.
    My name is Dale Alldredge. And I am very proud to serve as 
the President of the Port of Lewiston Commission. The Port of 
Lewiston is actually Butch's port. Idaho's only seaport and 
here at the head of the navigation of the Columbia/Snake River 
system.
    We are just one of 25 public port districts on the 
Columbia/Snake River navigation system. This system is the 
number one export gateway of the United States for wheat and 
barley. And number one on the West Coast for forest and paper 
products. In all, about 12 million tons of cargo move each year 
on this system valued at approximately $2 billion.
    According to a recent economic study, maritime commerce 
along the Columbia/Snake River system is estimated to sustain 
40,000 family wage jobs.
    Everyone knows that barging is the lowest cost and most 
environmentally responsible form of transportation.
    According to the U.S. Maritime Administration--and excuse 
me for repeating some of your quotes, Congresswoman--one gallon 
of fuel on a barge will move one ton of cargo 514 miles 
compared to 202 miles by rail or only 59 miles by truck.
    Air pollution comparisons yield similar results, with 
barging being far cleaner for the environment than rail or 
trucking.
    A typical grain ship departing the Columbia River to 
foreign markets carries 60,000 tons of wheat. To move that 
amount of grain from Lewiston to Portland takes only 4-and-a-
half barge tows. But it would take six 100-car unit trains or a 
total of 2400 semi-trucks to move that same amount of grain.
    Annually, barging keeps 700,000 trucks off the interstate 
which in turn it helps protect the sensitive air-shed in the 
Columbia River Gorge.
    In Idaho--the Idaho and national economy is stronger 
because the Columbia/Snake River system provides economic 
benefits to the other states we serve, including Washington, 
Montana, Wyoming and the Dakotas. The producers in these states 
rely on our Columbia/Snake River system to reach highly 
competitive foreign markets.
    All these benefits depend on the maintenance of the multi-
purpose Federal projects on the Columbia/Snake River system. 
Which brings us to why we're here today.
    Some groups are using the ESA Act as a vehicle to call for 
the removal of the Snake River dams. Either option of removal 
or drawdown would end navigation and eliminate or significantly 
reduce hydropower production.
    Studies by the Northwest Power and Conservation Council, a 
Corps of Engineers System Operation Review, a Federal agency 
Environmental Impact Study, three independent Salmon Recovery 
Teams, and three biological opinions have all rejected dam 
breaching.
    If advocates of dam breaching are successful, Ports of 
Lewiston, Clarkston and Whitman County will cease to operate 
for maritime cargo. Locally, this will mean the loss of over 
1600 jobs and $36 million a year in direct payroll. We will 
lose millions of tons of cargo, hundreds of millions of dollars 
of commerce and the opportunity to move products to market from 
Washington, Idaho, Montana, Wyoming and the Dakotas at rates 
that allow us to compete in national markets.
    And navigation means more to this region than just moving 
cargo. Each year more than 15,000 tourists visit our area here 
on cruise boats that rely upon the Columbia/Snake River system 
of locks and dams to reach eastern Washington and northern 
Idaho.
    Dam breach advocates claim that fish are going extinct. But 
the fact is there are more fish in the river today than at any 
time since the first dam was built at Bonneville in 1938. Since 
2000 we have experienced----
    [Brief interruption.]
    Mr. Radanovich. Again, if we could have order so that we 
can hear the testimony, it would be appreciated.
    Mr. Alldredge. Since 2000 we have experienced the four 
highest years of fish returning to the river. In fact, from 
2000 to 2003, returns of Snake River steelhead are up 57 
percent, Snake River summer chinook are up 91 percent, and 
Snake River Fall chinook are up 217 percent.
    Dam breach advocates claim that the dams are killing all 
the fish. But, in fact, according to NOAA Fisheries, survival 
through the river system is higher today than it was before the 
Snake River dams were built.
    Dam breach advocates claim that taking out Snake River dams 
is the only way to save salmon. What they don't say is there 
are 26 runs of fish listed as threatened or endangered from 
northern California to the Canadian border. And only four of 
these listed runs pass by these four Snake River dams.
    Changing ocean conditions has been cited as one of the 
principal reasons for recent record salmon runs. Salmon spend 
approximately 10 percent of their life in the river and 90 
percent in the ocean. It simply is not credible to claim that 
breaching dams is the only answer for salmon.
    Dam breach advocates claim that we can simply shift cargo 
from barge to truck or rail. That's not true. The costs are 
significantly higher and few containers of high value 
commodities can afford the higher rates. And the vast majority 
of our cargo is grain.
    Farmers can't get truck drivers to meet their needs today 
and aren't likely to find enough drivers for an additional 
700,000 two-day trips to Portland or Vancouver. And if they 
could, the farmers couldn't afford them. The price of grain is 
set on the world market, and farmers can't simply increase 
their price to cover the increased cost. And rail is not a 
better alternative.
    Railroads have a poor history of offering reliable service 
to our grain shippers. Cars are not often available when 
they're needed, they are not delivered on time, and fewer cars 
are delivered than ordered. Lack of reliable service would 
cause our grain shippers to default on the delivery terms of 
their contracts.
    Mr. Chairman, we believe that a multi-purpose river system 
and healthy fish runs are compatible. In 2002 the Corps of 
Engineers completed the lower Snake River EIS, a five-year, $25 
million study. The Corps concluded that we can have healthy 
fish runs and a multi-purpose river system. Recent record fish 
runs verify the Corps' finding.
    Mr. Chairman, we are seeking your support and the support 
of your Committee to ensure that fish runs and family wage jobs 
are both available for future generations.
    Thank you.
    [The prepared statement of Mr. Alldredge follows:]

                Statement of Dale Alldredge, President, 
                      Port of Lewiston Commission

    Thank you for inviting me to testify today on this important 
matter.
    My name is Dale Alldredge.
    I am proud to serve as the President of the three-member Port of 
Lewiston Commission, elected by the citizens of our Port District.
    The voters of Nez Perce County established the Port of Lewiston in 
1958 with a resounding 80% approving the development of Idaho's only 
seaport. The mission of the Port is to create living wage jobs by 
facilitating trade and economic development for the benefit of the 
citizens of Idaho.
    We worked for 20 years to bring navigation to Lewiston, and the 
State of Idaho and our nation have benefited ever since.
    The Port of Lewiston serves a wide range of Idaho farmers, food 
processors and forest products manufacturers, including wheat growers 
in Grangeville, pea and lentil producers in Moscow, and the 2,000 
employees of Potlatch Corporation, manufacturing paper products just a 
mile up the road in Lewiston.
    We are just one of the 25 public port districts on the Columbia 
Snake River navigation system.
    <bullet>  This system is the number one export gateway in the 
United States for wheat, number one in the nation for barley exports, 
and number one on the West Coast for forest products and paper products 
exports.
    <bullet>  In all, about 12 million tons of cargo move each year on 
this system, valued at $1.5 - 2 billion annually.
    <bullet>  According to a recent economic impact study, maritime 
commerce along the Columbia-Snake River system is estimated to sustain 
40,000 family wage jobs.
    Everyone knows that barging is the lowest cost, least polluting 
form of transportation.
    <bullet>  According to the U.S. Maritime Administration, one gallon 
of fuel moves each ton of cargo 514 miles by barge compared to 202 
miles by rail and only 59 miles by truck.
    <bullet>  The air pollution comparison yields similar results, with 
barging being far cleaner for the environment then rail or trucking.
    <bullet>  A typical grain ship departing the Columbia River to 
foreign markets carries 60,000 tons of wheat.
    <bullet>  To move that amount of grain from Lewiston to Portland or 
Vancouver takes 4 1/2 barge tows.
    <bullet>  But it would take six 100-car unit trains or a total of 
2,400 semi-trucks to move the same amount of grain.
    <bullet>  Annually, barging keeps 700,000 trucks off the 
interstate, helping to protect the sensitive airshed of the Columbia 
River Gorge.
    The Idaho economy is stronger and more stable because of our 
ability to provide the lowest cost, and cleanest form of transportation 
for Idaho products to reach international markets.
    And our national economy is stronger, because the Columbia Snake 
River navigation system provides economic benefits to the other states 
we serve across the northern tier of the country, including Washington, 
Montana, Wyoming, and the Dakotas.
    The producers in these states rely on our Columbia Snake River 
navigation system to reach highly competitive foreign markets.
    All of these benefits depend on the maintenance of the multiple-
purpose federal projects on the Columbia Snake River System.
    Which brings us to why we are here today.
    Some groups are using the Endangered Species Act as a vehicle to 
call for the removal of the Snake River dams, or drawing down 
reservoirs far below their engineered design range.
    Either option would end navigation and eliminate or significantly 
reduce hydropower production.
    Studies by the Northwest Power and Conservation Council, a Corps of 
Engineers System Operation Review, a federal agency Environmental 
Impact Study (EIS), three independent Salmon Recovery Teams, and three 
biological opinions have all rejected dam breaching.
    But dam breaching and drawdown continues to remain on the table.
    In fact, the U.S. District Court in Oregon will hear oral arguments 
this coming Friday, June 10th, from plaintiffs who are seeking a 
preliminary injunction to change river operations and draw down the 
Lower Granite Reservoir to 10 feet BELOW the design range of the dam 
and reservoir.
    That is the river that you see just outside the window of this 
hotel. And that river is the lifeblood of the regions economy. 90% of 
the agricultural production (wheat and pulses) grown within our region 
is exported.
    If advocates of dam breaching are successful, the Ports of 
Lewiston, Clarkston and Whitman County will cease to operate for 
maritime cargo.
    Locally, this will mean the loss of over 1600 jobs and $36 million 
in earnings in this Valley.
    We will loose millions of tons of cargo, hundreds of millions of 
dollars of commerce and the opportunity to move products to market from 
Washington, Idaho, Montana, Wyoming, and the Dakotas--at rates that 
allow us to compete with foreign producers.
    And navigation means more to this region than just moving cargo.
    Each year on the Lower Granite Pool, more than 15,000 tourists 
visit our area on cruise boats that rely on the locks, dams and 
reservoirs.
    <bullet>  These boats bring much needed economic activity to our 
region.
    Dam breach advocates claim that fish are going extinct.
    <bullet>  But the fact is there are more fish in the river than at 
any time since the first dam was built at Bonneville in 1938.
    <bullet>  The four highest years of fish returning to the river are 
the last four years.
      <all>  From 2000 to 2003, returns of Snake River Steelhead are up 
57%; Snake River Spring/Summer Chinook are up 91% and Snake River Fall 
Chinook are up 217%.
    <bullet>  This year's early returns are off from last year. Fish 
biologist's cannot explain why but, that doesn't seem to slow down the 
claims that dams are to blame.
    Dam breach advocates claim that the dams are killing all the fish.
    <bullet>  In fact, according to NOAA Fisheries, survival through 
the river system is higher today than it was before the Snake River 
dams were built.
    Dam breach advocates claim that taking out the Snake River dams is 
the only way to save the salmon.
    <bullet>  What they don't say is that there are 26 runs of fish 
listed as threatened or endangered from Northern California to the 
Canadian border...and only four of those listed runs pass these Snake 
River dams.
    <bullet>  Changing ocean conditions has been cited as one of the 
principle reasons for recent record salmon runs. Salmon spend approx. 
10% of their life in-river and 90% in the ocean. It is simply not 
credible to claim that breaching dams is the only answer for salmon.
    Dam breach advocates claim that we can simply shift cargo from 
barge to truck or rail.
    <bullet>  That is not true...the costs are significantly higher.
    <bullet>  Few containers of high value commodities could afford the 
higher rates.
    <bullet>  However, the vast majority of our cargo is grain.
    <bullet>  Farmers can't get truck drivers to meet their needs 
today, and aren't likely to find enough drivers for an additional 
700,000 two-day trips to Portland or Vancouver.
    <bullet>  And if they could, the farmers couldn't afford them.
    <bullet>  The price for grain is set on the world market.
    <bullet>  The farmers can't simply increase their price to cover 
the increased cost.
    <bullet>  This additional cost of doing business would come 
directly out of the pockets of farmers, and would likely result in the 
departure of many families from farming.
    Rail is no better as an alternative.
    <bullet>  Railroads have a poor history of offering reliable 
service to our grain shippers.
    <bullet>  Cars are often not available when needed, they are not 
delivered on time, and fewer cars are delivered than ordered.
    <bullet>  Lack of reliable service would cause our grain shippers 
to default on the delivery terms of their sales contracts.
    We believe that a multipurpose river system and healthy fish runs 
are not mutually exclusive.
    In 2002, the Corps of Engineers completed the Lower Snake River 
EIS, a 5-year, $25 million study. The Corps EIS concluded that we can 
have healthy fish runs and a multi-purpose river system. Record fish 
runs over the past four years, verify the Corps findings.
    Chairman Radanovich, we are seeking your support and the support of 
your committee to ensure that fish runs and family wage jobs are both 
available for future generations.
    ESA reform is necessary to balance conflicting federal 
restrictions. For example, it is difficult to restore endangered fish 
runs when sea lions and terns are consuming Snake River salmon by the 
thousands. However, federal restrictions prevent government agencies 
from even trying to relocate terns and seals.
    By making reasonable reforms to ESA, we are confident that we can 
have harvestable fish runs on the Snake and Columbia Rivers while 
maintaining infrastructure, and the tremendous economic benefits of the 
multiple-purpose river system.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Alldredge. As you can see, 
we're having a little problem with our clocks. We'll get that 
ready, but I want to introduce Mr. Curt Koegen for the 
International Union of Operating Engineers.
    And, Curt, if you could limit your testimony to five 
minutes, that would be great. Please begin.

          STATEMENT OF CURT KOEGEN, BUSINESS MANAGER, 
      INTERNATIONAL UNION OF OPERATING ENGINEERS LOCAL 370

    Mr. Koegen. I'll probably be a little shorter than that. 
I'm glad I'm not the only one that's nervous here.
    I'd like to thank you for letting me take part in this 
hearing. I'm here to speak against the breaching of the dams. 
Although----
    Mr. Radanovich. Can you hold just a second and get that mic 
fixed.
    [Brief pause.]
    Mr. Koegen. I'm opposed to breaching of the dams. Although 
breaching would create a lot of work, temporary construction 
work, I think it would be devastating to the economics of the 
region, not only for the Lewiston-Clarkston area but the 
Pacific Northwest as a whole.
    Just the maintenance dredging on the Columbia/Snake River 
employed 30 to 50 people yearly. Not including the work that's 
done up here that hasn't been done for a few years, run about 
ten operators for that. Besides the jobs created by the 
dredging, there's maintenance people at each dam. There are 
people employed at the ports to handle the commodities.
    I believe if we lost the dams, those jobs would disappear. 
These are family wage jobs with benefits. I think they would be 
replaced with minimum wage jobs, service jobs. And it would be 
economically devastating. I think we'd lose our tax base. I 
just see no positives with it at all.
    As everybody has already stated, barging is a very 
efficient method of moving commodities down the river. I won't 
go back over the same figures they went through. But our 
infrastructure in our area cannot handle the truck traffic to 
move the commodities by truck. The rail system's also 
inadequate.
    We don't have the financial resources right now to improve 
the infrastructure--to maintain the infrastructure, really, we 
have right now, let alone improve it for the increased truck 
traffic, for the 700,000-plus trucks a year that would have to 
be done just to handle the grain alone. We don't have the money 
for it.
    The dams on the Snake River currently--the Snake River 
system currently give about 60 percent of the power for the 
Pacific Northwest as a region. This is pollution-free energy. 
And how is it going to be replaced if we stop it.
    At what cost to the consumers and businesses? How long will 
our businesses stay here without the cheap power? If the power 
skyrockets, our businesses will go away.
    One of the contractors I dealt with that bids this type of 
work typically made the statement that's one of the reasons we 
stay here in Washington is cheap power. If that's gone, what 
reasons do we have to maintain or bring businesses into our 
region.
    As I stated earlier, breaching the dams would be great 
work. And, in my opinion, it would probably be great work to go 
back and fix them when we realize what we did wrong on them. 
But it's temporary work. The jobs that are here now are full-
time, permanent jobs, family wage jobs that support the region.
    Thank you very much.
    [The prepared statement of Mr. Koegen follows:]

              Statement of Curt Koegen, Business Manager, 
          International Union of Operating Engineers Local 370

    Thank you for allowing me to take part in this hearing.
    I am opposed to breaching the dams on the Snake River for many 
important reasons. Although breaching the dams would generate temporary 
work for construction workers, I believe that to do so would be 
economically devastating to not only the Lewiston/Clarkston area but 
also to the Pacific Northwest as a whole.
    Maintenance dredging on the Columbia/Snake River system employed 
approximately 30 to 50 Operating Engineers yearly until the dredging 
was stopped. Besides the jobs created by the dredging, all of the dams 
have maintenance personnel, each Port District employs workers to 
handle the commodities that are barged down river. These are family 
wage jobs with benefits. I believe that if the dams were breached most 
of these jobs would be lost or replaced with minimum wage jobs.
    Barging is a very efficient method of moving commodities to the 
coast. One barge can handle as much grain as 134 semi-trucks and a tow 
as much as 538 trucks (see attachment A). Fuel and emissions are 
considerable less per ton-mile compared to trucks or rail. Our regions 
infrastructure will not safely handle the increase in truck traffic. We 
currently do not have the financial resources to fix the roads we have, 
let alone the fund the major reconstruction that would be needed for 
the increased truck traffic.
    The dams on the Columbia/Snake river system supply approximately 
60% of the electricity for the region. How is this pollution free 
energy going to be replaced and at what cost to the consumers and 
businesses that rely on this power? How long will business stay in our 
region if their power costs skyrocket?
    As I stated earlier, the breaching of the dams would be great work 
for the Operating Engineers, and in my opinion, it would be great work 
to rebuild the dams when it was realized that breaching them was a 
mistake.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T1758.001
    
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Koegen. I appreciate your 
testimony.
    Next is Ms. Rebecca Miles, Chairman of the Nez Perce Tribal 
Executive Committee. Ms. Miles, welcome to the Subcommittee. 
And you may begin your testimony.

             STATEMENT OF REBECCA MILES, CHAIRMAN, 
              NEZ PERCE TRIBAL EXECUTIVE COMMITTEE

    Ms. Miles. Thank you.
    Respectfully, Mr. Chairman and members. Ta'c meeywei. Good 
morning. My name is Rebecca Miles, and I am the Chairman of the 
Nez Perce Tribe. And we welcome you to our homelands and our 
rivers.
    We, the Nimiipuu, have lived and fished here since time 
immemorial. We have always lived here, and we have always been 
connected with this place and all of its creatures. Our leaders 
have always been strong, courageous and determined to leave 
this world a better place. We speak from our hearts and minds 
to honor those that have come before us and to preserve our 
culture and our way of life for our children's children and 
their children's children.
    This month marks the 150th anniversary of our 1855 Treaty 
with the United States government. At this ceremony there were 
not enough spring chinook for the ceremonial sustenance needs 
of not only the Nez Perce but the other Stevens Treaty Tribes, 
including Umatilla, Yakama and Warm Springs.
    Our treaty reflects our status as a sovereign. Our treaty 
reserves to our people the rights that have always been 
exercised; the right to take fish, more specifically native 
fish, at all our usual and accustomed places and to hunt, 
gather and pasture on open and unclaimed lands. Our treaty, the 
United States Constitution acknowledges, is the supreme law of 
the land. Our treaty imposes trust obligations on the United 
States. And our treaty is a contract with the citizens of this 
nation. ``Great nations, like great men, keep their word.''
    As our ancestors demanded, we ask you speak straight to us. 
We request that you honor this nation's treaty and trust 
obligations. And as elected officials, we ask that you fulfill 
your duties by carefully considering all points of view.
    The Nez Perce Tribe appreciates this opportunity to testify 
before you, even though we were only invited at the very last 
minute. In 1855 at the treaty council, Lookingglass was nearly 
excluded because he and others were in buffalo country. And he 
made it to the Walla Walla Treaty Council in a day and a half. 
And his presence and his words made a difference in securing 
our treaty rights. We hope that our words today at this 
hearing, ``Keeping the Columbia/Snake A Working River System,'' 
will make a difference in restoring salmon runs of the Snake 
and Columbia Rivers and in restoring our communities.
    I want to make three points today.
    First, the Snake River is not a working river for salmon. 
This is not just the view of the Nez Perce; its fisherman or 
our biologists. This is the view of the best available science. 
Biological Review Team, convened by NOAA Fisheries, recently 
concluded that all the Snake River salmon runs are in dire 
status. Specifically, they found the status of the species 
already listed as threatened--Snake River spring/summer 
chinook, Snake River fall chinook, and Snake River steelhead--
are headed downward and are likely to be listed as endangered 
with the foreseeable future. Snake River sockeye are, of 
course, already endangered. Salmon cannot withstand the status 
quo. We must face this reality and acknowledge that this is 
occurring on our watch.
    Second, we all share responsibility for ensuring the salmon 
in our local communities are sustainable for the long-term. The 
future of this region and our homeland must be founded on our 
natural resources and our geography. The economic benefits of 
healthy, harvestable salmon runs are enormous. Again, this is 
not just our view. It is the view of independent experts.
    The report entitled, ``The Economic Impact of the 2001 
Salmon Season in Idaho,'' found that the economic benefit of 
the salmon season was nearly $90 million. Just this year, the 
report titled, ``The Potential Economic Impact of Restored 
Salmon and Steelhead Fishing in Idaho,'' concluded that 
restored salmon and steelhead fisheries could produce $544 
million a year in economic activity in Idaho. The Clearwater 
and Salmon Basins would be the biggest beneficiaries, to the 
tune of $331 million.
    Our economy in this region is diversifying. In fact, the 
Nez Perce Tribe is the second largest employer in this area. 
Geographically, Lewiston and Clarkston will always be a center 
for getting goods to market. Rail and truck transport provide 
viable and reliable alternatives to the heavily subsidized 
barge system. Again, this is not just our view; it is shared by 
those who have carefully studied this.
    We, as Indian people, have withstood a number of 
transitions. We look forward to working with our neighbors and 
making the transition to a river that works for salmon and for 
our local communities.
    The final comment I guess, the third option--all options 
for salmon and our local communities must be on the table. The 
Nez Perce Tribe is doing everything we can to rebuild salmon to 
healthy, harvestable levels. We have received national awards 
for our habitat rehabilitation work in collaboration with the 
U.S. Forest Service. We operate the Nez Perce Tribal Hatchery, 
a facility that uses the state-of-art techniques to mimic 
nature and that is designed to assist in rebuilding the natural 
runs. And consistent with our traditional idea of conservation 
we have practiced since time immemorial, we have voluntarily 
restricted our harvests for decades.
    Yet these actions alone are not enough. The Federal 
Columbia/Snake River dams do the most harm to salmon, and these 
dams need to make the largest contribution to rebuilding these 
runs. Judge Redden's recent ruling comes as no surprise. It is 
simply a reminder that the law does not allow the impacts of 
the Columbia/Snake River dams and the imperiled status of the 
fish to be ignored by the Federal Government.
    We need to consider the best scientific and economic 
options, not just the most politically expedient ones. The Nez 
Perce Tribe continues to support breaching the four lower Snake 
River dams and investing in the local communities affected by 
that decision. Again, this is not just our position; the best 
science and the best economics support breaching these dams.
    The Nez Perce Tribe is committed to working with our 
neighbors in making this transition and protecting our 
Northwest way of life.
    In closing, the only way that we will all win is to ensure 
that the Columbia and Snake Rivers work for salmon and our 
communities. We trust that you will take our words to heart. 
Qe'ciyew'yew.
    [The prepared statement of Ms. Miles follows:]

               Statement of Rebecca A. Miles, Chairman, 
          Nez Perce Tribal Executive Committee, Lapwai, Idaho

    Ta'c meeywei. Good morning. My name is Rebecca Miles. I am Chairman 
of the Nez Perce Tribe.
    The Nez Perce Tribe welcomes you to our homelands and our rivers. 
We, the Nimiipuu, have lived and fished here since time immemorial. We 
have always lived here, and we have always been connected with this 
place and all of its creatures.
    Our leaders have always been strong, courageous, and determined to 
leave this world a better place. We speak from our hearts and minds to 
honor those that have come before us, and to preserve our culture and 
our way of life for our children's children.
    This month marks the 150th anniversary of our 1855 Treaty with the 
United States government. Our treaty reflects our status as a 
sovereign. Our treaty reserves to our people the rights they have 
always exercised: the right to take fish at all our usual and 
accustomed places, and to hunt, gather, and pasture on open and 
unclaimed lands. Our treaty, the U.S. Constitution acknowledges, is 
``the supreme law of the land.'' Our treaty imposes trust obligations 
on the United States. And, our treaty is a contract with the citizens 
of this Nation. ``Great nations, like great men, keep their word.''
    As our ancestors demanded, we ask you that you speak straight to 
us. We request that you honor this Nation's treaty and trust 
obligations. And, as elected officials, we ask that you fulfill your 
duties by carefully considering all points of view.
    The Nez Perce Tribe appreciates this opportunity to testify before 
you at this hearing, even though we were invited only at the very last 
minute. In 1855, at the treaty council, Chief Lookingglass was nearly 
excluded because he and others were returning from buffalo country. His 
presence, and his words, made a difference in securing our treaty 
rights. We hope that our words today at this hearing on ``Keeping the 
Columbia / Snake A Working River System'' will make a difference in 
restoring the salmon runs of the Snake and Columbia rivers, and in 
restoring our communities.
    I want to make three points.
    First, the Snake River is not ``A Working River'' for salmon. This 
is not just the view of the Nez Perce Tribe, its fishermen, or its 
biologists. This is the view of the best available science. The 
Biological Review Team, convened by NOAA Fisheries, recently concluded 
that all of the Snake River salmon runs are in dire status. 
Specifically, they found that the status of the species already listed 
as ``threatened''--Snake River spring/summer Chinook, Snake River fall 
chinook, and Snake river steelhead--are headed downward and are likely 
to be listed as ``endangered'' ``within the foreseeable future.'' Snake 
River sockeye are, of course, already endangered. Salmon cannot 
withstand the status quo. We must face this reality, and acknowledge 
that this is occurring on our watch.
    Second, we all share responsibility for ensuring that salmon and 
our local communities are sustainable for the long term. The future of 
this region and our homeland must be founded on our natural resources 
and our geography. The economic benefits of healthy, harvestable salmon 
runs are enormous. Again, this is not just the Nez Perce Tribe's view. 
It is the view of independent experts.
    The report titled, ``The Economic Impact of the 2001 Salmon Season 
In Idaho,'' found that the economic benefit of the salmon season was 
nearly $90 million dollars. Just this year, the report titled ``The 
Potential Economic Impact of Restored Salmon and Steelhead Fishing in 
Idaho'' concluded that restored salmon and steelhead fisheries could 
produce $544 million dollars a year in economic activity in Idaho. The 
Clearwater and Salmon Basins would be the biggest beneficiaries, to the 
tune of $331 million dollars.
    Our economy in this region is diversifying. In fact, the Nez Perce 
Tribe is the second largest employer in this area. Geographically, 
Lewiston and Clarkston will always be a center for getting goods to 
market: rail and truck transport provide viable and reliable 
alternatives to the heavily-subsidized barge system. Again, this is not 
just the Nez Perce Tribe's view; it is shared by those who have 
carefully studied this.
    We, as Indian people, have withstood a number of transitions. We 
look forward to working with our neighbors in making the transition to 
a river that works for salmon and for our local communities.
    Third, all options for salmon and our local communities must be on 
the table. The Nez Perce Tribe is doing everything it can to rebuild 
salmon to healthy, harvestable levels. We have received national awards 
for our habitat rehabilitation work in collaboration with the U.S. 
Forest Service. We operate the Nez Perce Tribal Hatchery, a facility 
that uses state-of-the art techniques to mimic nature and that is 
designed to assist in rebuilding the natural runs. And, consistent with 
our tradition of conservation, which we have practiced since time 
immemorial, we have voluntarily restricted our harvests for decades.
    Yet, these actions alone are not enough. The federal Columbia/Snake 
River dams do the most harm to salmon, and these dams need to make the 
largest contribution to rebuilding the runs. Judge Redden's recent 
ruling comes as no surprise. It is simply a reminder that the law does 
not allow the impacts of the Columbia/Snake River dams and the 
imperiled status of the fish to be ignored by the federal government.
    We need to consider the best scientific and economic options, not 
just the most politically expedient ones. The Nez Perce Tribe continues 
to support breaching the four lower Snake River dams and investing in 
the local communities affected by that decision. Again, this is not 
just the Nez Perce Tribe's position; the best science and the best 
economics support breaching these dams.
    The Nez Perce Tribe is committed to working with our neighbors in 
making this transition and protecting our Northwest way of life.
    In closing, the only way that we will all win is to ensure that the 
Columbia and Snake rivers work for salmon and our communities. We trust 
that you will take our words to heart. Thank you. Qe'ciyew'yew.
                                 ______
                                 
    Mr. Radanovich. Thank you very much.
    Next is Mr. Virgil Lewis of the Yakama Tribal Council. Mr. 
Lewis, welcome to the Subcommittee.

                STATEMENT OF VIRGIL LEWIS, SR., 
               VICE CHAIRMAN OF THE YAKAMA NATION

    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Chairman and members of the committee, thank you for 
the opportunity to speak before you today. My name is Virgil 
Lewis, Sr. I am the Vice Chairman of the Yakama Nation Tribal 
Council.
    I think it is important for you and the members of the 
Committee to hear how the tribes feel about the Endangered 
Species Act, the Snake River dams, and the recent Federal court 
ruling regarding the 2004 BiOp.
    I have heard much discussion about how important the Snake 
River dams are to the economy in certain areas and how recent 
decision by Judge Redden intended to protect salmon should be 
reversed because of its potential impact on the economy. I am 
not here to dispute those feelings, but I am somewhat saddened 
by these statements because they infer that the salmon are not 
important, or certainly that they are not as important, as 
other resources.
    In 1905 in the famous Winans case, the United States 
Supreme Court stated quite clearly how important salmon were to 
us. The Supreme Court said for the Yakama people, ``Salmon were 
not much less necessary to the existence of the Indians than 
the atmosphere they breathe.'' Let me repeat this simply: 
Salmon are as important as the air we need to breathe.
    Mr. Chairman, no people on the face of this earth have been 
more negatively affected by the destruction of the salmon runs 
than have the Indian people of the Columbia River. Salmon are a 
critical part of our religion. They are a critical part of our 
culture. They are a staple in our diet and have been the basis 
of our economy.
    For thousands of years the Columbia provided everything 
that Indian people needed to make a living. So important was 
fishing to our livelihood and culture that our elders made sure 
to reserve the rights to fish for future generations in a 
treaty with the Federal Government that was negotiated not far 
from here exactly 150 years ago today. The resulting Treaty of 
June 9th, 1855, was not a granting of rights to the Indians, 
but rather a reservation of rights already held by them, which 
included the right to continue making a living from the river.
    Today, few tribal families can earn their livelihoods from 
fishing. And that solemn promise made by the United States 150 
years ago to preserve our way of life stands unfulfilled.
    We hope you will take this into account in your 
deliberations on this matter and particularly when you talk 
about keeping the Columbia and Snake working rivers. Our summer 
chinook fishery closed totally in 1964, and our spring chinook 
fishery closed in '77. They remained totally closed for nearly 
30 and 20 years respectively. This had the equivalent economic 
and cultural impact on the Indian people of no barges to 
Lewiston or crops in southern Idaho for that same period; yet 
we have seen no Congressional hearings, no disaster 
declarations or relief in any form.
    For the last 40 years, the Columbia has been a working 
river for only some, with little consideration for those left 
out. Today we ask only for it to be a working river for all. We 
have sought relief in the only forum where our voices seem to 
be heard, the Federal courts. Perhaps this committee can change 
that fact and demand that those who make decisions on the use 
of this river fairly include and listen to all those who are 
impacted by the decisions. Without such a commitment there can 
be no working river for all.
    Having said that, our decision to keep Snake River dam 
breaching an available option was based upon culture, science 
and economy. We recommend staying open to the possibility of 
breaching because of the weight of scientific evidence and 
because we believe it can be properly planned, engineered and 
mitigated for. However, we realize that none of the dams on the 
mainstem Columbia are likely to be breached, nor would we 
necessarily call for such action.
    My tribal constituents are diverse and widely vested in the 
eastern Washington economy. We are taxpayers and utility 
ratepayers. Our tribal economy is heavily dependent upon the 
health of the broader economy.
    Nevertheless, our traditional economy, our salmon economy, 
has collapsed, and aggressive actions are needed to restore it. 
This is why the tribes made a practical decision to take on our 
share of the responsibilities to implement the aggressive non-
breach strategies of the 2000 Biological Opinion. That plan 
was, in our estimation, able to succeed only if all of the 
actions needed to compensate for the lower Snake River dams 
were implemented in full and on schedule.
    We worked to rebuild the Snake River fall chinook by 
supplementing the naturally spawning populations with suitable 
hatchery adults. We also developed recommendations in our River 
Operations plan that addressed specific issues of flows, spill, 
fish transportation, adult passage and fish facility 
operations.
    Our analysis of the performance record found overwhelming 
failure on the part of the Federal Government to adequately 
fund and implement the 2000 Salmon Plan over the course of four 
years. The analysis concluded that from 2001 to 2004, the 
Federal Government failed to complete an average of 70 percent 
of the measures called for in the Federal Salmon Plan and only 
funded roughly 50 percent of the money needed.
    The forthcoming rate case provides a perfect opportunity 
for the Bonneville Power Administration to step up to the plate 
and implement the sub-basin by sub-basin restoration plans by 
the Northwest Power and Conservation Council. The Columbia 
Basin Fish and Wildlife Authority and the Yakama Nation, among 
others, have endorsed it. It can be done in a fashion that will 
have nominal impact.
    Mr. Chairman, before I became a member of the Council, I 
was the foreman at the Cle Elum Hatchery, a facility on the 
innovative cutting edge of hatchery reform. Hatcheries must 
play a role in salmon recovery and tribes can provide the 
leadership in that regard.
    Mr. Chairman and members of the committee, on behalf of the 
Yakama Nation I thank you again for this opportunity to speak 
with you today. And I'll be happy to answer any questions you 
might have.
    [The prepared statement of Mr. Lewis follows:]

        Statement of Virgil Lewis, Vice-Chairman, Yakama Nation

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to speak before you today. My name is Virgil Lewis and I am 
Vice-Chairman of the Yakama Nation Tribal Council. Thank you for 
providing me with the opportunity to testify before you today. I think 
it is important for you and the members of the Committee to hear how 
the tribes feel about the Endangered Species Act, the Snake River Dams 
and the recent federal court ruling regarding the 2004 Federal Columbia 
River Power System (FCRPS) Biological Opinion, commonly known as ``the 
BiOp.'' I look forward to sharing with the committee the challenges of 
rebuilding long-depressed stocks of Columbia River salmon to 
sustainable and harvestable levels and our commitment to pragmatic and 
effective actions to do just that. And finally, I will share with this 
committee, in the form of recommendations, our sincere and seasoned 
belief that the long-term realization of a truly ``balanced'' and 
working river lies within coordinated and effective sovereigns 
implementing coordinated and effective measures. I will occasionally 
refer to ``tribes'' in plural. In those instances I'm referring to the 
tribes of the Columbia River Inter-Tribal Fish Commission of which the 
Yakama Nation is a member and shares unified goals with the Nez Perce, 
Umatilla and Warm Springs Tribes.
    I have heard much discussion about how important the Snake River 
Dams are to the economy in certain areas and how the recent decision by 
Judge Redden intended to protect salmon should be reversed because of 
its potential impact on the economy. I am not here to dispute those 
feelings but I am somewhat saddened by these statements because they 
infer that the salmon are not important--or certainly that they are not 
as important--as other resources. In 1905 in the famous Winans 
<SUP>1</SUP> case, the United States Supreme Court stated quite clearly 
how important salmon were to us. The Supreme Court said for the Yakama 
people that salmon ``were not much less necessary to the existence of 
the Indians that the atmosphere they breathed.'' Let me repeat it 
simply: Salmon are as important as the air we need to breath.
---------------------------------------------------------------------------
    \1\ United States v. Winans, 198 U.S. 371, 381 (1905)
---------------------------------------------------------------------------
    Mr. Chairman, no people on the face of this earth have been more 
negatively affected by the destruction of the salmon runs than have the 
Indian people of the Columbia River. Salmon are a critical part of our 
religion, they are a critical part of our culture, they are a staple in 
our diet and they have been the basis of our economy. Fishing is how 
many of our members earn their livelihood. To us, salmon fishing is not 
recreation; it is a major aspect of our lives. The federal government 
committed to us, in no uncertain terms, to protect our treaty fishing 
rights when the Executive Branch negotiated and the Senate of the 
United States ratified our Treaty. So important was fishing to our 
livelihood and culture that our elders made sure to reserve the right 
to fish for future generations in a treaty with the federal government 
that was negotiated not far from here exactly 150 years ago today. The 
resulting Treaty of June 9, 1855 was not a granting of rights to the 
Indians, but rather a reservation of rights already held by them, which 
included the right to continue making a living from the river. Today, 
few tribal families can earn their livelihoods from fishing, and that 
solemn promise made by the United States 150 years ago to preserve our 
way of life stands unfulfilled.
    We hope you will take this into account in your deliberations on 
this matter and particularly when you talk about keeping the Columbia 
and Snake ``working rivers.'' Our summer chinook fishery closed totally 
in 1964 and our spring Chinook fishery closed in 1977. They remained 
totally closed for nearly 30 and 20 years, respectively. This had the 
equivalent economic and cultural impact on the Indian people of no 
barges to Lewiston or crops in southern Idaho for that same period, yet 
we have seen no Congressional hearings, no disaster declarations or 
relief in any form. For the last 40 years the Columbia has been a 
``working river'' only for some, with little consideration for those 
left out. Today we ask only for it to be a working river for all. We 
have sought relief in the only forum where our voices seem to be heard, 
the federal courts. Perhaps this committee can change that fact and 
demand that those who make decisions on the uses of this river fairly 
include and listen to all those who are impacted by those decisions. 
Without such a commitment there can be no working river for all.
    Having said that, we reached the decision to keep Snake River dam 
breaching an available option based upon culture, science and economy. 
We recommend staying open to the possibility of breaching because of 
the weight of scientific evidence and because we believe it can be 
properly planned, engineered and mitigated for. However, we realize 
that none of the dams on the mainstem Columbia are likely to be 
breached, nor would we necessarily call for such action. My tribal 
constituents are diverse and widely vested in the Eastern Washington 
economy. We are fishermen, farmers, ranchers, small business owners. We 
are taxpayers and utility rate payers. Our tribal economy is heavily 
dependent upon the health of the broader economy.
    Nevertheless, our traditional economy--our salmon economy--has 
collapsed, and aggressive actions are needed to restore it. Wide-scale 
displacement of our people to make way for dams has been compounded by 
steady declines in fishing opportunity. Our fisheries are a mere 
fraction of their historic levels, with tribal fishing in the Lower 
Columbia at approximately 10% of its historic level. Above Lower 
Granite dam the tribal fishery is 1/10th of one-percent of its historic 
level. This spring has been a particular disappointment as one of the 
lowest returns on record of spring Chinook over Bonneville Dam. Treaty 
ceremonial fishing was closed prematurely for the first time in a 
decade as the expected abundance of fish failed to arrive. Several 
tribal longhouses did not have adequate fish for the traditional first 
salmon and first foods ceremonies. The Celilo longhouse had to resort 
to the remnants of last year's catch and to accept fish donated by 
other fishing groups. These are cultural and religious practices we 
have been undertaking for thousands of years. I cannot overstate the 
frustration and anger of my people at this turn of events. The Yakama 
Nation has hundreds of families that rely on commercial fishing, in 
whole or in part, as their primary occupation and source of income. 
Regrettably, our people will not have a single day of commercial 
fishing this year. The people of the Yakama Nation have sacrificed and 
paid a heavy price for the good of the region, in the form of 
hydroelectric power development. If other stakeholders were willing to 
sacrifice a fraction of what we have, the salmon runs could be 
significantly restored.
Aggressive non-breach and the pragmatic approach
    This is why the tribes made a practical decision to take on our 
share of the responsibilities to implement the ``aggressive non-
breach'' strategies of the 2000 Biological Opinion. That plan was, in 
our estimation, able to succeed only if all of the reasonable and 
prudent actions were implemented in full, and on schedule. We worked to 
rebuild Snake River Fall Chinook by supplementing the naturally 
spawning population with Lyon's Ferry hatchery adults. We also 
developed recommendations in our River Operations plans that addressed 
the need for the Columbia and Snake Rivers to operate more like a 
dynamic river and less like a slackwater channel. Every year since 
1999, the tribes have sent to the federal operators a river operations 
plan with specific recommendations for flows, spill, fish 
transportation, adult passage and fish facility operations. These plans 
are based upon the best available science and developed through prior 
collaborative biological opinion processes. Unfortunately, the federal 
operators rarely responded to tribal input and failed to provide good 
river conditions. Our analysis of the performance record found 
overwhelming failure on the part of the federal government to 
adequately fund and implement the 2000 Salmon Plan over the course of 4 
years. The analysis concluded that from 2001-2004, the federal 
government failed to complete, on average, over 70% of the measures 
called for in the federal Salmon Plan and only funded roughly 50% of 
the money needed. With that, our tribes had no choice but to join 
litigation on the 2000 Biological Opinion. Had our recommendations--
which were compatible with recommendations of many other experts--been 
implemented between 2000 and 2004, Judge Redden's ruling of two week 
ago would not have been necessary.
The 2004 BiOp
    Judge Redden's opinion, delivered on May 26, reflects the views 
expressed by the tribes through our active participation in this case. 
Like Judge Redden, the tribes were dissatisfied with the lack of 
collaboration and remediation for the basic infirmities in the 2000 
FCRPS BiOp and the wholesale change in the biological framework in the 
2004 FCRPS BiOp. The judge's well-grounded, comprehensive and 
unambiguous opinion offers a renewed opportunity for the federal 
government to address the tribes' proposals for salmon restoration, 
including the tribes' 2005 River Operations Plan and future plans. We 
look forward to a real dialogue with the federal government about 
achieving the complementary mandates of the ESA and other federal laws, 
particularly treaty fishing rights.
Injunctive relief
    You're aware that a federal judge will consider a request for 
injunctive relief this Friday that is designed to increase survival of 
migrating juvenile Snake River Fall Chinook, an ESA listed stock and 
one that severely constrains the tribes' fall fisheries. The actions in 
the relief request are a blend of increased flows, spills and reservoir 
drawdowns designed to increase water velocities by only 10%. However, 
by doing this we can achieve a 300% survival increase in this stock. 
These measures will have only minor impact to residential ratepayers, 
raising their average monthly rate by 11 cents.
    Mr. Chairman, I understand your concerns about ESA litigation and 
want you to know that the Yakama Nation works first and foremost to 
collaborate and negotiate agreements. In that spirit I would like to 
offer this committee some recommendations, some of which you would have 
an active role and others which I hope you will consider supporting in 
principle.
Recommendations
1) Mitchell Act
    Mr. Chairman, before I became a member of the Yakama Nation Tribal 
Council I was the manager of the Cle Elum Hatchery, a facility on the 
innovative cutting edge in of hatchery reform. Hatcheries should play a 
role in salmon recovery and the tribes can provide leadership. We have 
proposed a biologically credible integrated plan to modify hatchery 
management practices throughout the basin in order to supplement rather 
than supplant natural spawning salmon populations.
    Similarly, restoring Pacific salmon and providing for sustainable 
fisheries requires using at least some of the Columbia River (Mitchell 
Act) hatchery program to supplement naturally spawning stocks and 
populations. To accomplish this goal Congress should allocate $36 
million for the tribes and states, as co-managers, to jointly reform 
the Mitchell Act hatchery program. Of this amount, $9 million, or 25% 
of enacted funding, should be contracted to the tribes for new or 
expanded supplementation projects. In addition, to carry out activities 
identified as necessary in the Federal Caucus All-H Paper and the BiOp, 
provide $20.6 million for the Columbia River facilities program area 
for screens and fish passage programs.
2) Linking authorities and processes
    A key focus between the tribes and federal executives, state and 
federal fishery agencies, the Pacific Salmon Commission (PSC) members 
and the Northwest Power and Conservation Council (NPCC) must be the 
linkage between the authorities/processes that guide salmon recovery, 
restoration and management. These key authorities/processes include:
    1855 Treaties: These agreements between our tribes and the United 
States are the supreme law of the land under the U.S. Constitution 
(covered by the Supremacy Clause). Under the treaties--as the Supreme 
Court has stated on numerous occasions--the United States has a clear 
obligation to protect salmon runs so that our treaty fishing rights can 
be implemented.
    U.S. vs. Oregon: This, the oldest continuing case in the federal 
district courts was primarily aimed at defining the treaty fishing 
right particularly in terms of allocation of harvest among the parties 
and necessary escapement.
    Northwest Power Act: Passed in 1980 by the Congress and shortly 
thereafter adopted by the states of Oregon, Washington, Idaho and 
Montana, this Act was interpreted by the Ninth Circuit Court of Appeals 
as an interstate compact conferring authority upon the governor-
appointed NPCC, to direct the use of the Bonneville Fund for 
protection, mitigation and enhancement of Columbia River fish affected 
by any hydroelectric project in the basin. Various federal statutes 
including this one discuss giving equal consideration to power 
production and fishery and fishery habitat protection. This has not 
happened. The Northwest Power and Conservation Council--using 
Bonneville Power Administration dollars--oversaw a comprehensive 
subbasin by subbasin analysis of each of the subbasins with the 
Columbia River. A comprehensive plan for habitat restoration of each 
subbasin is on the books and ready to be implemented. This plan will 
also create significant employment, particularly in the eastern side of 
the Columbia Basin. The Columbia Basin Fish and Wildlife Authority 
(CBFWA) has also examined what is needed and the Yakama Nation and 
CBFWA are in agreement on a comprehensive plan. It has to be 
implemented and paid for by the BPA who are showing little willingness 
to do so and simply acting as if there is no problem the same business 
as usual approach we have seen in recent years. The costs to the 
ratepayers would be minimal. At the most, one dollar per month for 
customers of utilities that buy all their power from BPA and less for 
customers of utilities that don't buy all their power from BPA. If the 
Congress is serious about addressing this situation, using your 
influence with BPA on the forthcoming ``Rate Case'' *would greatly 
assist the restoration of these salmon runs and would do so without 
additional federal appropriations.
    Pacific Salmon Treaty: Canada and the United States adopted the 
Pacific Salmon Treaty in 1985 to provide for the conservation of 
Pacific salmon stocks, including those originating from the Columbia 
River.
    The processes listed above are authoritative in that they are 
derived from treaties, federal statutes, and federal judicial 
interpretation. Except for U.S. v. Oregon, each process is linked to 
funding sources including the Bonneville Fund, appropriations such as 
the PCSRF and PST budgets. Each process, however, is developing a 
series of goals and objectives that are not necessarily linked to those 
arising from the other processes. The task of linking the processes is 
a task of leadership. In the absence of leadership that recognizes the 
linkages, the processes default to the organizational staff leading 
them and piecemeal planning results at a high cost without the 
likelihood of implementation.
    An important step toward making linkages is to consolidate the 
technical work under each process and provide a means to address common 
data and analysis for each process in a unified manner. The tribes are 
focusing major attention on this issue but without leadership from the 
executives of both federal and state agencies, we are unlikely to be 
successful.
Conclusion
    In closing I'd first like to reaffirm the testimony provided to 
this committee on May 6th by Olney Patt, Jr., executive director of the 
Columbia River Inter-Tribal Fish Commission. I would also like to say 
that while I have not had time to run this testimony by the other 
members of the Commission, that I fairly confidant that the Warm Spring 
Tribe and the Umatilla Tribe of Oregon and the Nez Perce of Idaho, 
would share the perspective I have shared with you today.
    Mr. Chairman and members of the Committee, when I visit our tribal 
families along the Columbia River it is the most uplifting but 
difficult tasks of being a tribal leader. Tribal fishers are proud 
people, hardworking, a strong community. It does my heart good to know 
that the Columbia River's original working class is strong and vital. 
I'm honored to represent them. But they're wise to false hopes and 
promises, and they've seen a lot of them. They deserve assurances. We 
all do.
    Salmon will not recover without a river that acts like a river. 
While recent ocean conditions have been favorable for hatchery returns, 
the wild stocks are still doing very poorly and are in danger of 
extinction because of poor river conditions. The federal operators must 
not shirk their duty to provide good river conditions that support 
salmon survival rates that are necessary to meet recovery of Columbia 
River stocks to sustainable, harvestable levels. The Yakama Nation is 
committed to working with Congress, the Administration, the States and 
other Tribal governments to realize an equitable, affordable and 
effective salmon restoration plan.
    Mr. Chairman and members of the committee, on behalf of the Yakama 
Nation I thank you again for this opportunity to speak with you today 
and would be happy to answer any questions you might have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Lewis. I appreciate your 
testimony.
    Next is Commissioner Merrill Ott from Stevens County. 
Commissioner, welcome to the Subcommittee. You may begin your 
testimony.

            STATEMENT OF MERRILL OTT, COMMISSIONER, 
                   STEVENS COUNTY, WASHINGTON

    Mr. Ott. Thank you, Mr. Chairman.
    Chairman Radanovich and members of the Subcommittee, thank 
you for inviting me to testify on this important topic.
    As Chairman of the Stevens County Board of County 
Commissioners, I represent over 40,000 citizens in the rural 
northeastern part of Washington state. I am also speaking on 
behalf of the Eastern Washington Council of Governments, 
comprised of commissioners from the six counties surrounding 
Lake Roosevelt on the main-stem of the Columbia River. I'm also 
a farmer who relies on the margin capacity of the Snake River 
to ship my wheat to port.
    In addition to the daily business of running our respective 
counties, commissioners from the Council of Governments are 
leaders in regional planning efforts such as watershed 
planning, sub-basin planning, salmon recovery planning and 
growth management, which require balancing economic development 
and the protection of critical areas for fish and wildlife 
habitat. And I am personally involved in many of these efforts.
    It is with this experience that I express the following 
concerns, concerns that I hear constantly from county 
commissioners throughout the Northwestern United States, about 
maintaining a reasonable balance between economic, social and 
environmental interests. Collectively, we commissioners are 
deeply concerned about transparent efforts by non-local 
organizations to re-engineer the very fabric of our entire 
region without local representation. The proposal to remove the 
dams on the lower Snake River is an obvious example of this.
    Enormous economic sacrifices have already been made by the 
people of this region in an effort to implement environmental 
protections. Entire sectors of our economy have all but 
disappeared, while the hoped-for environmental benefits are 
still unproven.
    Because of our extensive planning experience, local 
government is well equipped to evaluate the effectiveness of 
proposed environmental protections and the economic tradeoffs 
that are required to implement those protections. Yet our voice 
is seldom heard in this debate.
    Determined local resistance to extreme proposals such as 
the removal of major dams from our river system is based on 
firsthand experience with the impact of mandated environmental 
policies on the continuing economic vitality of our region. The 
dams of the lower Snake River are integral elements of the 
larger regional system. Their removal would have broad economic 
implications. In addition, the proposal lacks credibility 
because there is little or no evidence to demonstrate that 
removal will significantly improve salmon populations.
    We believe strongly in supporting the multiple uses we 
currently enjoy on the Columbia and Snake River systems, 
including the environmental health of our home. But we never 
lose sight of the fact that this huge river system is the 
critical economic driver of our region. We depend upon its 
stability to make our region viable.
    The region's county commissioners are charged with the 
protection of the health, welfare and safety of the citizens 
they represent. In eastern Washington, the trend toward 
regional, state and Federal management of local issues has 
threatened our very existence. Appointed officials and our 
courts continue to issue directives without adequate thought to 
their effect on our region's citizens, and without adequate 
funding to implement those programs.
    We understand that decisions must be based upon consistent 
policies that provide protection and certainty to agricultural, 
tribal, municipal, industrial and environmental interests. 
However, the decisionmaking process must include and consider 
input from the region's locally elected officials.
    We do not want to see this important agricultural region 
continue to degenerate into a litigious battlefield where 
Federal judges run the rivers and local voices continue to go 
unheard. We need to keep the Columbia and Snake River system as 
viable working rivers for all the region's residents, while 
using local expertise and the best scientific information to 
provide a balance between economic and natural resources. We 
understand that this balance must provide protection for fish 
and clean, low-cost hydropower, transportation and irrigation 
for our region. We must not forget that our region's citizens 
have a vital interest in the management of their own resources, 
and that county governments are a key to implementing effective 
solutions.
    Thank you very much.
    [The prepared statement of Mr. Ott follows:]

         Statement of The Honorable Merrill Ott, Commissioner, 
                  Stevens County, Colville, Washington

    Chairman Radanovich and Members of the Subcommittee, Thank you for 
inviting me to testify on this issue.
    As Chairman of the Stevens County Board of County Commissioners, I 
represent over 40,000 citizens in the rural northeastern part of 
Washington. I am also speaking on behalf of the Eastern Washington 
Council of Governments comprised of commissioners from the 6 counties 
surrounding Lake Roosevelt on the mainstem of the Columbia River.
    This region's over 400,000 residents rely on the clean, renewable 
and low-cost energy that the Columbia and Snake Rivers provide. In 
addition, our rivers provide water reservoirs for irrigation, flood 
control measures, barge transportation, fisheries, recreation, and 
more. These are all part of an interdependent system.
    Our region has long understood the delicate relationships between 
environmental factors, economic factors, and social factors that make 
up the fabric of our entire local ecosystem.
    As County commissioners, my colleagues and I are particularly 
sensitive to the interplay between environmental and economic issues on 
the ground where it most impacts people's lives. In addition to the 
daily business of running our respective counties, Commissioners from 
the Council of Governments are in the lead on regional planning efforts 
such as Watershed planning, Growth Management, which requires balancing 
economic development and the protection of Critical Areas for fish and 
wildlife habitat. Other examples include Subbasin planning; and salmon 
recovery efforts.
    I am personally and deeply involved in many of these ongoing 
efforts, often on a daily basis. It is from that perspective that I 
express the same concerns I've heard from County commissioners 
throughout the Northwestern United States have about maintaining a 
reasonable balance between economic, social and environmental 
interests. Collectively, we are deeply concerned that others (who will 
not be directly affected by proposed changes) are determined to re-
engineer the very fabric of an entire region more to their liking, 
whether or not the people most affected agree with those proposed 
changes.
    We believe strongly in the viability of the multiple uses we 
currently enjoy with the Columbia and Snake River systems.
    This huge river system is the key to the economic production 
capacity of the region. We depend upon its stability to make our region 
viable.
    The region's county commissioners are charged with the protection 
of the health and welfare of the citizens they represent. In 
northeastern Washington, the trend towards regional, state, and federal 
judicial management of local issues has threatened our very existence. 
For example, despite the attention and effort of local government, 
state agencies exercise dominant control over growth management and 
watershed management. As a result, counties are faced with dramatically 
increased cost of government, and dramatically reduced available 
services for our citizens. The cost of continual environmental 
litigation, is over-loading our county governments. Appointed officials 
and our courts continue to issue directives, codes, and laws, without 
adequate thought to their effect on our region's citizens, and without 
funding to adequately implement these programs at the local level.
    We understand that any decisions about water use must be based upon 
consistent policies which provide adequate protection and certainty to 
agricultural, tribal, municipal, industrial and environmental 
interests. However, the best decision-making must include and consider 
input from the ground level--in this case, from the region's state and 
locally elected officials.
    We do not want to see this important agricultural region become a 
litigious battlefield where federal judges run the rivers and the local 
voice is unheard.
    We need to keep the Columbia and Snake River system as viable 
working rivers for all the region's residents, while using our best 
local expertise and scientific evidence to provide a balance between 
human economic needs and our natural resources. We understand that this 
balance must occur in order to provide protection for fish and clean, 
low-cost hydropower, transportation and irrigation for our region. But, 
we must not forget that our region's citizens have a vital role in 
management of these resources, and that our county governments are key 
to implementing and achieving the desired outcome.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Ott. I appreciate your 
testimony.
    Next is Mr. Mark Benson from Potlatch Corporation. Mr. 
Benson, welcome to the Subcommittee. You may begin your 
testimony.

              STATEMENT OF MARK BENSON, DIRECTOR, 
              PUBLIC AFFAIRS, POTLATCH CORPORATION

    Mr. Benson. Thank you and good morning.
    I'm Mark Benson, the Director of Public Affairs for 
Potlatch Corporation. Potlatch is a mid-sized forest products 
company with forest lands and manufacturing operations in 
several states. We operate a large manufacturing complex right 
next-door in Lewiston, Idaho, where operations include the 
manufacture of pulp and paperboard, consumer tissue and lumber. 
We employ just under 2,000 people here in the Lewis-Clark 
Valley and have an annual payroll of just over $100 million.
    During the past century, Potlatch has made considerable 
investment at our site located along the banks of the 
Clearwater River. The lumber mill was built in the 1920s, 
followed by the pulp and paper operation in the 1950s, which 
was followed by our tissue operation in the 1960s. All these 
facilities have been substantially modernized over the decades.
    We have always relied on the working rivers of the region, 
most notably the Clearwater and the Snake. In the early days of 
sawmilling, our log supply was floated down the Clearwater 
River from the forests of the upper river basins. Much of the 
log supply needed to run the mill was delivered by way of the 
river during a few-week period each spring.
    When lower Granite Dam and the locks were put in place in 
the 1970s, we began using the Snake River to transport our 
paperboard products outbound to destinations in the Pacific 
Rim. This transportation alternative allowed us to compete 
internationally in a very competitive global market. During the 
past couple of years, we have begun to ship limited quantities 
of wood chips and sawdust upstream to help supply the raw 
material needs of our pulp mill and paperboard operation.
    Unfortunately, in the aftermath of the West Coast 
longshoreman work stoppage of a couple of years ago, we were 
forced to ship much of our Asian-bound products by truck and 
rail to the Puget Sound ports to reach our Pacific Rim 
customers. It was simply a matter of not being able to meet the 
needs of our customers through the bottlenecked Port of 
Portland that necessitated that operational change. Since that 
time, service through Portland has worsened, and we have 
redirected most of our Asian-bound shipments through the Puget 
Sound ports.
    I would like to point out to you that this is not the first 
time that we have shifted our shipping from the Snake/ Columbia 
system to the Puget Sound ports. West coast shipping has been 
and will always be somewhat dynamic. Business will move back 
and forth between competing ports over time. Let me make it 
absolutely clear that our current shipping patterns through 
Puget Sound do not cause us to view the Snake/Columbia system 
as any less important to our long-term economic viability. We 
are an inland producer with substantial Pacific Rim markets. We 
need economical and efficient transportation alternatives to 
meet the demands of our customer base.
    As evidenced by our recent increase in the Snake/Columbia 
system, when we can effectively access our Asian customers 
through the Port of Portland, we will utilize the Snake/
Columbia system. We would like to increase our use not decrease 
our use of the Snake/Columbia system. This river is an 
important element of our long-term shipping strategies.
    In addition to the facilities we operate at Lewiston, as 
mentioned thus far in my comments, we also operate a 17,000-
acre hybrid poplar farm near Boardman, Oregon. This very high-
tech operation uses irrigation from the Columbia River's John 
Day Reservoir. Without the water from the Columbia, this 
operation would cease to exist.
    There's no question that the ongoing debate about the 
Snake/Columbia system is centered on fish. It is our hope that 
the fish of this region will continue to increase in numbers 
and in population viability. We don't view this as an either-or 
proposition. We believe that our working river can provide the 
habitat for fish and at the same time can provide the other 
services we in the region depend on.
    Being located on a working river where endangered species 
exist definitely adds to the complexity of doing business. It 
doesn't mean that operations or the use of resources need to 
stop.
    After working for several years with multiple Federal and 
state agencies, we have just been granted a new NPDES permit, 
the permit that governs our effluent discharge into the river. 
With the newly granted permit, Potlatch is now the most 
stringently regulated pulp mill located on the Columbia River 
system. The requirements of this permit provide assurances that 
our effluent discharge does not harm the endangered fish in the 
river.
    While the permitting process was painstakingly slow and 
quite costly, it does demonstrate that the needs of fish and 
the needs of an industrial operation can be met simultaneously. 
Let me add here that there are many examples here in the 
Pacific Northwest where resource-based industries are 
demonstrating that we can have viable businesses and also 
provide for the needs of endangered species.
    I believe that the many interests and government agencies 
in this region can work together to maintain viable fish 
populations and viable businesses while keeping the Snake/
Columbia system a working river with the dams in place.
    In closing, let me thank you for your interest in this 
matter and ask you to stay the course to keep our river a 
working river.
    Thank you for the opportunity to comment. And I will be 
available for questions.
    [The prepared statement of Mr. Benson follows:]

       Statement of Mark J. Benson, Director of Public Affairs, 
                          Potlatch Corporation

    I am Mark Benson, Director of Public Affairs for Potlatch 
Corporation. Potlatch is a mid-sized forest products company with 
forest lands and manufacturing operations in several states. We operate 
a large manufacturing complex next door in Lewiston, Idaho where 
operations include the manufacture of pulp and paperboard, consumer 
tissue and lumber. We employ just under 2,000 people here in the Lewis 
Clark valley and have an annual payroll of just over $100 million 
dollars.
    During the past century, Potlatch has made considerable investment 
at our site located along the banks of the Clearwater River. The lumber 
mill was built in the 1920s followed by the pulp and paperboard 
operation in the 1950s and the tissue operation in the 1960s. All 
facilities have been substantially modernized over the decades.
    We have always relied on the ``working rivers'' of the region, most 
notably the Clearwater and the Snake. In the early days of sawmilling, 
our log supply was floated down the Clearwater River from the forests 
of the upper river basins. Much of the log supply needed to run the 
mill, was delivered by way of the river during a few week period each 
spring.
    When Lower Granite dam and locks were put in place in the 1970s we 
began using the Snake River to transport our paperboard products 
outbound to destinations in the Pacific Rim. This transportation 
alternative allowed us to compete internationally in this very 
competitive global market. During the past couple of years we have 
begun to ship limited quantities of wood chips and sawdust upriver to 
help supply the raw materials needs of our pulp and paperboard 
operation.
    Unfortunately, in the aftermath of the west coast longshoreman work 
stoppage of a couple of years ago, we were forced to ship much of our 
Asian bound products by truck and rail to the Puget Sound ports to 
reach our Pacific Rim customers. It was simply a matter of not being 
able to meet the needs of our customers through the bottlenecked Port 
of Portland that necessitated that operational change. Since that time, 
service through Portland has worsened and we have re-directed most of 
our Asian bound shipments through the Puget Sound ports.
    I would like to point out that this is not the first time we have 
shifted our shipping from the Snake--Columbia system to the Puget Sound 
ports. West coast shipping has been and will always be somewhat 
dynamic. Business will move back and forth between competing ports over 
time. Let me make it absolutely clear that our current shipping 
patterns through the Puget Sound Ports do not cause us to view the 
Snake--Columbia system as any less important to our long-term economic 
viability. We are an inland producer with substantial Pacific Rim 
markets. We need economical and efficient transportation alternatives 
to meet the demands of our customer base. As evidenced by our recent 
increase in the use of the Snake--Columbia system, when we can 
effectively access our Asian customers through the Port of Portland, we 
will utilize the Snake--Columbia system. We would like to increase our 
use not decrease it. This river system is an important element of our 
long term shipping strategy.
    There is no question that the ongoing debate about the Snake--
Columbia system is centered on fish. It is our hope that the fish of 
this region will continue to increase in numbers and in population 
viability. We don't view this as an ``either/or'' proposition. We 
believe our ``working river'' can provide habitat for fish and at the 
same time can provide the other services we in the region depend on.
    Being located on a ``working river'' where endangered species exist 
adds to the complexity of doing business. It doesn't mean that 
operations or the use of resources need to stop.
    After working for several years with multiple federal and state 
agencies we have just been granted a new NPDES permit, the permit that 
governs our effluent discharge into the river. With the newly granted 
permit, Potlatch is the most stringently regulated pulp mill located on 
the Columbia River System. The requirements of this permit provide 
assurances that our effluent discharge does not harm the endangered 
fish in the river. While the permitting process was painstakingly slow 
and quite costly, it does demonstrate that the needs of fish and the 
needs of an industrial operation can be met simultaneously. Let me add 
here that there are many examples here in the Pacific Northwest, where 
resource based industries are demonstrating that we can have viable 
businesses and also provide for the needs of endangered species.
    I believe that the many interests and government agencies in this 
region can work together to maintain viable fish populations and viable 
businesses while keeping the Snake--Columbia system a ``working river'' 
with the dams in place.
    In closing, let me thank you for your interest in this matter and 
ask you to stay the course to keep our river a ``working river''.
    Thank you for the opportunity to comment today. I will be happy to 
answer any questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Benson.
    I want to make sure that everybody can hear. If I could ask 
the folks in the far back of the room, if you do have a problem 
hearing, please just raise your hand and I'll make sure that we 
make the adjustments here to make sure everybody can hear. So 
please do that if you're having problems.
    Next is Ms. Liz Hamilton who's representing the Northwest 
Sportfishing Industry Association. Ms. Hamilton, welcome to the 
Subcommittee. You may begin your testimony.

        STATEMENT OF LIZ HAMILTON, EXECUTIVE DIRECTOR, 
          NORTHWEST SPORTFISHING INDUSTRY ASSOCIATION

    Ms. Hamilton. Thank you. I'm nervous. I'll do my best.
    Mr. Chairman and distinguished members of the committee, 
I'm really honored to be able to be before you today 
representing the Northwest Sportfishing Industry Association.
    We're a trade group of over 300 businesses spread 
throughout the region, including some of the larger businesses 
you might recognize like G.I. Joes and Fred Meyer, to smaller 
businesses, mom and pops, people who work out of their boat and 
that sort of thing, as well as most of the larger sportfishing 
clubs are members of our organization.
    Our industry employs over 36,500 and supplies this region 
with over $3-and-a-half billion in economic blessings to the 
region.
    We are here to plead the future help of salmon and our 
businesses because they're bound together in the operation of 
the Federal hydrosystem.
    Of course the Snake and Columbia River are working rivers. 
But to sustain our families they need to be rivers to work for 
us too. The wealth of our salmon populations must be integral 
with other things that Northwesterners rightfully depend on, 
like fishing, irrigation, power, recreation and navigation. But 
instead we often feel like the jobs provided by these rivers 
are downplayed and undervalued. And the focus is often on 
maximizing other uses at the expense of salmon.
    To the 36,500 family wage jobs in the Northwest, rivers 
that work have to have healthy, abundant fishable populations. 
These fish are a little like a gold nugget swimming through the 
river. You've all heard about the Idaho study already 
demonstrating that restoring Snake River salmon and steelhead 
to levels that were seen in our lifetime would generate over 
half a billion annually for the state, the lion's share of this 
money going to small river-based communities.
    In 2001, the spring chinook season brought the town of 
Riggins, Idaho, a nearly quarter of its annual income. When 
Brewster, Washington, the town of 2,000, has salmon season, one 
fishery provides $1.2 million to about 15 miles of river. So 
salmon are big business. It's just hard to recognize that.
    From Riggins to Lynnwood to Hood River to Roseburg, this 
river that works conjures up for us images of abundant salmon 
populations and an economic boost. This boost would double the 
economics generated by our industry. I'll tell you why later.
    We approach the Endangered Species Act protections from the 
perspective that salmon mean business. For fishing businesses 
to grow, we need to improve salmon passage and habitat so that 
more fish return. To make these rivers work, we need to 
maximize our investments to make sure that the negative impacts 
of the dams on the Columbia Basin are reduced.
    Many people speak of balance. I love that word. It's fair. 
We should all remember it. However, the fishing community has 
lost 90 percent of our ability to harvest since 1974. So the 
balance, in our opinion, needs to look in our direction a 
little more, please.
    There is no question that the ESA has been a good thing for 
sportfishing businesses. But this has to include a Federal 
salmon plan that actually pencils out for recovery instead of 
slowing the rate of extinction.
    Our failure to recover salmon and steelhead in the past is 
not a reason to give up. And this is the wrong reaction to our 
nation's failure to nurture this law up to its true promise. 
Otherwise our salmon economy is in danger. And it's a little 
like refusing to go to the emergency room after having a heart 
attack.
    Thus we seek a Federal salmon plan that works. This 
hydrosystem is the major factor for decline. A to Z, the 
scientists agree on this. And it needs to be accountable to the 
salmon communities as well. Avoidance leads not only to salmon 
declines and extinction, it forces us into court where we don't 
want to be and shouldn't have to be, causing nasty political 
fights and constraining economies in rural Northwest 
communities from the mountains of central Idaho, but especially 
on the Oregon and Washington costs.
    Many industries, including ours, and those sitting at the 
table have already made tremendous sacrifices to save salmon. 
Logging and agriculture. But management of the dams can 
virtually erase these sacrifices.
    We prefer a vision of the future which allows for salmon 
recovery with over 3 billion a year in new fishing economics. 
But we also have to figure out a way to protect the existing 
things that are important to this region as well, like 
irrigators and grain shippers.
    We merely ask for Northwest ratepayers and other industries 
to make minor changes during this low water year in order to 
more equitably distribute the burden among all user groups that 
share in the benefits of these rivers.
    Since 2001, juvenile Snake River salmon are frequently 
migrating through an unhealthy, hot, slow-flowing river that is 
one of the cause of this year's poor spring salmon returns. And 
not surprisingly, since 2001 spring salmon have been on a 
dramatic decline.
    The impact of river changes for other rivers is real, but 
we think it's fair, given decreasing fish numbers.
    Because surely it is not too much for this great region in 
this great nation to help an industry that is bleeding out jobs 
and fears that the continuing losses will continue with the 
status quo.
    Surely it's not too much for our gift of the sea, those 
salmon and steelhead that travel over 900 miles, to die and 
nurture this region. And surely it's not too much for our 
family fishing culture that keeps us bonded, family and 
friends, in outdoor activities away from computer screens, 
drugs and other distractions.
    The failure to make the river working is costing our jobs. 
The second largest employer in Hood River County lost nearly 
half a million from salmon closures this year and is laying 
people off. Surely you care, along with us, about a river that 
works for all.
    It is our conclusion that our nation and our salmon and our 
jobs need an Endangered Species Act that works. We merely need 
leaders to see that it is applied honestly and fairly by the 
Federal agencies to ensure that the hydrosystem allows the 
river to work for a variety of interests rather than a few.
    This for fishing industry in this region needs leadership 
with vision, leadership with problem solving, not fear 
mongering. We are counting on you to provide this leadership. 
And, again, I thank you for the honor of being here today.
    [The prepared statement of Ms. Hamilton follows:]

            Statement of Liz Hamilton, Executive Director, 
              Northwest Sportfishing Industry Association

    Mr. Chairman and distinguished members of the Committee, thank you 
for the opportunity to testify today. My name is Liz Hamilton, and I am 
executive director of the Northwest Sportfishing Industry Association 
(NSIA). NSIA is a group of over 300 fishing businesses with 
representatives throughout the region. My members include both larger 
businesses such as G.I. Joes and Fred Meyer, as well as smaller, 
family-owned businesses. In addition most of the larger sportfishing 
clubs are members of NSIA, as are many individuals who share our goals 
and vision. (Membership listing attached) But in all cases, NSIA 
members participate in a multi-billion dollar industry in the Northwest 
and we are acutely aware that the future health of salmon and steelhead 
and our businesses is tied to the management of the Columbia and Snake 
rivers and the federal hydrosystem.
    I submit the following testimony in order to share with you the 
importance of restoring healthy salmon and steelhead populations in the 
Snake and Columbia rivers to the members of the NSIA, the Northwest 
economy in general, and the quality of life in this part of the 
country.
    The Snake and Columbia are working rivers, but need to work a lot 
better. Northwesterners rightfully depend on the Columbia and Snake for 
fishing, irrigation, power, recreation, and navigation. Unfortunately, 
the fish, recreation, and associated jobs provided by these rivers are 
downplayed and undervalued. Instead the focus is often on maximizing 
energy revenue at the expense of salmon--even when the economic 
benefits associated with healthy salmon populations are too big to 
ignore. I urge subcommittee members to keep in mind that to the 36,000 
family wage jobs in Northwest sportfishing, working Northwest rivers 
must have healthy, fishable populations of salmon and steelhead. That 
is why the Northwest Sportfishing Industry Association is part of a 
broad coalition of sport fishing, commercial fishing, and conservation 
organizations working to improve conditions for salmon in the mainstem 
Snake and Columbia rivers. We do this work because we must to survive.
    When I say that salmon are part of working river, I mean that in 
terms of jobs. Looking at Idaho in particular, a 2005 study by Ben 
Johnson Associates (submitted along with this testimony) found that 
restoring Snake River salmon and steelhead just to the levels seen 
during the 1950s (still less than 10% of historic populations for Snake 
River spring/summer chinook) would generate $544 million annually for 
the state, $330 million of which would go directly to rural river-based 
communities--that's about 270 percent better than was generated during 
2001, when Idaho had a salmon fishing season for the first time in 
years. That year, Snake River spring/chinook season brought the town of 
Riggins, Idaho nearly one quarter of its annual income from 2001. To 
Riggins, the term ``working river'' conjures up images of abundant 
salmon runs and an economic boost.
    The businesses of NSIA are convinced that the Idaho numbers would 
pale compared to Oregon and Washington economics if a similar study 
were conducted for those portions of the Columbia. Restoring Columbia 
and Snake to the levels examined by the Idaho study would allow the 
region-wide economic benefits of recreational salmon and steelhead 
fishing to double.
    NSIA approaches Endangered Species Act protections for Snake and 
Columbia salmon and steelhead from the perspective that salmon mean 
business, and if we want the fishing business to grow, we need to 
improve salmon habitat so that more fish return. If we want to make 
these rivers work for fishermen and fishing businesses, we need to do 
more, not less, to make sure that negative impacts of federal and non-
federal dams throughout the Columbia Basin are reduced. That's why 
1,100 businesses, tied to sportfishing, recently signed a letter 
(submitted with this testimony) in support of H.R. 1615, the Salmon 
Planning Act, a bill that would ask the federal government to fully 
consider how best to remove the lower Snake River dams and replace 
their benefits.
    There is no question that the ESA is a good thing for salmon and 
salmon fishing businesses. To reap the full benefits of this law, it 
needs to be implemented and enforced, not ignored. We need a federal 
salmon plan that results in the recovery and delisting of salmon, not 
just a plan that lets these fish limp along the edge of extinction. The 
longer that they hover near the edge, the more likely it is they'll 
fall into extinction.
    It is preposterous to use our failure to adequately recover salmon 
and steelhead to date as a reason to weaken the law itself. This is the 
wrong reaction to our nation's failure to nurture this law live up to 
its promise. Instead, we must admit that our salmon--and our salmon 
economy--are in danger. Ignoring the problem would be like refusing to 
go to the emergency room after having a heart attack because you don't 
want to face the fact that you either need to change how you live or 
die.
    Because our businesses depend on restoring healthy salmon 
populations, NSIA has long advocated for a stronger federal salmon 
plan. That's why we were forced to join the plaintiffs that two weeks 
ago convinced a federal court to invalidate the 2004 salmon plan, also 
known as the BiOp.
    Everyone who cares about maximizing the potential of the Columbia 
and Snake rivers for the economic well-being of the Pacific Northwest--
including the inland Northwest--is joyous that Judge Redden struck down 
the administration's convoluted disingenuous salmon plan. While there 
has never been a biological opinion in place on the Columbia and Snake 
that would, if implemented, have restored Columbia Basin salmon and 
steelhead to self-sustaining, harvestable levels, the 2004 federal 
salmon plan was a step backward to the plans of the early nineties that 
``cried out for a major overhaul.''
    The plan would have allowed federal dam managers to leave 
unaddressed 96 to 100 percent of the mortality that the federal 
hydrosystem imposes on juvenile Snake River salmon and steelhead as 
they migrate toward the ocean. In other words, the best we could hope 
for from the plan is that 10 years and $6 billion from now, Snake River 
fish hardly be better off during their migration than they are now. The 
hydrosystem would still been allowed to kill between 49 and 86 percent 
of the Snake River salmon and steelhead migrating downstream.
    Legal questions aside, our fears about the scientific inadequacy of 
the 2004 Salmon Plan's approach were recently confirmed through an 
independent scientific review conducted by the American Fisheries 
Society at the request of the Northwest native tribes. Among other 
things, that review concluded that the Salmon Plan's failure to address 
the impact of the dams and reliance on things like trucking and barging 
fish downstream instead is quite simply scientifically inadequate to 
put salmon on track for recovery.
    It would be hard to argue that it's in the best interest of 
Northwesterners to leave the hydrosystem off the hook for the salmon 
declines it causes. We've tried that strategy for decades, and it leads 
not only to salmon declines and extinction, but to litigation, nasty 
political fights, and stagnant economies in rural Northwest communities 
from the mountains of central Idaho to the Oregon and Washington 
coasts. And those communities, including my businesses, have already 
made sacrifices to recover salmon, but the dams simply exact too large 
a toll to leave them off the hook any longer.
    It's time for an alternative to this sluggish status quo, and even 
more than in the late 1990s it's clear that the centerpiece of such an 
alternative should be removing the four lower Snake River dams and 
investing in fully replacing their benefits. This can be accomplished 
for approximately the same taxpayer and electric ratepayer investment 
as is required by the existing salmon plan, and still leave sufficient 
funding for habitat restoration in the Columbia River and its non-Snake 
River tributaries. Some in this crowd may believe otherwise, but I 
guarantee you that no serious salmon advocates--I repeat, none--are 
talking about removing the higher value dams along the Columbia--just 
the four obsolete dams on the lower Snake River.
    Federal agencies themselves have concluded that removing the lower 
Snake dams is the most scientifically certain way to recover Snake 
River salmon. This conclusion has since been buttressed by others, 
including the aforementioned American Fisheries Society, which 
determined in their independent Salmon Plan review that Snake River 
salmon survival and recovery would ``be assured'' with lower Snake 
River dam removal.
    On the other side of this equation is the status quo, which is 
guaranteed to present no new economic opportunities for fishing 
businesses or anyone else. Instead, we'll keep fighting over a 
diminishing resource until the potential for restoring it is eventually 
gone. I prefer my vision of the future, which allows for salmon 
recovery, over $3 billion per year in new fishing and recreational 
opportunities, and protection for existing businesses like irrigators 
and grain shippers.
    But we're not yet to the point where the federal agencies in charge 
of salmon recovery, share this vision, despite all the evidence. Which 
leads me to this summer and our modest request for help in turning 
things around for salmon migrants and our future.
    This proposal is important to keep these rivers working for 
fishermen, even at low current levels. Absent the improved flow and dam 
operations we are requesting, fewer Snake River fall chinook are likely 
to return in three to five years. These steps are particularly 
important in light of what would otherwise be poor river conditions 
this summer and the fact that ocean conditions may be taking a turn for 
the worse.
    No one doubts that ocean conditions play a large role in the fate 
of salmon populations--they have for thousands of years. In the past, 
our rivers have been in good enough shape to ensure the survival of 
salmon runs during bad ocean conditions. Now we fear that the Snake 
River outmigrants cannot endure another of the ocean's endless cycles.
    Our river proposal request merely asks that salmon migrating 
through the Snake and Columbia rivers this summer are given the 
semblance of a fair shake during this low water year. Scientists tell 
us this modest proposal will likely double the survival rates of 
juvenile Snake River fall chinook, and flow targets and water 
temperatures will still be well below what biologists (and our laws in 
the case of water temperatures) say we should be shooting for if we are 
to recover the salmon and steelhead of the Columbia and Snake.
    Unfortunately, what's been typical of salmon migration conditions 
under the river management decisions that have been made since 2001 is 
that salmon and salmon dependent businesses are repeatedly sacrificed 
for the sake of maintaining status quo river operations. We are asking 
for Northwest electric ratepayers, shippers, and irrigators to make 
minor changes during this low water year in order to more equitably 
distribute the burden among all the groups that share in the benefits 
of these great rivers.
    The science strongly suggests that improving river conditions and 
decreasing reliance on juvenile fish transportation would help improve 
Snake River fall chinook survival, and a strategy that ``spreads the 
risk'' between transported and non-transported fish is warranted. 
<SUP>1</SUP> While ocean conditions were largely responsible for the 
rebound in salmon runs earlier this decade, another contributor was the 
fact that in the late nineties, the Bureau of Reclamation actually 
delivered the amount of Idaho water that has been promised since the 
1995 BiOp. Since 2001, the percentage of juvenile Snake River salmon 
migrating through an unhealthy, hot, slowly flowing river has increased 
considerably, and that is likely one cause of this year's poor spring 
chinook returns.
---------------------------------------------------------------------------
    \1\ See, ``Effects of Federal Columbia River Power System on 
Salmonid Populations,'' NOAA Technical Memorandum NFMS-NWFSC-63, 
February 2005, p. xvi. Available at http://www.nwfsc.noaa.gov/assets/
25/6061--04142005--152601--effectstechmemo63final.pdf
---------------------------------------------------------------------------
    And this year's fish returns are not just a little bit lower, 
they're much lower. Revised projections have made it appear that Snake 
River spring/summer chinook will return at their lowest levels since 
the bad old days of the mid-1990s, with returns as low as they were 
when these fish were first listed under the ESA in 1992.
    The impact of these changes for other river users is real, but 
equitable given decreasing fish numbers, a less favorable ocean, and 
current river conditions. Northwest electric ratepayers would likely 
pay an additional 11 to 54 cents per month on their residential power 
bills next year--I haven't met anyone who would not be willing to pay a 
little more on their electric bills if it meant having a better chance 
to recover these legendary fish and give their families more chances to 
fish for them.
    Idaho irrigators would still be providing less than the 427,000 
acre feet of water they promised under the recently ratified Snake 
River Water Rights agreement with the Nez Perce, the State of Idaho, 
and the Bureau of Reclamation, so impacts to upper Snake River water 
users would be less than they would normally anticipate if the 
agreement were enforced.
    For about 2 months shippers shipping from the Port of Lewiston may 
need to ship either by barge about 30 miles downstream from Lewiston or 
move their goods by rail or truck, as the Potlatch Corp. has already 
been doing.
    These are not insignificant sacrifices, but they are not out of 
proportion to those that will be made this year, and have been made for 
years, by communities that depend on salmon and steelhead fishing for 
their income and well-being. Due to decreasing spring chinook since 
2001 and their precipitous declines over the last two years, our 
industry is in the process of layoffs.
    Again, thank you for the opportunity to testify today. It is NSIA's 
conclusion that our Nation, our salmon and our jobs need the Endangered 
Species Act. The Act is right for the fish and right for our 
businesses--it just needs to be applied honestly and fairly by the 
federal agencies to ensure that the federal hydrosystem allows the 
Snake and Columbia rivers to work for a variety of interests, not just 
a few.
                                 ______
                                 

    [The Northwest Sportfishing Industry Association 2005 
Membership List submitted for the record by Ms. Hamilton 
follows:]
[GRAPHIC] [TIFF OMITTED] 21758.002


    Mr. Radanovich. Thank you, Ms. Hamilton.
    Next is Ms. Jean Ryckman of the Franklin County Public 
Utilities District. Ms. Ryckman, welcome to the Subcommittee.

              STATEMENT OF JEAN RYCKMAN, MANAGER, 
                      FRANKLIN COUNTY PUD

    Ms. Ryckman. Thank you, Mr. Chairman.
    In addition to representing Franklin County PUD ratepayers, 
I am also the Chair of the Coalition for Smart Salmon Recovery. 
It is a group of irrigators, businesses, electric ratepayers, 
both public and private, throughout the region, the four-state 
region.
    And as you have heard today, the Columbia/Snake River 
system is the lifeblood of this region. One of the primary 
river system benefits that seems to be glossed over whenever 
the issue of salmon within the Endangered Species Act comes up 
is its impact on hydropower.
    Hydropower is the world's leading renewable resource for 
generating electricity. This clean and affordable source of 
power continues to be the backbone of a strong Northwest 
economy. It supplies over half of our electricity. It helps 
improve the air we breathe and reduces global warming because 
it does not pollute the air. Hydropower enables the development 
of the region's wind energy because it has the ability to 
respond immediately to fluctuating energy demands and the 
intermittent nature of wind. Hydropower is reliable. It 
provides both environmental and societal benefits.
    Dams are just one piece of the recovery puzzle. Dam 
operators have made, and continue to make, enormous efforts and 
contributions--by changing river operations and improving 
facilities--to make improvements to the river system for the 
salmon. As a result, in 2000 NOAA Science Center confirmed that 
survival of juvenile salmon passing through the river is as 
strong as it was before the four lower Snake River dams were 
built. Salmon survival at dams has improved significantly.
    You know, as you've heard today, the salmon are a treasured 
symbol for all of us here in the Northwest, and the good news 
is they are not going extinct. NOAA Fisheries latest report 
shows that all ESA listed salmon stocks have improved 
significantly since 2000, resulting in longer fishing seasons 
and more fish throughout the basin in that four-year period. 
Even this year's mysterious run of spring chinook is 
significantly improved from what we saw throughout much of the 
1990s.
    In our efforts to save salmon, we're largely missing the 
point. Most of the attention continues to be focused on dams, 
when the evidence shows that they are not the limiting factor. 
In this year's strange spring chinook run, it tells us that the 
ocean is having a huge impact. Out in the ocean things are 
happening that we can't see and that we cannot control.
    Salmon recovery requires a close look at all of the H's; 
hatcheries, harvest, habit and, yes, hydropower. But a myopic 
focus on the dams distracts us from the real things that we can 
do to help the fish.
    The salmon recovery effort is out of balance. Rather than 
relying on the best available science, it often seems to be 
guided by rhetoric and personally held beliefs, not evidence.
    Electricity ratepayers are taxed to fund the bulk of the 
effort, and we have a right to demand results. We must balance 
the needs of fish with the equally compelling needs of people. 
Pasco School District in my community serves approximately 
10,000 students. Last year that school district paid through 
its electricity rates $155,000 for salmon recovery. That's 
enough money to buy a brand new textbook for one-half of those 
10,000 students every single year.
    It's ironic, you know, that it has fallen to the 
electricity consumers to demand biological justification for 
the expensive programs promoted by the salmon interests. 
There's no accountability from those who are asking for 
Bonneville money. And further, there's the assumption that our 
electric customers will fund every project that might help 
fish, whether it has anything to do with power production or 
not. BPA estimates that fish and wildlife costs will make up to 
28 percent of the Agency's revenues in the '07-'09 rate period. 
School children, farmers, senior citizens and every electric 
customer in the Northwest will bear these costs.
    The ESA, as it exists, exposes conflicting goals in Federal 
policies. NOAA Fisheries, as part of the Department of 
Commerce, is responsible for promoting and allocating the 
salmon fishery for commercial purposes. That same agency is 
responsible for protecting those ESA listed salmon. And also 
the ESA encourages endless litigation and allows our energy and 
money to be diverted rather than focusing on credible, science-
based salmon protection efforts. It takes the operational 
decisions away from those who have expertise and hands it to 
the litigants.
    Mr. Chairman, Bonneville customers and the people who pay 
through their power bills are committed to salmon recovery. And 
since we fund the bulk of the effort, we believe it is 
appropriate for us to demand results.
    Please help us bring common sense back to the ESA. Thank 
you.
    [The prepared statement of Ms. Ryckman follows:]

 Statement of Jean Ryckman, Manager, Public Utility District No. 1 of 
   Franklin County, Chairperson, Coalition for Smart Salmon Recovery

Introduction:
    Jean Ryckman has 28 years of electric utility experience. She has 
worked for Franklin PUD for 25 years and began serving in her current 
capacity of Manager of the utility in January, 2004. Jean is currently 
Chairperson of the Coalition for Smart Salmon Recovery and president of 
the Board of Conservation and Renewable Energy Systems. She is also a 
participant in the BPA Power Function Review, Public Power Council, 
Pacific Northwest Utility Conference Committee, and Washington PUD 
Association. She serves on the Boards of United Way, Tri-Cities Visitor 
and Convention Bureau, and Pasco Chamber of Commerce. Ms. Ryckman is 
past-president of the Pasco School Board, past-chair of Columbia Basin 
College Advisory Committee, and past-chair of the WPUDA System Design 
and Evaluation Committee.
Testimony:
    Before commenting on the impact of the Endangered Species Act here 
on the Columbia and Snake River Hydrosystem, it is important to 
reiterate how crucial this multi-purpose river system is to all of us 
in the Northwest. It is no exaggeration to say it is the lifeblood of 
this region. One of the primary river system benefits that seems to be 
glossed over whenever the issue of salmon within the Endangered Species 
Act comes up is the impact on hydropower.
    Hydropower is the world's leading renewable resource for generating 
electricity.
    This clean and affordable source of power continues to be the 
backbone of a strong Northwest economy, supplying half of our 
electricity. Hydropower helps improve the air we breathe, and reduces 
global warming because it does not pollute the air. Hydropower enables 
the development of the region's wind energy resource, because it can 
respond immediately to fluctuating energy demand and the intermittent 
nature of wind. Hydropower is reliable. Maintaining the flexibility of 
our hydrosystem is the surest way to maximize it as one of the region's 
greatest natural resources. It provides both environmental and societal 
benefits.
    Dams are just one piece of the salmon recovery puzzle. Dam 
operators have made, and continue to make, enormous efforts and 
contributions--by changing river operations and improving facilities--
to make improvements to the river system for salmon. As a result, in 
2000, NOAA Science Center confirmed that survival of juvenile salmon 
passing through the river is as strong as it was before the four lower 
Snake River Dams were built. Salmon survival at dams has improved 
significantly. At most projects, well over 90% of the juvenile salmon 
safely pass the dams.
    The salmon are a treasured symbol to all of us in the Northwest, 
and the good news is--they are not going extinct. Despite the gloom and 
doom messages you have been hearing about the health of our Northwest 
fish, NOAA Fisheries latest report shows that all ESA-listed salmon 
stocks have improved significantly since 2000. Snake River Fall Chinook 
increased by over 300% during that four year period resulting in longer 
fishing seasons and more fish throughout the Basin. Even this year's 
mysterious run of Spring Chinook is significantly improved from what we 
saw throughout much of the 1990's.
    In our efforts to save salmon, we're largely missing the point. 
Most of the attention continues to be focused on dams, when the 
evidence shows that they are not the limiting factor. In fact, this 
year's strange Spring Chinook run tells us that there is a lot going on 
with these fish, and most of it happens out in the ocean where we can't 
see it, let alone control it. Juvenile salmon that migrate to the ocean 
any given year do not all return to the Columbia River at the same 
time. Some stay out in the ocean for 1 or 2 or 3 years. Last year, a 
huge number of jacks--or early returns--returned to the river. 
Typically this corresponds to a strong run the following year. The 
strong forecast for this year's return was based on the large number of 
jacks that returned last year. The fact that the number of fish we've 
seen is lower than we would expect tells us that something happened to 
them between last year and this year ``something in the ocean, when 
they were far removed from the Columbia River.
    Salmon recovery will require a close look at all of the ``H's: 
Hatcheries, Harvest, Habitat, and yes, Hydropower and the dams. But a 
myopic focus on the dams and the costs some feel they should bear 
distracts us from the real things we can do to help the fish.
    The salmon recovery effort is out of balance. Rather than relying 
on the Best Available Science it often seems to be guided by rhetoric 
and personally held beliefs--not evidence.
    Electricity ratepayers fund the bulk of the effort and have a right 
to demand results. We must balance the needs of fish with the equally 
compelling needs of people. Pasco School District, in Franklin County, 
Washington, serves approximately 10,000 students. The school district 
paid, through its electric rates, $155,000 toward salmon recovery 
efforts in 2004 and indications are that cost will be higher next year. 
The amount Pasco School Districts pays for salmon each year would 
provide new textbooks for one half of the students in that year.
    Northwest power consumers, through Bonneville Power have invested 
over $6.5 billion since 1978 in salmon recovery. It is ironic that it 
has fallen to the electricity consumers to demand biological 
justification for the expensive programs promoted by the salmon 
interests. There is no accountability from those asking for Bonneville 
money. Further, there is the assumption that our electric customers 
will fund every project that might help fish, whether it has anything 
to do with Bonneville's power production or not. BPA estimates that 
fish and wildlife costs will make up 28% of the Agency's revenue 
requirement in the next rate case (``07 to ``09). School children, 
farmers, senior citizens, and every electric customer in the Northwest 
will bear these costs.
    The ESA, as it exists, exposes conflicting goals in federal policy. 
An example: NOAA Fisheries, as part of the Dept. of Commerce, is 
responsible for promoting and allocating the salmon fishery for 
commercial purposes. That same agency is also responsible for 
protecting those ESA listed salmon. There continue to be expectations 
that the federal hydrosystem will make up for deficiencies in salmon 
returns or past policy decisions no matter where the responsibility 
should rightfully rest.
    The ESA, as it exists, encourages endless litigation and allows our 
energy and money to be diverted to determining who is ``right'' rather 
than focusing on credible, science-based salmon protection efforts. 
Litigation consumes enormous amounts of time and money. Litigation can 
take operational decisions away from those who have the expertise, and 
hand it to litigants, as currently demonstrated in the case before 
Judge Redden. Litigants pursue political agendas rather than a balanced 
approach that recognizes the many uses and benefits of the river system
Conclusion:
    BPA's customers and the people who pay through their power bills 
are committed to salmon recovery. Since we fund the bulk of the effort 
we believe it is appropriate for us to demand results.
    Electricity rates in the Northwest are almost 50% higher than they 
were in 2001. BPA's commitments to fish and wildlife make up about a 
quarter of their total power costs and these costs are expected to 
grow.
    We are frustrated because the context under which salmon decisions 
are made has not provided enough accountability or tools to measure 
success. As a consequence, electricity ratepayers end up with ever 
increasing costs, without corresponding clarity as to what their 
significant contributions to the effort are achieving.
    BPA's customers will spend nearly $700 million this year alone on 
salmon recovery, and at the end of the year, we will be unsure if we 
are any closer to reaching the region's mitigation goals.
    Now more than ever we need to listen to the science, keep doing the 
things that are working, and look for other opportunities to make smart 
decisions that will enhance these beautiful, multi-use rivers, the 
inhabitants of the rivers, and the health of our region.

                  Supporting Information for Testimony

           Keeping the Columbia/Snake a Working River System

                              June 6, 2005

1. Northwest Energy Supply
    This chart shows the Northwest's dependence on clean, renewable 
hydropower. There is over 33,000 MW of hydropower capacity in the 
Northwest. This equates to almost 30 nuclear plants the size of the 
Columbia Generating Station, or 75 coal plants the size of the Boardman 
facility, or over 130--249 MW capacity combustion turbine plants.
2. Fish Counts at Bonneville Dam 1938--2004
    Adult salmon have been passing Bonneville Dam in record numbers for 
the past four years. This is a product of good ocean conditions and 
effective investments in the hydropower system.
3. 2005 Spring Chinook at Bonneville Dam
    The 2005 adult return to Bonneville Dam is much less than the 10 
year average, yet it is still significantly more than the returns of 
the early ``90s.
4. Salmon Return Increases
    From NOAA Fisheries, a look at improvements in fish returns by 
species. This again demonstrates that fish returns have improved 
significantly in the past few years.
5. Total Fish and Wildlife Spending 1978-2004
    Bonneville Power Administration is spending more than $600 million 
per year on fish and wildlife mitigation. This includes the cost of the 
Northwest Power & Conservation Council's Fish and Wildlife Program and 
the cost of operating the river for fish.
6. BPA's Total Fish & Wildlife Program: Total Annual Average Cost
    This chart of BPA's estimate for fish and wildlife costs for the 
2007-2009 rate period demonstrates that fish mitigation costs are 
projected to continue to climb.
7. Regional Impacts of Plaintiff's Proposal 5/19/05
    This 2-page summary was provided by the Federal Caucus www.salmon
recovery.gov. This is a summary of the potential impacts of the 
Plaintiff's proposal for a preliminary injunction regarding the 2004 
Biological Opinion.
[GRAPHIC] [TIFF OMITTED] 21758.011

[GRAPHIC] [TIFF OMITTED] 21758.012

[GRAPHIC] [TIFF OMITTED] 21758.013

[GRAPHIC] [TIFF OMITTED] 21758.014

                                 ______
                                 

     Frequently Asked Questions about Columbia Basin Salmon Returns

What is the status of the runs?
    <bullet>  For the fifth year in a row (2000-2004), near record 
salmon returns in most areas of the Columbia and Snake basins indicate 
that, with help from improved ocean conditions, our approach to 
improving hydrosystem passage and survival, salmon habitat and hatchery 
practices is having a positive impact on listed fish. Returns for 
nearly all stocks far surpassed ten-year averages.
    <bullet>  Historically, year-by-year salmon returns show a great 
deal of volatility.
What about the reports of a low return of spring Chinook this year?
    <bullet>  As of May 17, 2005, approximately 60,000 spring Chinook 
have passed Bonneville Dam. This number is indeed lower than the 
predicted returns. Sometimes run size predictions differ substantially 
from actual returns.
    <bullet>  The number of 2005 spring Chinook still represents a 
significant number of spring Chinook when compared to runs less than 
ten years ago. In 1996, only 12,000 spring Chinook were counted at 
Bonneville.
    <bullet>  This year's spring Chinook run is made up of juveniles 
that migrated out of the Columbia River in 2002 and 2003. In 2003, 
survival through the Columbia River hydrosystem for the out-migrating 
juveniles was one of the highest ever observed.
    <bullet>  The return of jacks--precocious salmon that return a year 
ahead of the rest of its age group--was strong in 2004. Jacks are often 
considered an indicator of the following runs.
    <bullet>  These facts demonstrate that river conditions are only 
one factor affecting salmon survival and may be overshadowed by other 
influence that scientists only partially understand, such as ocean 
conditions.
    <bullet>  The federal agencies are continuing to monitor the spring 
Chinook returns and will conduct a targeted scientific review of in-
river conditions.
What about sea lions eating the fish?
    <bullet>  The U.S. Army Corps of Engineers (which owns and operates 
Bonneville Dam) has estimated that, over the last few years, between 
0.5 and 2.0 percent of the total adult spring Chinook run has been 
eaten by pinnipeds (seals and sea lions) in the Bonneville tailrace 
alone.
    <bullet>  To discourage sea lion incursions, engineers and 
biologists have been using escalating harassment techniques agreed upon 
by the U.S. Army Corps of Engineers, National Marine Fisheries Service 
and Oregon and Washington departments of fish and wildlife, aimed at 
keeping the pinnipeds out of the fishways. These techniques are 
consistent with the Marine Mammal Protection Act.
What will it take to recover these fish?
    <bullet>  Recovery of these fish to sustainable population is a 
common goal among all parties working on salmon issues. Every citizen 
in the Pacific Northwest has a stake in this work. Salmon are a 
cultural icon and provide important economic benefits to the region. If 
we are to be successful we must work together to support our dual goals 
of a healthy environment and a strong economy.
[GRAPHIC] [TIFF OMITTED] 21758.015

[GRAPHIC] [TIFF OMITTED] 21758.016

                                 ______
                                 

                               Exhibit 7

                Regional Impacts of Plaintiff's Proposal

                                5/19/05

    The following are highlights of the federal agencies' response 
brief regarding potential impacts of plaintiff's proposal, National 
Wildlife Federation et al v. National Marine Fisheries Service and U.S. 
Army Corps of Engineers, filed April 22, 2005, U.S. District Court, 
District of Oregon.
Biological Impacts
    The Federal action agencies' Updated Proposed Action follows the 
most prudent course of staying with the strategy under which the runs 
have increased, while committing to fund research to better understand 
the biological phenomenon of yearling life history strategy of fall 
Chinook.
    To choose an untried operation in such a critically low water year 
would be to experiment with this threatened species running the risk 
that any speculative increases in survival through in river migration 
do not materialize. A prudent salmon manager should not gamble with 
species at risk. While the plaintiffs have not described with 
specificity the particular operations of the hydro system they would 
undertake to achieve their goal, based on my knowledge and experience 
it appears that the operations necessary to achieve the water particle 
travel time goal this summer would case greater mortality to listed 
fish than those in the current biological opinion.
        Declarations of D. Robert Lohn, Regional Administrator, 
        National Marine Fisheries Service
    In addition to failing to provide quantitative survival data on 
their recommended spill operations at the lower Snake River projects, 
the [plaintiff's] also fail to discuss the biological risks to 
different salmonids stocks associated with their suggested action.
        Declaration of Rock Peters, Senior Program Manager, Northwest 
        Division, United States Army Corps of Engineers
Resident Fish Impacts
    Grand Coulee lower lake levels will also adversely affect resident 
fish interests. Lower lake levels increase entertainment of resident 
fish through the dam; block resident fish from spawning sites; reduce 
nutrients for resident fish due to decreased water retention time, and 
impact net pen operations which require a water surface elevation of 
1283 feet or higher.
        Declaration of D. James Fodrea, Jr., Columbia/Snake Salmon 
        Recovery Office, United States Bureau of Reclamation
Navigation Impacts
    Drawdown of Lower Granite reservoir below Minimum Operating Pool 
would shut down the lock operation to commercial vessels because there 
is insufficient draft over the upstream sill of the lock and in the 
channel above the lock. This eliminates commercial traffic above Lower 
Granite Dam, which includes the ports of Lewiston, Clarkston, and 
Wilma...total economic losses over a 2-1/2 month drawdown period yields 
an average loss of $2.5 million. This assumes there is capacity to 
handle changes in transportation modes, which is the short-term may not 
be adequate unless much higher costs are paid.
        Declaration of Gregory S. Graham, United States Army Corps of 
        Engineers
Irrigation Impacts
    The proposals for injunctive relief made by plaintiffs could have 
significant, long-term negative impacts on virtually all of 
Reclamation's projects in the Columbia and Snake River Basins; these 
impacts include harm to other species listed under the ESA, potential 
violations of clean water standards, violations of state water laws, 
failure to meet authorized project water deliveries, economic impacts 
and an increased likelihood that Reclamation reservoirs would not 
refill sufficiently to meet salmon flow augmentation obligation and 
other authorized project purposes in future years.
        Declaration of Kenneth R. Pedde, Deputy Regional Directory, 
        Pacific
Recreational Impacts
    The additional draft would have potential adverse economic impacts 
to the tribal and other recreational concessions for 2005 due to the 
effects of reduced [Grand Coulee] lake levels on recreational activity. 
We estimate that half of the boat ramps on the lake would be 
inaccessible with the additional draft.
        Declaration of D. James Fodrea, Jr., Columbia/Snake Recovery 
        Office, United States Bureau of Reclamation
    Drafting Dworshak from elevation 1520 feet to elevation 1470 feet 
would ``reduce access to available recreational boat rams (see Graham's 
declaration).
        Declaration of David J. Ponganis, United Stated Army Corps of 
        Engineers Northwest Region, United States Bureau of 
        Reclamation, Boise, Idaho
Economic Impacts
    Simply put, the effects of the proposed 2005 operations carried 
over into 2006 (assuming an average water year and average market 
conditions and resumption of UPA operations) would result in an 
expected loss of revenues over the two years, FY2005 and FY2006 of $102 
million.
        Declaration of Roger Schiewe, Fishery Impact Technical Expert 
        and Principal Hydro Power Systems Operations Engineer, 
        Bonneville Power Administration
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. Ryckman. I appreciate your 
testimony.
    Mr. Norm Semanko, Idaho Water Users Association. Norm, 
welcome to the Subcommittee. You may begin.

   STATEMENT OF NORM SEMANKO, EXECUTIVE DIRECTOR AND GENERAL 
             COUNSEL, IDAHO WATER USERS ASSOCIATION

    Mr. Semanko. Mr. Chairman and members of the committee, 
thank you very much for this invitation.
    My name is Norm Semanko. I'm the Executive Director and 
General Counsel for the Idaho Water Users Association. I'm 
pleased to be joined here today by Tom Miram (phonetic) who's 
the Executive Director for our sister agency the Washington 
State Water Resources Association. Together with those two 
groups, the Oregon Water Resource Congress, all three of us 
represent millions of acres of irrigated grounds in the Pacific 
Northwest.
    The Water Users Association is affiliated with the National 
Water Resources Association. We certainly appreciate the 
positive working relationship we have with the Subcommittee and 
look forward to the important work that we do with the 
Subcommittee in the future.
    I'm also here today representing the Coalition for Idaho 
Water. And the Coalition is a broad-based collection of 
agricultural groups, businesses and local governments in Idaho, 
formed in 1993, unfortunately, for the specific purpose of 
defending Idaho's water from legal threats under the Endangered 
Species Act, so serious that they had come.
    We are pleased to count among our members in this area, 
Lewiston Orchards Irrigation District, the Lewiston-Clarkston 
Chamber and the Port of Lewiston.
    Mr. Chairman, the vast system of dams, reservoirs and 
canals built by the Bureau of Reclamation since the passage of 
the Reclamation Act in 1902 has truly made the desert bloom 
throughout the Pacific Northwest. In our three Pacific 
Northwest states, vast tracts of irrigated agriculture have 
contributed to our nation's economy, provided a steady and 
dependable supply of food and fiber, and helped create a way of 
life that defines who we are as a people. As originally 
expressed by an optimistic farmer who posted a sign on a desert 
ranch in the Boise Project before the first water delivered in 
the area, ``We still have faith in God and U.S. Reclamation.''
    These water projects provide many other benefits to our 
region. The livestock industry benefits from the water provided 
by Reclamation. Significant power is generated from its 
facilities, helping fuel our regional economy. Flood damage is 
prevented by Reclamation as well. And recreational 
opportunities are provided in the reservoirs and on our rivers 
because of Reclamation projects.
    I have provided the Subcommittee members with just a 
representative sample, brochures of six different Reclamation 
projects in the Pacific Northwest. Just these six projects in 
the three states provide over $5 billion in direct benefits to 
the Pacific Northwest. And this is not to speak of the 
agriculture and other sectors of our economy that are directly 
supported by the Reclamation projects.
    Mr. Chairman, as we sit here today, make no mistake about 
it. Our dams and our reservoirs, our managed river systems, and 
our entire way of life are under direct assault in the courts 
by extremist environmental groups. Most recently, a coalition 
of environmental groups has asked the Federal district court of 
Oregon to draw down reservoirs and drain others through flow 
augmentation in order to increase the velocity of the lower 
Snake and Columbia Rivers by 10 percent this summer.
    As a former staff member for Senator Craig, I sat in 
Lewiston and saw the test drawdown in 1992. It was an 
unmitigated disaster, wreaked havoc on the area, and did 
nothing for the salmon. We do not need to repeat that 
experiment.
    This motion threatens to wreak havoc on our region by 
crippling our river transportation system, our power system, 
taking badly needed water supplies away from farmers and 
ranchers, and even stealing water from our municipalities, 
resident fisheries, and local recreation by asking for an 
additional 10 percent on top of the projected flows for the 
summer.
    I might add here, Mr. Chairman, that Mother Nature has 
already outdone the environmental groups. Since the original 
motion was filed, the projections for summer flows have 
increased by 50 percent. It is time to withdraw the motion. It 
is pointless. All it will do is cause pain and suffering to the 
region.
    It is no secret that the environmental groups do not covet 
our water so much as they seek to impose pain upon every sector 
of this region until we all support the ultimate goal of these 
groups, which is removal of the dams. But as the Ninth Circuit 
Court of Appeals recognized recently, such a drastic step 
cannot be taken by the Federal agencies. It cannot be taken by 
any Federal judge. Only Congress can deauthorize the Federal 
dams and order their removal. But the environmental groups 
continue and will continue to do all they can to create a 
political constituency for their cause with their out-of-state 
grants and other monies.
    We are very proud of our Congressional delegation in Idaho 
standing strong against dam removal. And, frankly, if I have 
anything to do with it, I don't see this changing any time 
soon.
    Mr. Chairman, Senator Crapo a few months ago offered these 
folks a table, a table to negotiate and discuss these issues. 
But they chose the courtroom. And so there we are.
    Mr. Chairman, any solution to this set of problems needs to 
include a strong dose of common sense. And a good place to 
start is with the numbers of fish in the river system. 
Unfortunately, Judge Redden in issuing his decision did not 
look at the recent salmon numbers, instead choosing to rely on 
more questionable analyses.
    If you were to believe the environmental groups, the salmon 
are supposed to be extinct by 2017. Remember the extinction 
vortex? That doesn't look like a very good prediction right 
now.
    Mr. Chairman, I appreciate the opportunity to testify and 
look forward to answering your questions.
    [The prepared statement of Mr. Semanko follows:]

  Statement of Norm Semanko, Executive Director and General Counsel, 
                     Idaho Water Users Association

    Mr. Chairman and members of the Subcommittee, my name is Norm 
Semanko. I am the Executive Director and General Counsel for the Idaho 
Water Users Association (IWUA). I appreciate the invitation to testify 
before you today.
    Originally formed in 1938 as the Idaho Reclamation Association, 
IWUA is a non-profit corporation representing more than 300 irrigation 
districts, canal companies, water districts, ground water districts, 
public and municipal water providers, hydroelectric companies, 
aquaculture facilities, agribusinesses, professional firms and 
individuals, all dedicated to the wise and efficient use of our water 
resources. Our members deliver irrigation water to more than two-and-a-
half million acres in Idaho. Many of our members also rely upon the 
power and transportation benefits provided by the current river system.
    IWUA is affiliated with the National Water Resources Association, 
which I currently serve as President. I am also a member of the Western 
States Water Council, which advises the Western Governors' Association 
on water-related matters, and a member of the Advisory Committee for 
the Family Farm Alliance, a grass-roots organization representing 
farmers and ranchers that receive water from Bureau of Reclamation 
projects in the West. Finally, I represent the Coalition for Idaho 
Water, a broad-based collection of agricultural groups, businesses, 
local governments and others, formed to defend Idaho's water from legal 
threats posed by the Endangered Species Act (ESA).
    You have asked that I address my views on the value of the 
multiple-use Columbia/Snake River system, potential threats to it, and 
ways to balance economic needs and environmental protection within the 
region that depends on the system. I am pleased to do that.
The Value of the Multiple-Use Columbia/Snake River System
    The vast system of dams, reservoirs and canals built by the Bureau 
of Reclamation since the passage of the Reclamation Act in 1902 has 
truly made the desert bloom throughout the Pacific Northwest. In Idaho, 
Washington and Oregon, vast tracts of irrigated agriculture have 
contributed to our nation's economy, provided a steady and dependable 
supply of food and fiber, and helped create a way of life that helps 
define who we are as a people. As originally expressed by an optimistic 
farmer's sign posted on a desert ranch in the Boise Project before the 
first water deliveries were made to the area, we still ``have faith in 
God and U.S. Reclamation''.
    These water projects provide many other benefits to our region. The 
livestock industry benefits from the water provided by Reclamation. 
Significant power is generated by these facilities, helping fuel our 
regional economy. Flood damage is prevented by Reclamation projects, as 
well. Recreational opportunities are provided in the reservoirs and on 
our rivers because of Reclamation projects.
    For the benefit of the Subcommittee, I have provided copies of the 
``Story of'' several Reclamation projects on the Columbia/Snake River 
System, summarizing the project-by-project benefits in several areas of 
the region. The overall value of the Bureau projects to the region is 
overwhelming.
    Here are just some of the numbers.
    The annual value of the irrigated crops in the Minidoka, Palisades, 
and Boise Projects in Idaho is nearly $1.2 billion dollars. For the 
Columbia Basin Project in Washington, the annual crop value is $630 
million. It is $700 million in the Yakima Project in Washington and 
almost $100 million in the Owyhee Project in Oregon and Idaho. That's 
more than $2.5 billion per year of crop value in the region, in just 
those six Reclamation projects in Idaho, Washington and Oregon. There 
is another $1 billion annually in benefits from the livestock industry 
derived from these same projects.
    And the hydroelectric power benefits? Almost $1 billion per year; 
again, just for these six Reclamation projects. These aren't the U.S. 
Army Corps of Engineers dams on the Lower Snake and Columbia Rivers; 
just the Reclamation projects.
    The benefits to the public provided through flood control are 
likewise immense. Again, just for these six Reclamation projects, there 
is nearly $100 million per year prevented in flood damage in the 
region.
    Some would argue that these dams have crippled our ecosystems and 
decimated our fish runs. The facts just don't bear this out.
    The amount of water arriving at Lower Granite Dam each year from 
Idaho has remained virtually unchanged over the last century. Summer 
flows have actually increased because of regulated flows released from 
behind the dams.
    So what impacts do the dams have on fishing? It's no secret that 
flows in dam-controlled rivers are more stable and more predictable, 
providing superior fishing opportunities with long, sustained releases 
through the summer. As the outdoor reporter for the Idaho Statesman 
recently observed, ``Dam-controlled rivers are more predictable because 
dam operators can control the flows. If you plan to fish a river, those 
are a better bet than free-flowing rivers.'' ``Anglers: High water is 
everywhere'', Idaho Statesman, May 26, 2005.
    There is also more dependable water for rafting and other 
recreational pursuits because of the reservoirs and steady releases 
into the river during the summer period. For the six projects that I 
previously mentioned, there are more than six million recreation visits 
annually to the reservoirs and rivers that are regulated by 
Reclamation. The annual economic benefit is about $170 million.
Potential Threats to the System
    Make no mistake about it. As we sit here today, our dams and 
reservoirs, our managed river systems, and our entire way of life are 
under direct assault by extremist environmental groups.
    These groups have suggested that Reclamation reservoirs should be 
drained in a vain and pointless attempt to ``save'' the salmon. Most 
recently, a coalition of environmental groups has asked the federal 
district court in Oregon to draw down reservoirs and drain others 
through flow augmentation, in order to increase the velocity of the 
lower Snake and Columbia Rivers by ten percent this summer. A hearing 
on this request is scheduled for this Friday, June 10 in Portland, in 
the aftermath of the judge's May 26 decision striking down the 
biological opinion for the Federal Columbia River Power System (FCRPS) 
dams.
    This motion threatens to wreak havoc on our region by crippling our 
river transportation and power systems, taking badly needed water 
supplies away from farmers and ranchers, and even stealing water from 
our municipalities, resident fisheries, and local recreation. As a 
State and as a region, we cannot tolerate these kinds of devastating 
impacts this summer or ever.
    From a hydrologic standpoint, the motion is without merit and 
should be withdrawn immediately. At the time the motion was made in 
March, the summer flow projections at Lower Granite on the lower Snake 
River were at 46% of normal. Today, the updated summer flow projections 
are at 70% of normal. The bottom line: the flow at Lower Granite is 
projected to be at least 50% higher than it was at the time the motion 
was made. In short, the dire, low water conditions that led to the 
filing of the motion have improved. Mother Nature has more than granted 
the requested relief of 10% already.
    It is no secret that the environmental groups do not covet our 
water so much as they seek to impose pain upon every sector of the 
region until we all support the ultimate goal of these radical groups 
removal of the dams. As the Ninth Circuit Court of Appeals recognized 
recently, such a drastic step cannot be taken by the federal agencies, 
nor can it be ordered by any federal judge. Only Congress can 
deauthorize the federal dams and order their removal. The environmental 
groups continue to do all they can to create a political constituency 
for their cause.
    In a separate lawsuit, several of the same environmental groups 
have directly challenged the continued operation of the Bureau of 
Reclamation projects in the Upper Snake River Basin, above Hells 
Canyon. This includes the Minidoka, Palisades and Boise Projects in 
Idaho, the Owyhee Project in Oregon and Idaho, and several others, with 
a total active storage capacity of more than seven million acre-feet of 
water. If recognized by the court, the environmentalists' misguided 
claims could have resulted in the denial of water for Idaho citizens, 
for the purpose of meeting in-river flow objectives for the salmon that 
cannot possibly be justified. Since the action was filed, a new 
biological opinion has been issued for the projects, rendering the 
motions of the environmental groups moot. Nonetheless, the threat 
continues to hang over Idaho and Oregon farmers, ranchers, businesses 
and communities.
    As if that is not enough, environmental groups have also targeted 
the three hydroelectric dams in Hells Canyon, owned and operated by 
Idaho Power Company and licensed by the Federal Energy Regulatory 
Commission (FERC). As part of the current relicensing process, they 
have asked FERC to order Idaho Power to study decommissioning, or 
removal, of the dams in order to ``Restore the Canyon''. These dams 
supply over 75% of the hydroelectric power generated by Idaho Power, 
upon which Idaho businesses, irrigators and the general public rely for 
a firm supply of power. Obviously, it is ludicrous to talk about 
removing these dams. Yet, we expect a full-blown battle in front of 
FERC on this question.
    The same groups have also proposed passage and reintroduction of 
salmon protected under the Endangered Species Act, into the Snake River 
and its tributaries above Hells Canyon. Comparable estimates of the 
impacts that this would cause to farmers and ranchers in the Upper 
Snake River Basin, in order to comply with the ESA and other federal 
laws, are in the $600 per acre range. The actual costs are likely to be 
much higher. These impacts would also be felt by businesses and 
municipalities. There would be direct and substantial impacts on the 
continued operation of the Reclamation projects in Idaho and Oregon. 
The existing biological opinion for our projects would likely be thrown 
out in order to evaluate the impacts of the projects on the listed fish 
transplanted into our area. We cannot withstand this kind of hit. 
Again, this argument is likely to play itself out in front of FERC.
    In addition to the water projects in southern and eastern Idaho, 
the FCRPS litigation likewise threatens water levels in locally 
important waters such as Dworshak Reservoir, Cascade Lake, and Lake 
Pend Oreille.
Balancing Economic Needs and Environmental Protection
    Any solution to the current set of problems in the Columbia/Snake 
River system needs to include a strong dose of common sense. A good 
place to start is with the actual number of fish in the river system.
    Over the past several years, salmon and steelhead numbers are up--
significantly. You would think that this would be good news to the 
environmental community. Instead, they refuse to acknowledge the 
increased runs, choosing to characterize them as some kind of short-
term spike that will soon return to the ``extinction vortex'' that they 
once so boldly predicted would end with the salmon's demise by 2017. 
Needless to say, that prediction is not looking too good these days.
    The federal government has refused to include healthy, returning 
populations of hatchery fish in their counts of salmon abundance. 
Despite a successful lawsuit in federal district court, recognizing 
that genetically identical salmon that swim side-by-side must be 
treated the same under the ESA, the shell game continues. On the one 
hand, the federal government says that the fish are threatened and 
endangered, even when considering hatchery populations. On the other 
hand, they say that there is a ``surplus'' of fish and that it is 
permissible to harvest them.
    As a result of these failures, another lawsuit is likely to be 
filed in the near future, challenging the federal government's 
continued failure to comply with the law. IWUA and the Coalition for 
Idaho Water will both be parties to that lawsuit; I will proudly carry 
the banner as co-counsel with the Pacific Legal Foundation, the non-
profit public interest law firm that successfully prosecuted the 
previous hatchery lawsuit.
    By counting the hatchery fish, as well as the non-ocean going fish 
that are also genetically identical to the anadromous fish, we should 
be able to distinguish between those stocks that are actually in 
trouble and those that have suffered from an impermissibly artificial 
distinction between so-called ``natural'' and ``unnatural'' fish.
    Recognition of the increased fish runs and inclusion of hatchery 
fish should eventually result in delisting of at least some of these 
stocks, and an increased ability to harvest them. It should also serve 
to remove some of the restrictions that exist in many sectors of our 
region under the ESA.
    This can be done without removing the dams and without draining 
Idaho and other areas of our region.
    Another needed and long overdue step is to improve and modernize 
the ESA. Many good ideas exist for making the Act better and are under 
active consideration, not just by Congress, but by many stakeholders 
and other interested groups. I applaud the House Resources Committee 
for the leadership that it has provided on this issue and look forward 
to favorable consideration of legislation by Congress to amend the ESA 
in the near future so that it can work better for the benefit of all 
Idahoans.
    By taking some common sense steps, and looking at all of the facts, 
we can preserve the tremendous benefits of the Columbia/Snake River 
system, as a working river, while also enjoying continued salmon and 
steelhead returns for generations to come.
    Mr. Chairman and members of the Subcommittee, thank you once again 
for the opportunity to testify.
    NOTE: The following brochures submitted for the record by Mr. 
Semanko have been retained in the Committee's official files:n
    <bullet>  The Story of the Minidoka Project, Idaho-Wyoming;
    <bullet>  Palisades Project, Idaho-Wyoming;
    <bullet>  Boise Project, Idaho-Oregon;
    <bullet>  Owyhee Project, Oregon-Idaho;
    <bullet>  Columbia Basin Project, Washington; and
    <bullet>  Yakima Project, Washington
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Semanko. For the record, 
too, I----
    [applause.]
    I need to remind folks in the audience that this isn't a--
this isn't that type of public hearing. And, again, what we're 
trying to do is take into the public record all of the 
information so that we can get a good solution to this problem; 
the applause in the audience doesn't help. So if you can work 
with us to try to get through this, we'll make sure that we can 
get the best results out of this hearing.
    For the record, it was Mr. Bruce Babbitt from Latham and 
Miller was invited but is not here today, just for the record.
    I would like to now recognize for questioning. At this 
point we are opening up to the dais up here questions for the 
people who are testifying. And I'm going to defer to Ms. 
McMorris to begin that questioning.
    Ms. McMorris. Thank you, Mr. Chairman.
    Excellent testimony. I wanted to start by asking each one 
of you--just briefly, if you would like to comment--but to 
specifically comment on the most recent decision made by Judge 
Redden and how you see it impacting the river. Whether it 
comes--you know, the barging, the potential (inaudible) just 
from what you know related to that decision.
    Mr. Ott. Thank you, Cathy.
    From the County Commissioners' viewpoint, an interesting 
concept has been surfacing. And that's the concept of 
uncertainty for people involved in production activity when a--
a significant decision like this is brought out. Many people 
who are trying to capitalize.
    Their--either their production or capitalize some 
investment in equipment are finding it difficult to obtain 
loans of long-term significance because the lending 
institutions themselves do not have certainty of what's going 
to happen to this river system.
    And so we're beginning to see some economic impacts of that 
based on instead of a 10- or 15-year loan, we'll give you a 
two-year loan or a three-year loan, until we see what happens 
on these rivers. So we're going to see four, five and ten years 
from now the effects from this, lost production, perhaps people 
losing jobs. Perhaps we're going to see other businesses going 
elsewhere to find a more stable economy or more stable 
certainty of being able to capitalize a business.
    Mr. Lewis. Thank you, Ms. McMorris.
    My name is Virgil Lewis. And there was a segment in my 
testimony that I did not--was not able to read due to time 
constraints. It's in regard to the BiOp that Judge Redden ruled 
on. And in our opinion, if there were a 10-percent increase in 
velocity, then by doing this we can achieve a 300-percent 
survival increase in this stock. And a 300-percent increase in 
salmon production and also survival of the juveniles outflowing 
out into the ocean, once they return, the economic benefit 
would be very large indeed.
    In regards to the barging industry itself, I have not had 
the opportunity to actually take a look at what the barging 
impacts would be. I'm looking at it strictly from a Tribal 
Council standpoint. And from our point of view, working 
together with the hatcheries, specifically working with the 
wild hatcheries, working with the wild salmon to supplement--
supplement the wild runs by taking wild fish into the hatchery 
and raising that fish and releasing it and hoping that those 
fish will come back, not specifically to the hatchery but to 
different parts of the region.
    The Cle Elum Hatchery is very similar to the Nez Perce 
Tribal Hatchery in that we take wild salmon every year into our 
facility. And we raise those salmon to a certain age, and we 
release them at different locations on the Yakima River system. 
This has proven to be very successful. It has worked 
tremendously. We have a spring chinook salmon fishing season on 
the Yakima River system. There has not been one for 30 years. 
It has proven very successful for us.
    Thank you.
    Ms. Miles. Thank you, Ms. McMorris. Mr. Chairman, thank 
you.
    I strongly agree with Mr. Lewis's comments. I also, I 
guess, want to make two points, when you specifically asked 
regarding Judge Redden's ruling. For the Nez Perce Tribe, there 
are two overall general things that helped validate the Nez 
Perce Tribes, not just our--it's not just a personal belief, I 
guess I wanted to state. But it requires requirements in ESA, 
the recovery of wild salmon--wild salmon and steelhead, not 
just preventing. And that's validated what we've been stating 
and our science has been stating all along.
    Also, the impacts of Columbia and Snake River dams can't be 
ignored. These dams kill more than 80 percent of Idaho's 
migrating salmon and steelhead.
    And I just wanted to make those two points because for a 
long time--and I'm seven generations from Old Lookingglass. The 
one I mentioned in my testimony. And it's often viewed that we 
forget many times over these generations that the new 
generation will forget. And I just want to reassure and in this 
testimony that we have not forgotten what our leader stood for. 
And that those--that ruling validated finally our belief what--
which even was labeled here as almost like a personal belief.
    Thank you.
    Mr. Alldredge. The only comment that I would like to make--
and thank you for bringing this up--is that Judge Redden's 
decision provided the opportunity for the plaintiffs to ask for 
another hearing. And on Friday of this week there will actually 
be another hearing regarding the--a preliminary injunction 
proposed by the plaintiffs to change immediately the operations 
of the river, and including the river that you can see just 
outside of this hotel.
    And part of that--the proposal is to lower the lower 
Granite pool 10 feet below minimum operating pool.
    Which effectively immediately eliminates all commercial 
navigation upon the--in the lower Granite pool. It eliminates 
the movement of grain. It eliminates the movement of 
containers. It eliminates the arrival of cruise ships bringing 
those 15,000 tourists to our area every year.
    We are very, very concerned about this. And we hope that 
Judge Redden does not allow the actions proposed by the 
plaintiffs.
    Mr. Appel. Thank you, Congresswoman, for the question.
    I would like to just add my support to what Commissioner 
Ott had to say. The uncertainty that rulings like this create, 
really causes me a great deal of concern.
    You know, we've spent a lot of years, a lot of time talking 
about the issue, talking about what it takes to recover the 
salmon. We start making plans down that road, and then suddenly 
you throw everything out, and we start all over again with the 
arguments and the issues.
    In terms of a judge making these kinds of decisions, that 
concerns me also. You know, after all, we've had a lot of--a 
lot of science that has been looked at. We've had the Corps of 
Engineers and National Marine Fisheries studying this issue all 
this time. They came out with their recommendation, and the 
judge on his own decided to throw that out.
    I would urge you to take the look at the declaration that 
is attached to my written testimony. It's a declaration by Dr. 
James Anderson, Research Associate Professor in the School of 
Aquatic and Fishery Sciences at the University of Washington. 
This was made in support of the BiOp. And I would urge you to 
take a look at that.
    Mr. Benson. Mr. Chairman and Representative McMorris, it 
concerns me a lot, frankly, that we're in a place where a judge 
is making these kinds of decisions and over the work that's 
been done by the agencies that we have in place to make the 
decisions that agencies I believe should make.
    That said, though, I would like to call your attention to 
the pictures on the wall behind you, which are pictures of the 
1992 drawdown. And you can see those, either from where you are 
or later when you get up, that that particular experiment 
wreaked havoc up and down the reservoir system.
    And I hope that that's not where we're headed again.
    As you know, on the 10th of this month, the judge will hear 
additional comments about the possibility of drawdown. And I 
would ask that you would take great consideration and be as 
concerned as I am about what might be coming in the way of 
drawdowns because of the judge's decision.
    Ms. Ryckman. I think it's important to note that Judge 
Redden did not question the science behind the BiOp in his 
decision or the proposed actions. His ruling was focused on 
legal technicalities, on whether it met legal requirements.
    One example is that he found the government had improperly 
segregated the operation of the dams from the existence of the 
dams in the analysis on--I think he also segregated the fishing 
impact. So this is not a scientific decision this time by Judge 
Redden.
    And as of Friday, I understand the Federal Government had 
not decided whether or not it would appeal. And so I expect 
that the seven programs that are underway will continue as 
planned right now.
    Having said that, as you heard that on Friday, Judge Redden 
will hear oral arguments on a request from the plaintiffs. And 
they are--it must be my magnetic personality; do you think?
    [Laughter.]
    Ms. Ryckman. The plaintiffs are asking for more spill, less 
transport and additional drafts. The expected cost of that 
would be a $102 million tax imposed on Bonneville ratepayers.
    Mr. Semanko. Ms. McMorris, there were two different motions 
that were filed early this spring in Judge Redden's court by 
the environmental groups. And I should say that Judge Redden is 
(unintelligible) senior activist judge--or I'm sorry--senior 
active judge, and he has a sympathetic ear for the 
environmental groups. He famously now, a year or so ago, said 
he didn't want to preside over the last salmon being caught in 
the river. I think we're quite a ways away from that. But I 
think it indicates kind of where he's headed.
    Two motions. One was a motion for summary judgment as to 
whether the Biological Opinion's any good or not. And that's 
what he ruled on on May 26. He said I don't think this opinion 
is very good. And for reasons that we don't have time to get 
into today, I think the chances of that being reversed on 
appeal are very good.
    He did not--I think he went out of his way to instead of 
looking at whether it's an adequate Biological Opinion, good 
enough. He's looking for the best possible Biological Opinion 
from his perspective. And that is not the standard by which a 
Court should be looking at these issues on the Administrative 
Procedures Act.
    The second motion, of course, is the motion that's going to 
be heard on Friday. And that's a motion for injunctive relief. 
And usually a motion for injunctive relief is reserved for when 
something's got to change right now, and you can't wait for a 
final decision by a Court.
    And again, when that motion was filed, the river flows were 
substantially low. They are still low as Representative Otter 
has mentioned. But there has been already a 50-percent increase 
in the projection. Now, this projection is for the period from 
June 21st to August 31st. That's the summer flow period. Back 
in March the projection for that period was 46 percent of 
normal.
    Right now as we sit here today, the projection is 70 
percent of normal. Still low but certainly not meriting the 
kind of relief that the environmental groups are requesting. 
So, again, that's why we would hope that that motion would be 
filed. Mother Nature has, in essence, mooted that injunction 
motion in our view.
    Ms. Hamilton. May I make a brief comment?
    Mr. Radanovich. Oh, I'm sorry. Yes.
    Ms. Hamilton. Congresswoman and Chairman, I appreciate the 
opportunity to answer this question as well.
    Not being a lawyer, I can't get my arms around all the 
technical terms like segmentation and that sort of thing.
    The thing that the judge said that we rejoiced over was our 
agreement that the plan did not model out for recovery. The 
plan slowed the rate of extinction, which wasn't acceptable to 
the people in the jobs that I represent.
    So all the rest of the legal technicalities were over my 
head. But that point was clear to us that the judge said that 
the plan had to be leading in the right direction, not leading 
in the wrong direction for fish.
    And folks here are right. We've had some rain. But 
unfortunately we prefer not to be the ``pray for rain'' 
industry. And that's the place we've been with the current 
management of the system. If God or Mother Nature gives us 
plenty of rain, then the fish do better. And you can look at 
the historical records on this. When we have the flows and 
spills, we get fabulous adult returns.
    When you look at '01, the year that everyone said mission 
accomplished on these fish, they went out on great flows with 
spill. When you look at '05, it's almost the reverse 
conditions, that those fish went to the ocean and the ones that 
are not coming back today.
    I appreciate the comments about certainty as well. I work 
for an industry that has all the sectors other industries have. 
We manufacture, we wholesale, we distribute, we retail, plus 
the hospitality part of our industry. And we need to plan as 
well.
    And a hot river hurts us triple, not just single. So we 
have harm done to the babies in the river when it's hot. We 
have harm done to the adults that are in the river. And the 
other thing is that you can have a river full of fish, and if 
it's hot they don't bite because they're so stressed. So they'd 
jump in the boat before they'd fish. So we lose our industry 
when we don't have a river that's working for fish.
    Ms. McMorris. Thank you.
    Mr. Hastings. I have to say that I thought the testimony 
that I heard from everybody was very good testimony. And I have 
had--I guess it's a privilege to attend several of these type 
of hearings or rallies, you know, the rallies that are outside 
the hearings, regarding this issue many times.
    And it is interesting, from what I heard today, is what I 
had not heard or I--what I didn't hear today is what I had 
heard in the past, which I think is significant and perhaps it 
means that we are making progress on this. And let me just 
point out one area in that regard.
    Most of the testimony here--I think all of the testimony 
here is pretty much that, you know, because of the development 
here, we have the dams. And with the exception, in fact, in Ms. 
Hamilton's testimony that she didn't say orally, she says that 
those serious people are in favor of removing any of the dams 
except the Snake River dams.
    But what was not mentioned--and I mentioned this in my 
opening remark and others here had mentioned this--that it's 
not an either-or situation. And I point out to you this. In my 
district, which is through central Washington, I have 1, 2, 3, 
4, 5, 6, 7, 8, 9, 10 dams that are--starting with Grand Coulee 
Dam on down through the big Columbia and through the Dalles Dam 
that are in my district or part of my district.
    Part of those dams came to an agreement, if you will, that 
I thought was very significant. And that is the mid-Columbia 
dams--or three of the mid-Columbia dams in central Washington 
came to a habitat conservation plan that called for no net loss 
through those dams. Now, that was a very significant 
achievement. Took about seven or eight years to do that. I just 
want to point out that there is a way we get through this if we 
work at it.
    And I want to--also want to compliment Mr. Lewis for his 
coming back the second time and talking about the hatchery 
program. Because there are advocates--and I will put them, 
frankly, on the extreme side--that say that it has to be wild 
fish only. And we shouldn't even consider the idea of anything 
having to do with hatchery. I've been to the Cle Elum Hatchery, 
and I think that, from some of the other hatcheries I've seen, 
is certainly more of the state of art, I think, to the credit 
of the Yakamas. And so if we can look at that and get rid of--
get outside of this idea that it only has to be wild and let's 
put in everything together, I think we can find common ground.
    But I--I would also make this observation. Because I 
remember the great debate in 2000, specifically, in the 2000 
Presidential election, talking about removing the dams on the 
Snake River. And I recall--somebody told me because I don't 
subscribe to this newspaper that I'm talking about.
    But I understand that the New York Times for four or five 
days ran full-page ads on removing the dams on the Snake River. 
To which I wonder, how many people out here subscribe to the 
New York Times and would be impacted by their advertising of 
taking out the dams?
    I just think that's a lot of the--there are some. I don't 
think you're the audience that you're being reached, though, in 
my view.
    It just tells me that--which was said, I think, by several 
of the people who gave testimony today, that a lot of this is 
outside--I would say outside agitation, and maybe the 
``agitation'' is too far. But they certainly have a different 
agenda than those of us that live here.
    So I--I just wanted to make those points. And there is just 
one question that I would like to pose, I guess, if anybody 
would want to answer it, in the very brief time that I have. Is 
that if the idea is to return fish and particularly try to 
recover endangered fish, then why do we harvest those fish that 
are in danger.
    I think it's a very legitimate question that needs to be 
responded to. If anybody on the panel would like to respond to 
that, I would like to hear it.
    Ms. Hamilton. I'm going to defer to him first.
    Mr. Lewis. Mr. Chairman, members of the committee, my name 
is Virgil Lewis, Sr.
    The justification for the Yakama Nation in regards to 
harvest goes back centuries, I guess you could say. Our attempt 
at the Cle Elum Hatchery is an attempt to rebuild the wild 
stocks. We take wild salmon into our hatchery, and we raise 
those juveniles. And it takes us about, oh, a year and a half 
before they're actually released back into the mainstem Yakima 
River and then out into the Columbia River.
    Now, those fish, when they come back, they're not wild 
fish, but they come back to an area where they spawn naturally. 
And our attempt is to get those hatchery fish that we reared as 
wild fish. Their parents were wild. So our attempt is to get 
those fish back into the system so that their--their progeny 
will go out into the system and come back and return as wild 
fish. That is our attempt. Supplementation, if you will. And 
that's the term that we use.
    Every year--we continually use wild fish. We don't take 
hatchery fish into our hatchery. We take wild fish.
    The reason that the Yakama Nation members harvest salmon--
it's not specifically targeting wild fish. The Yakama Nation 
will harvest whatever is available. Our harvest--our harvesting 
has been constrained, as I mentioned, 30 years, 20 years. 
Recently because the Yakama Nation has rebuilt--helped rebuild 
the spring chinook salmon, we have just recently started 
harvesting spring chinook salmon in Zone 6.
    Now, the fishermen below the Bonneville Dam, they are able 
to harvest salmon before they get--before we do, before they 
pass Bonneville Dam. But the reason that we--we want to harvest 
fish, any fish, so that we can provide for our families.
    Mr. Hastings, as you may be aware, Yakama Nation is 
comprised of almost 10,000 members. And of that, I would say 75 
to 80 percent of those individuals are fishermen. The other 20 
percent, because there hasn't been that many fish to harvest, 
they're--the children are growing up to be adults now. And 
they're seeking jobs doing other things. But we still have that 
tradition on the Columbia River that we honor the first fish 
that comes back. And many politicians, elected officials, have 
been to Celilo to the first salmon ceremony that we hold every 
year.
    If we can have any way of rebuilding the wild fish in any 
fashion, that is our ultimate goal is to rebuild those fish, 
wherever they may be.
    Mr. Hastings. I would just like to make an observation to 
follow up. Because while I--I applaud you for your work on the 
hatchery fish--I think that's exactly where we ought to be 
going on this. But we probably are splitting hairs. Because the 
question is: What is a hatchery fish.
    Do you take wild--I mean, by definition--at least the 
definition that others have talked to me about, wild fish are 
left wholly within the rivers and are not touched by outside 
support in order to spawn. You by definition say you take 
outside--you take wild fish and put them in a hatchery.
    Now, this--I'm not going to--we're probably arguing a small 
point here. But I think it is, in fact, very, very significant.
    Second, I would just concede your point. Because of the 
treaties, you may have a larger call on the harvesting, whether 
they're endangered or not. I would concede that. You'd probably 
have a better case on that than somebody--somebody else. Even 
though we are--all live under the laws of the United States.
    Do you want to say something?
    Ms. Miles. Thank you, Mr. Chairman.
    And I mean no disrespect, but I feel very frustrated after 
many, many years having to justify our right to harvest fish. 
On behalf of the Nez Perce Tribe, I'd like to, first and 
foremost, point out that we are not an interest group.
    We are a sovereign nation that has a legal right.
    And I can't imagine and I can't get into the minds of my 
leaders that we would be down here seven generations now having 
to justify the millions and millions and millions of acres they 
gave up and the lives that were lost for our very right to 
harvest fish. And it is the Nez Perce Tribe and other treaty 
tribes that are the lead in restoring what was our own right. 
What was reserved for us. It wasn't given to us by anybody.
    And that validity in Judge Redden's ruling, in my personal 
belief, finally said that the tribes--the tribes have sustained 
this way of life for thousands of years. And we truly believe 
that that was by no mistake. It's not a mistake to our people. 
But I guess I feel a little on the defensive after all these 
years and as somebody as young as myself, the frustration the 
tribes go through all the time of having to justify our 
harvest. That--our harvest and our way of life has sustained us 
for thousands of years.
    By not having our traditional foods, Mr. Hastings, it has 
severely damaged our health, health disparities in our nations. 
Our economies--our very freedom that we talk about in this 
country was never given to our people. That freedom that we use 
very loosely in this country, that freedom is not given to 
everybody. And I just want to make that point.
    I can't be more passionate about how much I am going to 
fight for that freedom to choose our way of life. The freedom 
that our leaders--that our leaders when they gave up millions 
of acres they said that we would have.
    Thank you.
    Mr. Hastings. Yes, I appreciate that. I wasn't going to 
infer you shouldn't have the right to harvest at all. I don't 
want you to take that inference away.
    My question was specifically on endangered--fish that are 
listed as endangered species. That's--that was my point. And 
perhaps you have a--you know, I think you have an observation 
whether others should be able to harvest endangered fish, given 
the concession that you feel so strongly about the right to 
harvest. What about others harvesting endangered fish?
    Ms. Miles. I guess just more specifically to answer your 
question. The tribes have governed themselves. We govern our 
own fishermen. We put on our own regulations. Higher demands 
than anybody outside of the tribe. When--and those hurt our 
fisheries. When we don't have enough fish, we--we have govern 
ourselves and say so. And we do so. We are not asked to do so. 
We govern ourselves the way we have--the way we always have.
    So I guess more specifically to answer your question, we 
watch those runs as closes as anybody.
    Thank you.
    Mr. Lewis. Mr. Hastings, I just want to make one more 
comment.
    Rebecca brings out something that is very important. Once 
the tribes reach a certain point and impact on the wild fish, 
then we have to stop fishing. And we do that. We do that 
voluntarily.
    We make sure that our fishermen are accounted--everything 
that they catch is accounted for. So that once we reach a 
certain impact, say, for instance, on the Snake River 
steelhead--yes, they're listed steelhead. Once we reach that 
impact, then we stop fishing. Regardless if there's fish still 
in the river.
    Ms. Hamilton. I appreciate the opportunity to answer this 
question. Sport fisheries in particular. And I'm just going to 
use non-treaty and lump it together. That's all the fisheries 
that are below Bonneville. And I'll send you the data on this. 
But we'll pick two fisheries that are very, very big to us; 
steelhead and spring salmon.
    And in those two fisheries, the--all the sport and 
commercial harvest in the river pass 98 out of every 100 to 
spawning bed the wild fish. Those fisheries are managed to stay 
under 2 percent.
    Now, if you take a step back from there, every single 
listed stock that heads for the Snake, if you add up ocean 
sport, commercial, tribal and in river sport, commercial, 
tribal fisheries, none of that harvest for every single listed 
fish, with the exception of one, matches the harvest of hydro.
    So our--we--we feel like we're the constrained. We're the 
ones that are constrained. Our fisheries are deeply, deeply 
constrained. And they're managed so carefully that this year 
when the--when the spring chinook fishery crashed and came in 
in a third of what we expected, we still met that 1 percent the 
sportfishing community gets on wild fish.
    Now, we don't keep them. The 1 percent is calculated on 
catch and release.
    Mr. Semanko. Mr. Chairman, a great question.
    The way I intend to look at it, Representative Hastings, is 
if the listing petitions were filed today instead of 15 years 
ago and the government looked at the genetically identical 
hatchery fish and the genetically identical non-oceangoing 
fish, would the government list the fish today.
    I think that's a legitimate question asked. Because legally 
they have not done it correctly. We've had at least one Federal 
district court and the Ninth Circuit uphold that saying they 
haven't been counted correctly.
    But unfortunately the government still hasn't got it quite 
right. They're going to finalize their new decision and their 
new policy here later this spring. And there will be a new 
lawsuit. The government will be made to count the fish 
correctly. And when they do, when they count the fish 
correctly, I'm going to be proud to be a co-counsel with 
Pacific Legal Foundation when we bring that case on behalf of 
citizens in four different states.
    We will find out which stocks are really in trouble and 
need to be protected and those that have been merely 
impermissibly, artificially distinctioned out between so-called 
natural fish and unnatural fish.
    If we recognize the increased fish runs by including the 
hatchery fish and also the non-oceangoing fish--which, last I 
checked they were real fish--there should be an increased 
ability to harvest those fish. And we all are in favor of 
fishing. It should also serve to restructure our region ESA.
    It is absolutely ridiculous that a farmer in central Idaho 
who might impact the salmon or bull trout some day made not to 
be able to divert his water and has to buy hay for the last 
four years because it might impact some fish that might be 
endangered while we continue to harvest them. That makes no 
sense.
    I'm not pointing fingers; just showing how ridiculous the 
situation is now. And this can be done without removing the 
dams and without draining Idaho and other areas of our region. 
Unfortunately it's going to require additional litigation. And 
you're going to see it this summer, I believe.
    Mr. Hastings. Thank you.
    Mr. Ott. Thank you, Representative Hastings.
    Something that's missing on this I think that we need to 
get into the record is the fact that we're looking at a very 
tightly focused area. And the salmon throughout the Pacific 
Arch are harvested, not only by the issues that we're talking 
about here today--and I was just speaking with Mr. Lewis here.
    What's the effect of the worldwide take on the salmon 
population?
    Here we have listed endangered species, but what do we know 
about Japan or Russia and the amount of take they have had? Are 
they abiding by the international treaties.
    And I believe we only need to look to the eastern side of 
the country where they have the cod fishing restraints placed 
on for a period of five years due to overfishing.
    Second, we haven't even addressed the fact that we've got a 
huge take by natural predation out of the mouth of the 
Columbia. Not even being addressed, and that's a huge effect 
upon the salmon populations. Where we have other species being 
protected who are predating upon the other protected species. 
And so we have consequently stuck ourselves in the middle of a 
natural balance, and I think we've probably done more damage 
than good on that.
    So if we want to recover the salmon, I would suggest 
perhaps we send those (unintelligible) elsewhere and send those 
sea lions elsewhere and see what happens to those populations 
then and give them a chance to recover.
    Mr. Radanovich. Thank you. I have a couple of questions.
    It was mentioned--the economic benefit of--if the dams were 
removed, the economic increase or the viability of the salmon 
industry--the fishing industry as a result of that.
    And if I get, Ms. Hamilton, the number I heard--either a 
half billion or 3 billion would be the potential economic 
benefit to a restored fishery--if I could say it that way. Am I 
correct on that? Or which number is correct.
    Ms. Hamilton. A half a billion was a figure that would 
benefit the State of Idaho. 3 billion as a region.
    Mr. Radanovich. Can I get a sense of what would be lost by 
the dam removals to the economy? Is there a--I'm trying to 
assess----
    Ms. Hamilton. You know, I think that's a great question and 
an important question. But the problem is that we really have 
never had the chance to look at it because that option has not 
been on the table for study.
    Our folks are not about dam breaching. We're about salmon 
recovery and we're about what works and what's cheapest. Now, 
I'm going to tell you that the folks that I work for that have 
looked at this issue actually think the dam removal is the 
cheapest way.
    But if we--if we're going to have an honest----
    Mr. Radanovich. If I can--what I'd like to do is get a 
sense of what would the economic loss be to try to balance out 
that number if the dams were removed.
    And if you could answer it, that would be fine.
    Otherwise if somebody else can answer that, I would 
appreciate it.
    Ms. Hamilton. Well, two points, quickly. And one is that 
I--I do think that we need to look at this. This is exactly the 
sort of question that this region needs to ask is what would it 
cost. And second, I guarantee you it will be cheaper than doing 
the wrong thing.
    Mr. Radanovich. Thank you.
    Can someone answer that question for me? Has there been a 
study that said what would be the economic benefit if the dams 
were removed to the non-fishing economy of the area?
    Ms. Hamilton. Are you talking construction jobs and tourism 
and that sort of thing?
    Mr. Radanovich. You mean nobody has studied the economic 
impact to this area if the dams were removed? Is that the 
answer to that?
    Ms. Hamilton. We need to get you those numbers.
    Mr. Semanko. Mr. Chairman, I think everyone is hesitating 
because no one has a--up here probably has a comprehensive, 
absolute number for you.
    I can tell you that the trade--and our friends from the 
ports might elaborate on this--$15 billion trade industry that 
we have right now out of the ports in the Pacific Northwest. 
That would be obviously jeopardized.
    On the power side, you lose 5 percent of the power grid, 
enough to fuel Montana or the city of Seattle. Some say that's 
insignificant and it can be replaced. The last I heard, it was 
a coal train a mile or two miles long every day, in terms of 
coal fire power plant generation to replace that.
    So there are costs besides economic costs. Environmental 
costs, et cetera.
    In terms of irrigated agriculture, I don't think anyone 
knows for sure what the impacts would be. My favorite line from 
my friends in the environmental community is that if we remove 
those four dams--that only 4 of the 26 species go through, by 
the way--we won't need Idaho water anymore.
    Well, there's still a flow target in (unintelligible). 
There's still 18 other species. So the demands for Idaho water 
will continue no doubt in the future as well. And that has a 
direct impact on 7 million acres--or a 7-million acre feed of 
active storage capacity above Hells Canyon and the millions of 
acres of irrigated land up there.
    But others on the panel may have specific numbers in their 
sectors.
    Ms. Ryckman. Mr. Chairman, we'll be happy to get those 
numbers to you. I don't have those at my fingertips.
    There has been a study done just specifically on impacts to 
the irrigation community and different of those aspects.
    So we'll get that information to you.
    Mr. Radanovich. And I just got to think that having that 
number would be really valuable to the debate here.
    Ms. Ryckman. We'll make sure you get it.
    Mr. Benson. Mr. Chairman, I believe that the Corps or EIS 
does include a lengthy study and that that study uses a number 
of around $300 million as the net benefit to leaving the dams 
in place. Annually.
    Mr. Radanovich. Annually.
    We're done then. The other question that I have--and maybe 
Ms. Ryckman can answer it for me. What is the--I heard--Mr. 
Semanko mentioned a loss of 5 percent electricity to the grid. 
How does that--where is it thought that the replacement might 
be to that energy loss?
    Ms. Ryckman. Well, it's kind of interesting. It depends on 
who you ask.
    There are people who will tell you that we can gain that 
much through conservation efforts. We're talking about 1200 
megawatts, approximately, of electricity. Franklin PUD has been 
aggressively pursuing conservation for 20 years. We have 
managed to achieve one average megawatt in that 20 years. We're 
not stopping. We're continuing to be aggressive and we're 
finding new ways. But you can see what a huge, huge obstacle 
that would be.
    Also, I mentioned that hydro helps to firm our wind. We do 
have wind energy that is being installed because it's a great 
clean, renewable resource. But the reason that it is so viable 
in our region is because we have the hydropower to back it up. 
So our wind projects would not be nearly so viable without 
hydro.
    Mr. Radanovich. Do you have a sense of the area that might 
be affected by that 5 percent loss and how that might translate 
into rate increases for those users?
    Ms. Ryckman. The entire region would be affected because 
it----
    Mr. Radanovich. The region meaning----
    Ms. Ryckman. The four-state area; Washington, Idaho, 
Oregon, Montana.
    Mr. Radanovich. OK. All right. Thank you.
    Ms. Ryckman. Because, you know, those are operated by the 
Corps (unintelligible) Bonneville Power Administration, and 
most of us buy our power from them.
    To replace it--right now, Franklin PUD has recently built a 
combustion turbine plant. And the market has to be at about $75 
per megawatt in order for that to be viable. So you're talking 
about a resource that's about 31 mills compared to one that 
would be about 75 mills. That would have a huge impact on 
rates. And our rates have already increased about 50 percent in 
the last few years.
    Mr. Radanovich. Thank you.
    Mr. Semanko. And, Mr. Chairman, before we get too excited, 
I was placing 5 percent of BPA's grid. American Rivers and 
Idaho Rivers United are among the groups that are involved in 
the dam removal at the lower Snake have filed petitions with 
the Federal Energy Regulatory Commission asking them to study 
decommissioning or removal of the three dams in Hells Canyon 
that provide 75 percent of Idaho power companies' power for 
Idaho and southern--northern Nevada.
    Mr. Radanovich. Thank you. Anybody else?
    Ms. Ryckman. There are also the dams of the mid-Columbia. 
Chelan, Grant and Douglas PUDs operate dams also that are not 
included in that 5 percent.
    Mr. Radanovich. All right. Thank you very much.
    Mr. Otter.
    I21Mr. Otter. Thank you, Mr. Chairman. I know you're going 
to have to leave in order to catch that flight out of town. But 
I appreciate very much your leadership, and I appreciate you 
being here. Thank you.
    Mr. Radanovich. Sorry to have to leave, but thank you very 
much.
    Mr. Otter. [presiding.] You know, this has been a very 
interesting testimony for me this morning because so many 
times, as I mentioned in my introductory remarks, in the 14 
years between 1987 and 2000, when I was the lieutenant Governor 
of Idaho, we always had competing--obviously competing interest 
that seemed to bear absolutely no sympathy for the other side.
    And, you know, I believe that Mr. Lewis and Ms. Miles are 
both very much concerned about your jobs. I believe that you 
are concerned about their traditions. And so that's a big step 
forward. And the demeanor in which everybody in this room has 
presented themselves with this morning, with a couple of 
passionate exceptions, I think is--has brought us to a new 
front and perhaps a new time when we're going to be able to 
consider this in thoughtful process rather than impassioned 
pleas. And that's an important hurdle for us to arrive at. 
Because I think perhaps maybe we finally recognize that we're 
all in this together. And that one doesn't necessitate the loss 
of another. So perhaps it can be win-win.
    I was interested in Doc Hastings'--in Congressman Hastings' 
comments and questions. And one of the reasons I was interested 
in his comments is because under the ESA reform, which has been 
one of the issues that I have worked on for the four-and-a-half 
years that I've been in Congress, is we do, in fact, have some 
advocates, some of our colleagues from mostly the northeast, 
who would actually present in reform of the Endangered Species 
Act that no, no take would be allowed of any species until such 
species had been removed from either the endangered or 
threatened list.
    And so, you know, I don't want to--a long dissertation from 
anybody. But I would like to go down and find out how many of 
you would be willing to support that kind of reform on the 
endangered species list with a simple yes or no, please.
    Mr. Alldredge. No.
    Mr. Koegen. Yes.
    Mr. Otter. Ms. Miles.
    Ms. Miles. No.
    Mr. Otter. Mr. Lewis.
    Mr. Lewis. No.
    Mr. Ott. No.
    Mr. Benson. No.
    Ms. Hamilton. No take would be no hydro.
    Mr. Otter. Pardon me.
    Ms. Hamilton. I said no take would be no hydro.
    Mr. Otter. Now, see. You already broke the rules.
    Ms. Hamilton. No.
    Ms. Ryckman. Yes.
    Mr. Semanko. No.
    Mr. Otter. Well, you see what we're up against. And we're 
supposed to delivered in body in the U.S. Congress.
    And here, I--as I said in my opening remarks, I fully think 
you appreciate the judge's position. And I think you're 
sensitive to each other's position. And in some cases, at least 
in the folks setting here at this table, I truly believe you're 
looking for balance.
    And so if you folks can get together and decide this, I'm 
telling you, the last place in the world that you want to turn 
over everything to is us. And so----
    [Laughter.]
    Mr. Otter. I want to--you know, I want to encourage--I want 
to encourage you. I want to encourage you to use this day as a 
beginning and a new beginning. And one that understands each 
other. And one that has equal enthusiasm for the other person's 
end result. And I think then and only then are we really going 
to wind up to where we need to be.
    Because, you know, if it's going to be the Reddens in the 
world versus the Doc Hastings and the Cathy McMorrises and the 
Butch Otters of the world--he can say whatever he wants. But 
until we fund it, he's not going to get a damn thing.
    He can manage that river if he wants. But if we don't fund 
it, because we don't see the balance in it, he's not going to 
get anything done. But he's going to spend a lot of time out 
there with a shovel trying to herd 30 inches of water. You 
know. And I'm a farmer, so I've had to do that.
    But I just--I really am--I'm really encouraged because I 
think this is the first one of these in all these years that I 
have attended that has ever been met, I think, with the 
appreciation that it has.
    I know that we'll have many more of these hearings. And it 
is my hope, maybe even a prayer, a desperate prayer at this 
point, that it's met with an equal table of reasonableness. 
Because we are looking for balance.
    Do I know balance? Now, I'm listening. I don't know what 
the balance is. But I do know that there are folks like 
yourselves that do know what the balance is. And so I haven't 
got a series of questions to hopefully pick and choose--or to 
pick and choose sides on this. But I do have a hope. And I hope 
that you recognize, as I think I do, that this was really the 
time.
    Do I want to put farmers out of business? No. Do I want to 
put the shipping and the transportation business--do I want to 
disenfranchise Idaho in the Taipei, Taiwan, market?
    I sold 168,000 tons of soft white wheat there in the late 
'80s as the lieutenant Governor of Idaho. And we shipped it. 
And we were proud of it. And I'll tell you what. The only 
reason we got that business and nobody else did is because the 
cheapest transportation known to man, other than throwing it--
and we can't throw it all the way to Taipei--was that water 
system.
    And so that kept us competitive. And that made us 
competitive. And I just happened to notice, by the way, in the 
chart--Doc, would you--what did you do with that chart? Well, 
I've since lost the chart, I guess.
    But I just happened to notice in that year--in those years 
over a million fish returned--totals, all the totals. I'm not 
speaking specific because I--I did see that certain fish didn't 
return in the previous numbers that they had.
    And I think the sockeye salmon was one of them, the pink 
was another, and the chum was another. But I did see that in 
those years, when we were shipping 168,000 tons of soft white 
wheat to the world's plight, to the food market--thank you--in 
1987, 995,370 fish returned, in 1987. 1988, it dropped off a 
little bit. Came back the next year.
    But my point is--my point is that I'm grateful. First off, 
I'm grateful for you being here today and recognizing that you 
do have a position and you have a position that needs to be 
protected and that needs to be considered. Now, but you also 
recognize that the other person does.
    And I would tell you from my four-and-a-half years 
experience at Congress, you've got a whole lot more legitimacy 
in your deliberations then we would have in ours, should it be 
our decision.
    So my thanks for you being here. Are you going to have a 
second round?
    Ms. McMorris. No.
    Mr. Otter. Thank you very much.
    Ms. McMorris. I think on that note we're going to thank the 
witnesses for their valuable testimony, for everyone for being 
here, for the members of the Subcommittee.
    We may--the members of the Subcommittee may have additional 
questions for you. And we would ask you to respond in writing. 
The hearing record well be held open for 30 days for those 
responses.
    If there's no further business before the Subcommittee, I 
again thank the Subcommittee. And our witnesses and the 
Subcommittee stand adjourned. Thank you.
    [Whereupon, at 12:00 noon, the Subcommittee was adjourned.]


    Additional material submitted for the record follows:
    <bullet>  Columbia Basin Development League, Statement 
submitted for the record
    <bullet>  Davis, Rick, Manager, Port of Clarkston, Pictures 
and video submitted for the record (NOTE: Video has been 
retained in the Committee's official files)
    <bullet>  Ducharme, Dick, Board Member, Snake River Salmon 
Recovery Board, Statement submitted for the record
    <bullet>  Givens, James W., Lawyer, Lewiston, Idaho, Letter 
submitted for the record
    <bullet>  Hemsley, Robert, Association of Western Pulp and 
Paper Workers, Statement submitted for the record
    <bullet>  Johns, Ron, Spokane, Washington, Letter submitted 
for the record
    <bullet>  Priestley, Frank, President, Idaho Farm Bureau, 
Boise Idaho, Letter submitted for the record

           Statement of the Columbia Basin Development League

    Mr. Chairman, the Columbia Basin Development League appreciates the 
opportunity to submit this statement in the record that expresses our 
position on the need to recognize the many important uses of water from 
the Columbia/Snake River system, and particularly the value that is 
derived from the Columbia Basin Project.
    The League believes that the Columbia River contains adequate water 
to meet the needs of the multiple uses that draw upon it. We support a 
balanced approach to water management that recognizes all these uses 
and the benefits they provide to the region.
    Specifically, benefits from the Columbia Basin Project come in the 
form of irrigated agriculture, hydropower, recreation and the 
environment, through enhanced fish and wildlife habitat. Communities 
and families particularly in eastern Washington, but also around the 
region and throughout the country, enjoy the economic benefits of the 
Project. The following statistics help quantify the multi-faceted value 
provided by the Project:
    <bullet>  Currently 670,000 acres are under irrigation. Congress 
originally authorized 1,095,000 acres.
    <bullet>  Approximately 2,050 farms are supported by the Project.
    <bullet>  Over 60 different crops are grown on Project lands--many 
of which are shipped throughout the U.S. as well as overseas.
    <bullet>  405,000 acres are dedicated to fish and wildlife habitat 
and water-based recreation.
    <bullet>  Recreational land supports 3-million public visits per 
year.
    <bullet>  Seven hydroelectric facilities on Project canal systems, 
plus the Grand Coulee Dam, produce 6,700 megawatts of electricity--
enough power for six cities the size of Seattle and eight times the 
power needed for Northwest agriculture.
    <bullet>  The annual economic contribution to the State of 
Washington includes:
      <all>  State farm-gate value--over $630 million or 18-percent of 
state gross value
      <all>  Cumulative crop value--$3 billion
      <all>  Property tax revenues--$10 million
      <all>  Average value per irrigated acre--$1,050
      <all>  Annual income from ag processing facilities supported by 
the Project--$548 million
    In its effort to support continued development of the Columbia 
Basin Project, the League has launched a major initiative to bring more 
water to the region--especially to those areas already in production in 
the Odessa Sub-Area. This 250,000-acre agricultural region is in 
serious jeopardy because of the depleting aquifer. Production from the 
Odessa Sub-Area constitutes a significant portion of the agricultural 
economy in eastern Washington. If the Odessa Sub-Area reverts to dry-
land farming because of lack of water, the impact on the state will be 
devastating. Production will be lost. Processing, distribution and 
other farm service businesses will suffer. And the tax base will erode.
    To this end, the League endorses an exchange project that will 
substitute surface water from the Columbia for ground water in the 
Odessa aquifer. The Columbia River is a renewable, sustainable 
resource. It contains plenty of water for everyone, but often it's not 
available at the right time. The agricultural community is doing its 
part by implementing systems and practices that preserve water. The 
next step is to establish adequate off-river storage that will allow 
water to be released when it is needed--both for species protection and 
for agriculture. To advance this project, the League has launched the 
Columbia Basin Water Initiative with three major goals:
    <bullet>  Develop better public understanding of the Columbia Basin 
Project and its ability to address the declining water resources
    <bullet>  Develop cooperative partnerships with affected public 
agencies that would allow use of privately raised money to encourage 
and stimulate appropriate action
    <bullet>  Support legislative action to secure appropriate funding
    The League is committed to bringing together government agencies, 
organizations and individuals who have a stake in developing our water 
resources. We are working closely with the U.S. Bureau of Reclamation 
and the Washington State Department of Ecology to advance a project 
that will bring much-needed water to the Columbia Basin Project. We 
envision that this project will:
    <bullet>  Reduce ground water pumping in the Odessa sub-area, thus 
providing more ground water for the region's cities and industries
    <bullet>  Lead to recharging the Odessa Aquifer--a valuable natural 
resource
    <bullet>  Provide farmers with the opportunity to diversify crop 
production
    <bullet>  Stimulate the economy through an important public works 
project
    <bullet>  Provide additional agriculture infrastructure, such as 
food processing, that will generate jobs
    <bullet>  Provide a safe, adequate domestic food supply--an 
integral component of our national security
    <bullet>  Establish additional fish and wildlife habitat
    Mr. Chairman. Thank you for considering the position of the 
Columbia Basin Development League on this critical issue. We look 
forward to working with you and the committee, as well as with our 
Washington delegation--especially Representatives Hastings and 
McMorris, and Senators Murray and Cantwell--to find solutions that 
protect all the users of the Columbia River.
    If you have questions, or would like further information, please 
contact League Executive Secretary Alice Parker, P.O. Box 1235, Royal 
City, WA 99357. Phone: 509-346-9442 or e-mail to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="117c63626151627c667863747d7462623f7f74653f">[email&#160;protected]</a>
                                 ______
                                 
    [Pictures submitted for the record by Rick Davis, Manager, 
Port of Clarkston, follow:]
[GRAPHIC] [TIFF OMITTED] 21758.003

[GRAPHIC] [TIFF OMITTED] 21758.004

[GRAPHIC] [TIFF OMITTED] 21758.005


         Statement submitted for the record by Dick Ducharme, 
            Board Member, Snake River Salmon Recovery Board

    My name is Dick Ducharme. I currently live on a ranch on the 
Tucannon River, a small tributary to the Snake River located in 
Southeastern Washington. I am a board member of the Snake River Salmon 
Recovery Board, a WRIA 32 (Walla Walla River Basin) planning unit 
member, a member of the WRIA 35 (Middle Snake River Area) planning 
unit, and a board member of the Walla Walla Watershed Alliance.
    The WRIA 32 Planning Unit just completed the plan for the Walla 
Walla River basin, a four year process entailing over 200 meetings and 
7200 volunteer and consultant hours. It was adopted unanimously by 
local governments, the Confederated Tribes of the Umatilla Indian 
Reservation and all of the individual members of the planning unit. The 
Snake River Salmon Recovery Board is in the final process of adopting 
its plan which is over 600 pages in length and has had technical input 
from the CTUIR, Washington Department of Fish and Wildlife, NOAA - 
Fisheries, U.S. Department of Fisheries and the Washington Dept. of 
Ecology.
    I list my activities in these planning efforts as evidence of my 
familiarity of the issues involved before the sub-committee but do not 
make this presentation on behalf of any of these organizations. This 
presentation is solely on my own behalf as a citizen residing within 
the Snake River Basin.
    There have been many reasons reiterated over and over for the 
removal of the four dams on the middle Snake River. The latest 
reiteration of these reasons was put forth by former Secretary of the 
Interior, Bruce Babbitt, in a round of editorial board meetings he made 
in major metropolitan centers such as Los Angeles and New York. Most of 
the reasons put forth have been discredited as lacking any scientific 
justification but should be addressed point by point once again for the 
benefit of the subcommittee.
    First, the dams have not made the ``wild Snake'' into a slack water 
barge channel. The dams are run of the river dams with significant 
current running between them at all times. This current can be 
seasonally increased to benefit fish passage by the operation of the 
many dams on the system above the dams in question. Recent studies 
indicate that distance from the ocean and not time of travel is the 
determining factor on mortality. Also the ``hot pools of death'' 
argument has been used by the environmentalists to justify removal when 
in fact it has been shown the dams can actually provide cooler 
summertime water temperatures than if they were removed.
    Second, the near extinction of the Redfish Lake sockeye in Idaho 
claimed to be a result of the dams has been shown to be the result of 
the State of Idaho's decision at one time to enhance the Redfish Lake 
rainbow trout fisheries by poisoning the resident sockeye salmon. 
Poison is the reason why only one fish was left to spawn.
    Third, Chinook salmon and steelhead runs for the past six years are 
at all time record levels. This includes both spring and fall Chinook 
and includes both hatchery and wild stock. The runs have been the 
largest since counts were started at Bonneville Dam. Bonneville was one 
of the first dams on the Columbia system so current fish counts are 
greater than before most of the dams above Bonneville were constructed.
    An extremely important fact is that ninety five percent of all 
Snake River fall Chinook Salmon spawning historically took place above 
Hells Canyon Dam. This dam is on the Snake River immediately above the 
four Middle Snake River dams. Hells Canyon Dam has no fish passage 
facilities. Even if you removed the four Middle Snake River dams this 
upstream fall Chinook Salmon spawning habitat would remain 
inaccessible.
    Fourth, the ability to move the wheat by rail that moves by barge 
at anywhere near the same cost, if at all, is a complete fabrication. 
Anyone at all knowledgeable about eastern Washington transportation 
knows that neither the Burlington Northern Santa Fe nor the Union 
Pacific have sufficient rail cars to meet the current rail demand for 
grain shipments. In fact, this rail duopoly ships grain when they want 
to and not when producers need to get it to the ports. There is no way 
they could physically ship additional grain as their mountain pass 
lines to the coast and its ports are currently at full capacity. The 3 
to 7 cents per bushel savings from barge shipment Babbitt speaks of is 
only because of the barge shipping alternative. The real cost 
difference without barge competition would be somewhere between 20 and 
30 cents per bushel and that was before the recent increases in the 
price of fuel. Washington and Oregon agricultural products shipped on 
the river are mostly commodities competing in a global economy. 
Increased costs will not be borne by the purchaser but will be at the 
expense of the producer.
    Fifth, neither science nor logic--nor economic theory--supports 
those who would remove the dams. The statement that removing the four 
dams in and of itself would restore the fishery is a falsehood and to 
value the restored fishery at $1 billion annually is a fantasy. Compare 
that with the value of the entire Alaska salmon fishery.
    Are the four dams beneficial to salmonid production? Probably not. 
Is the removal of the four dams in question critical to the recovery of 
salmonid production in the Columbia Basin? Absolutely not. It has been 
scientifically recognized that policies regarding hydro, habitat, 
hatcheries and harvest must be addressed to increase fish production. 
There are scores of dams on the Columbia and Snake River systems many 
of which have greater impact on fish production than the four on the 
Middle Snake River, hi fact there are dams in Representative 
McDermott's backyard on the Skagit River and the Cowlitz River that 
have no fish passage facilities that have done considerably more damage 
to their endangered fish populations that the four dams he seeks to 
remove. Perhaps it is because they are owned by the Cities of Seattle 
and Tacoma and are major producers of electricity for his constituents 
that they are not the subject of this hearing. The removal of the four 
dams is the current cause celeb of the professional environmental 
movement. What is tragic is they are able to champion this simplistic 
solution to a complicated problem in major urban media outlets without 
question. The professional environmental movement excels at propaganda. 
However, in the end, science and truth will be their undoing and bring 
us real solutions to complicated environmental problems.
                                 ______
                                 
    [A letter submitted for the record by James W. Givens, 
Lawyer, Lewiston, Idaho, follows:]
[GRAPHIC] [TIFF OMITTED] 21758.017

[GRAPHIC] [TIFF OMITTED] 21758.018


 Statement submitted for the record by Robert Hemsley on behalf of the 
             Association of Western Pulp and Paper Workers

    The Association of Western Pulp and Paper Workers has more than 
9,000 union members across the Western United States, often in small, 
rural communities such as Wallula, Washington. Our members have a 
special concern for their communities and for the environment. Our 
livelihoods depend upon natural resources: we live in communities where 
natural resources provide a major source of revenue for our children's 
schools; we live in a beautiful region of the world where water is an 
important renewable resource; and we consider ourselves guardians of 
the resources which surround us. We want our grandchildren to inherit 
our economic and environmental legacy.
    Yet, we are discouraged by judicial rulings which restrict citizens 
and remove communities from environmental equations. And we are puzzled 
when some suggest that the destruction of dams would enhance the 
environment. How would the reduction of regional energy enrich our 
economy and enhance the environment? Perhaps we take for granted 
achievements which have transformed our world. One of the greatest 
monuments of the 20th century was the building of dams and the 
harnessing of power: making electricity accessible for everyone and 
connecting citizens and communities-both rural and urban.
    In 1920--within the lifetime of the greatest generation--45 percent 
of residential homes in rural Washington State had no electricity. 
Across the country, the disparity was even greater: only seven percent 
of the six and half million farms in the United States had electricity. 
(``Rural'' was defined in the 1920 Census as population centers with 
fewer than 2,500 people). Imagine, entire regions without electricity 
for homes, farms, and schools. Poverty was pervasive in rural America-
even before the Great Depression, yet it was during the Great 
Depression that Americans began to escape poverty and to create 
prosperity for generations by generating hydroelectric power for homes, 
agriculture, and communities. As electricity connected regions, 
agriculture and manufacturing developed and families prospered in 
communities previously ignored by the outside world.
    This connection of communities changed the social structure of our 
country. Communication enlivens democracy as more citizens are able to 
participate in the process. In 1930, before the creation of the 
Tennessee Valley Authority, fewer than one percent of African-American 
families living in several southern states owned a radio. The 
establishment of affordable electricity not only enhanced economic 
opportunity across the South, it also hindered oppression as citizens 
began to connect with the outside world.
    And democracy always thrives when the child of a mill worker has 
the same opportunities as the child of a mill manager. In many of our 
union mills, three and four generations of a family have been employed 
at the same mill. Now, ironically, the children of our union members 
are hired as managers in the mills because of the opportunities 
generated by good, family jobs: opportunities enriched by the 
utilization of renewable water resources and the establishment of low-
cost electricity, which, until recently, had been available and 
affordable to everyone.
    However, communities are endangered and family farms and family 
jobs are jeopardized when government by judiciary ignores the input of 
common citizens.
    The union members of the Association of Western Pulp and Paper 
Workers request that our elected officials remember working families 
and rural communities when recommending resource policy. Common 
citizens-not judicial viceroys-are the proper guardians of our 
resources and our future.
                                 ______
                                 

    [A letter submitted for the record by Ron Johns, Spokane, 
Washington, follows:]
[GRAPHIC] [TIFF OMITTED] 21758.006

[GRAPHIC] [TIFF OMITTED] 21758.007

[GRAPHIC] [TIFF OMITTED] 21758.008

 Statement submitted for the record by The Honorable Jim McDermott, a 
        Representative in Congress from the State of Washington

    Mr. Chairman, thank you for the opportunity to share my views on 
the importance of maintaining a healthy and robust Columbia/Snake River 
system. The Columbia River flows for 1,200 miles, from the Canadian 
Rockies, down through Washington, where it connects with its largest 
tributary, the Snake River, finally feeding into the Pacific Ocean 
along the Washington/Oregon border. In the more than 10,000 years since 
the Columbia River basin was first inhabited, the river and its 
tributaries have been essential to the culture, ecology, development 
and sustainability of the region, providing an abundant source of food 
and fresh water to the region's people.
    More recently, since the construction of hydroelectric dams along 
the Columbia and its tributaries beginning in the early 1900's, the 
river has had a more diverse set of purposes. Construction of the dams 
made possible reliable and affordable power production and enhanced 
irrigation, flood control, and navigation. The Columbia River system 
today, with its hundreds of dams, is the most hydroelectrically 
developed river system in the world. However, one dramatic downside to 
the hydroelectric development of the river has been its detrimental 
effects on fish populations.
    Salmon runs are now at 1-3% of the levels they were when Lewis and 
Clark journeyed through the area. More than a dozen species of salmon 
and steelhead are now so depleted that they have been listed under the 
Endangered Species Act. The dams are not the only reason for the 
declines in fish runs- pollution and habitat degradation have also been 
a factor- but few would dispute that the dams are a major contributor.
    Unfortunately, for a number of reasons, the issue of salmon 
recovery has become an explosive topic in the Pacific Northwest. Too 
many leaders have chosen politics over policy, and the result has been 
a divided region, dwindling salmon runs, and a reliance on the judicial 
branch to make management decisions. I believe the economic, cultural, 
and ecological significance of salmon to the region are not things that 
should be discounted, or used to divide people. It is high time that we 
in the Northwest start making decisions based on sound public policy, 
not political expedience.
    I was disheartened to see that a brochure being distributed by the 
Farm Bureau, announcing this hearing and the rally beforehand, 
characterized my intentions as wanting to ``remove 4 dams, just for 
starters'' and my bill, the Salmon Planning Act, as a bill ``to destroy 
four dams.'' This is a gross mischaracterization of my position and my 
legislation, and it is precisely the kind of dialogue that has divided 
this region and served everyone poorly.
    On the contrary, I do not take any joy in the thought of removing 
the four Lower Snake River dams, nor have I concluded that it is 
necessary. And I find the suggestion that I want to remove other dams 
in the region laughable. My bill does not propose that we remove the 
dams. It proposes that we find out what removing the dams would and 
would not do for salmon and for local communities.
    The Salmon Planning Act, if one were to take the time to read it, 
authorizes a study to determine the effects that removal of those four 
dams could have on the region. The study includes the effects on 
communities near the dams, transportation along and on the river, 
irrigation, energy production, and salmon populations.
    Many people point out that the Lower Snake River dams irrigate very 
few farms and provide only 4% of the region's electricity, and that the 
products that are currently barged from Lewiston can alternately be 
moved by trucks and rail. They point to the fact that in April of this 
year the Potlatch Company, the largest container-shipping client of the 
Port of Lewiston, shipped only 46 containers of paper products through 
Lewiston, down from 548 containers in April, 2004. Others would argue a 
different view. The Salmon Planning Act would require the Government 
Accountability Office, the non-partisan investigative arm of Congress, 
to study these issues and provide Members of Congress with the unbiased 
scientific and economic data they need in order to make balanced, 
informed decisions about the future of this region.
    Spring Chinook run projections this year have been revised downward 
from 250,000 to 80,000. We can't count on ocean conditions to continue 
to save the day. Let's not fool ourselves, with the way things have 
been going the timeline on extinction is very short. If we continue 
heading on this course, the courts are going to have to force this 
decision on Congress without everyone knowing exactly what that would 
mean.
    Lastly, Section 5 of my bill speaks to a legal loophole that has 
been identified by the U.S. Army Corps of Engineers. The Army Corps has 
testified that it lacks legal authority to remove the dams, even if 
directed to by Congress. My bill removes this loophole, leaving the 
Corps able to carry out a potential Congressional mandate. The Salmon 
Planning Act does not pre-judge the question of dam removal- it just 
asks that Congress be provided with the highest quality information on 
this issue so that it can make decisions that are in the best interest 
of our region.
    Opponents of the bill have tried to use this section to say that if 
the bill passes the dams will be removed. That is completely untrue. 
The Army Corps would still have to determine that removal was 
necessary, and Congress would still have to appropriate hundreds of 
millions of dollars to carry out the work. Section 5 does not tear down 
the dams, it merely removes legal uncertainty about whether the Army 
Corps can remove the dams if directed to do so.
    We have a legal, moral, and economic responsibility to restore 
salmon runs to healthy, harvestable levels. Recent studies have shown 
that restored fisheries could bring $5.5 billion annually to the 
Northwest for the sport-fishing industry and the local communities and 
businesses that support it. That figure doesn't even take into 
consideration the economic benefit that restored runs would bring to 
tribal and commercial fisheries.
    Recently, a letter was delivered to Members of Congress from more 
than 1,000 businesses supporting the Salmon Planning Act. If you look 
at the list of businesses on the letter, I think the economic benefit 
of restored salmon runs becomes apparent. Businesses signing the letter 
include fishing groups, outfitters, fishing equipment providers, 
sporting goods companies, rafting and fishing guides, hotels, 
restaurants, and boating companies, indicating the wide range of 
service industries that stand to gain from healthy fish runs. These 
companies are located in more than 35 states, highlighting the regional 
and national benefits of a restored fishery. The list includes major 
corporations, such as Patagonia and Helly Hansen, small family-owned 
businesses, and everything in between. People need to understand that 
this is not just an environmental issue- common-sense salmon recovery 
is also about protecting family-wage jobs and supporting rural 
communities.
    I hope that my bill and the issue of salmon recovery in general are 
given serious consideration at this hearing. Last year 111 Members of 
Congress cosponsored the Salmon Planning Act, and already this year we 
have new cosponsors from both parties. The sooner we stop 
mischaracterizing each other's intentions and start committing 
ourselves to serious public policy discussions on this issue, the 
better off the region will be.
                                 ______
                                 

    [A letter submitted for the record by Frank Priestley, 
President, Idaho Farm Bureau, Boise Idaho, follows:]
[GRAPHIC] [TIFF OMITTED] 21758.009

[GRAPHIC] [TIFF OMITTED] 21758.010


    Information submitted by the following individuals has been 
retained in the Committee's official files:
    <bullet>  Alby, Ted, Ph.D., Paradox Northwest Associates, 
Inc., Vancouver, Washington
    <bullet>  Arnett, Jim, Clarkston, Washington
    <bullet>  Aschkenasy, Herbert
    <bullet>  Barnes, Barry M., President, Riverview Marina, 
Custom Boats, Barnes Inc.
    <bullet>  Bayley, Joseph
    <bullet>  Bolon, Robert N.
    <bullet>  Borck, Gretchen, Director of Issues, Washington 
Association of Wheat Growers, Ritzville, Washington
    <bullet>  Boyd, Will, Moscow, Idaho
    <bullet>  Brock, Frank, Chair, Board of County 
Commissioners, Franklin County
    <bullet>  Burch, Eddie W., Georgia Pacific, Crossett, 
Arkansas
    <bullet>  Burns, James, Milton-Freewater, Oregon
    <bullet>  Case, Dale, Cove, Oregon
    <bullet>  Clevenger, Garrett, Moscow, Idaho
    <bullet>  Crea, Bill, Fenn, Idaho
    <bullet>  Crews, Bob
    <bullet>  Cummings, Kenneth, Region Manager, Forest Capital 
Partners
    <bullet>  Cutsforth, Penelope T., Pendleton, Oregon
    <bullet>  Darland, Chuck, Central Point, Oregon
    <bullet>  Detering, Julia
    <bullet>  Dokken, David
    <bullet>  Ellsworth, Don
    <bullet>  Elskamp, Paula, Chair, Lewis Clark Chapter, Idaho 
Women in Timber
    <bullet>  Emtman, Jeff, State President, Washington 
Association of Wheat Growers
    <bullet>  Evett, Arlene, Elk City, Idaho
    <bullet>  Evett, Mike, Elk City, Idaho
    <bullet>  Fletcher, Douglas
    <bullet>  Gasser, Robert and Patsy, Merrill, Oregon
    <bullet>  Gifford, Jeff, Chairman of Pulp and Paperworkers' 
Resource Council
    <bullet>  Harris, Ron and Judy, Ione, Oregon
    <bullet>  Hathway, JoAnn, Corvallis, Oregon
    <bullet>  Hays, John V., Rancher, Unity, Oregon
    <bullet>  Helms, Deborah, Lewiston Idaho
    <bullet>  Heminger, Howard, Ontario, Oregon
    <bullet>  Hendricks, Frances, Aumsville, Oregon
    <bullet>  Hennings, Curtis R., Chairman, Washington Wheat 
Commission
    <bullet>  Hosken, Charles, General Manager, Public Utility 
District No. 1
    <bullet>  Johnson, Larry, Director of Corporate 
Development, Agency Relations, Southern Minnesota Municipal 
Power Agency
    <bullet>  Keifer, John, Boise, Idaho
    <bullet>  Klemm, Jerry, Chairman, Joint Lewiston, Idaho/
Clarkston, Washington Chambers, Natural Resources Committee
    <bullet>  Kovash, Arlene, Oregon Women for Agriculture
    <bullet>  Loaiza, Mark, Troy, Idaho
    <bullet>  Mayhew, Gary, Arkansas
    <bullet>  Meeks, David, Donna, Leslie, and Jamison, 
Lewiston, Idaho
    <bullet>  Meyer, Bruno, Medford, Oregon
    <bullet>  Moll, Glenn F., President Pro-Tem, Village of 
Newberry, Michigan
    <bullet>  Nichols, Cynthia, Moscow, Idaho
    <bullet>  Penegor, Suzanne L., Eugene, Oregon
    <bullet>  Peterson, Margery and Farrell
    <bullet>  Reid, Charles, Student, University of Arizona
    <bullet>  Reynolds, Keith, Fort Spring, West Virginia
    <bullet>  Riddle, Lee, Brookings, Oregon
    <bullet>  Robison, Daryl C., Sixes, Oregon
    <bullet>  Rud, Paul, Lewiston Chamber Board, Lewiston, 
Idaho
    <bullet>  Ruddenklau, Helle, Amity, Oregon
    <bullet>  Schell, Pete, Schell Industrial Design, Elk, 
Washington
    <bullet>  Schott, David R., Executive Vice President, 
Southern Oregon Timber Industries Association, Medford, Oregon
    <bullet>  Stacey, Kathy E., Idabel, Oklahoma
    <bullet>  Stark, Wendell M., Orofino, Idaho
    <bullet>  Stewart, Wayne K., Otis Orchards, Washington
    <bullet>  Stout, Benjamin B., Ph.D., Albany, Oregon
    <bullet>  Tacke, Neal, CLD Pacific Grain, Lewiston, Idaho
    <bullet>  Thomas Jack E., III, Gladstone, Michigan
    <bullet>  Van Leuven, Rian
    <bullet>  Winowiecki, Leigh, Moscow, Idaho
    <bullet>  Wittman, R.L. ``Dick'', Wittman Farms, Culdesac, 
Idaho

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
